<html>
<title> - DEPARTMENT OF THE INTERIOR AND RELATED AGENCIES APPROPRIATIONS FOR 2000</title>
<body><pre>[House Hearing, 106 Congress]
[From the U.S. Government Printing Office]



 
 DEPARTMENT OF THE INTERIOR AND RELATED AGENCIES APPROPRIATIONS FOR 2000

_______________________________________________________________________

                                HEARINGS

                                BEFORE A

                           SUBCOMMITTEE OF THE

                       COMMITTEE ON APPROPRIATIONS

                         HOUSE OF REPRESENTATIVES

                       ONE HUNDRED SIXTH CONGRESS
                              FIRST SESSION

                                ________

   SUBCOMMITTEE ON THE DEPARTMENT OF THE INTERIOR AND RELATED AGENCIES

                      RALPH REGULA, Ohio, Chairman

 JIM KOLBE, Arizona                 NORMAN D. DICKS, Washington
 JOE SKEEN, New Mexico              JOHN P. MURTHA, Pennsylvania
 CHARLES H. TAYLOR, North Carolina  JAMES P. MORAN, Virginia
 GEORGE R. NETHERCUTT, Jr.,         ROBERT E. ``BUD'' CRAMER, Jr.,
Washington                            Alabama
 ZACH WAMP, Tennessee               MAURICE D. HINCHEY, New York
 JACK KINGSTON, Georgia
 JOHN E. PETERSON, Pennsylvania     

 NOTE: Under Committee Rules, Mr. Young, as Chairman of the Full 
Committee, and Mr. Obey, as Ranking Minority Member of the Full 
Committee, are authorized to sit as Members of all Subcommittees.

Deborah Weatherly, Loretta Beaumont, Joel Kaplan, and Christopher Topik
                            Staff Assistants

                                ________

                                 PART 6
                                                                   Page
 Public Witnesses for Indian Programs.............................    1
   Additional Written Testimony...................................  317

                              <snowflake>


                                ________

         Printed for the use of the Committee on Appropriations

                                ________

                     U.S. GOVERNMENT PRINTING OFFICE
 56-773                     WASHINGTON : 1999


                        COMMITTEE ON APPROPRIATIONS

                   C. W. BILL YOUNG, Florida, Chairman

 RALPH REGULA, Ohio                    DAVID R. OBEY, Wisconsin
 JERRY LEWIS, California               JOHN P. MURTHA, Pennsylvania
 JOHN EDWARD PORTER, Illinois          NORMAN D. DICKS, Washington
 HAROLD ROGERS, Kentucky               MARTIN OLAV SABO, Minnesota
 JOE SKEEN, New Mexico                 JULIAN C. DIXON, California
 FRANK R. WOLF, Virginia               STENY H. HOYER, Maryland
 TOM DeLAY, Texas                      ALAN B. MOLLOHAN, West Virginia
 JIM KOLBE, Arizona                    MARCY KAPTUR, Ohio
 RON PACKARD, California               NANCY PELOSI, California
 SONNY CALLAHAN, Alabama               PETER J. VISCLOSKY, Indiana
 JAMES T. WALSH, New York              NITA M. LOWEY, New York
 CHARLES H. TAYLOR, North Carolina     JOSE E. SERRANO, New York
 DAVID L. HOBSON, Ohio                 ROSA L. DeLAURO, Connecticut
 ERNEST J. ISTOOK, Jr., Oklahoma       JAMES P. MORAN, Virginia
 HENRY BONILLA, Texas                  JOHN W. OLVER, Massachusetts
 JOE KNOLLENBERG, Michigan             ED PASTOR, Arizona
 DAN MILLER, Florida                   CARRIE P. MEEK, Florida
 JAY DICKEY, Arkansas                  DAVID E. PRICE, North Carolina
 JACK KINGSTON, Georgia                CHET EDWARDS, Texas
 RODNEY P. FRELINGHUYSEN, New Jersey   ROBERT E. ``BUD'' CRAMER, Jr.,
 ROGER F. WICKER, Mississippi            Alabama
 MICHAEL P. FORBES, New York           JAMES E. CLYBURN, South Carolina
 GEORGE R. NETHERCUTT, Jr.,            MAURICE D. HINCHEY, New York
Washington                             LUCILLE ROYBAL-ALLARD, California
 RANDY ``DUKE'' CUNNINGHAM,            SAM FARR, California
California                             JESSE L. JACKSON, Jr., Illinois
 TODD TIAHRT, Kansas                   CAROLYN C. KILPATRICK, Michigan
 ZACH WAMP, Tennessee                  ALLEN BOYD, Florida
 TOM LATHAM, Iowa
 ANNE M. NORTHUP, Kentucky
 ROBERT B. ADERHOLT, Alabama
 JO ANN EMERSON, Missouri
 JOHN E. SUNUNU, New Hampshire
 KAY GRANGER, Texas
 JOHN E. PETERSON, Pennsylvania     
                                    

                 James W. Dyer, Clerk and Staff Director

                                  (ii)



DEPARTMENT OF THE INTERIOR AND RELATED AGENCIES APPROPRIATIONS FOR 2000

                              ----------                              


 TESTIMONY OF MEMBERS OF CONGRESS AND OTHER INTERESTED INDIVIDUALS AND 
                             ORGANIZATIONS

                              ----------                              

                                          Thursday, April 15, 1999.

                         INDIAN HEALTH SERVICE

                                WITNESS

S. TIMOTHY ROSE, PRESIDENT, AMERICAN DENTAL ASSOCIATION
    Mr. Regula [presiding]. We'll get started a few minutes 
early. We've got a long list today. I'm glad to welcome all of 
you, and we'll put all your statements in the record. We only 
have 5 minutes for each of you, so you'll have to summarize the 
points that you want to make for the committee. The staff will 
read the statements and take into consideration the information 
that you provide.
    So with that, we'll get started. Our first witness this 
morning is the American Dental Association. Welcome.
    Mr. Rose. Good morning, Congressman Regula. On behalf of 
the American Dental Association, thank you, Mr. Chairman, for 
this opportunity to testify on the Fiscal 2000 appropriations 
for the Indian Health Service. I am Dr. Tim Rose. I'm president 
of the American Dental Association and I'm a practicing dentist 
in Appleton, Wisconsin.
    I would like to thank you, Mr. Chairman, for your 
unwavering support of Indian people through your numerous floor 
statements and other activities. The Association greatly 
appreciates the committee's direction to the administration to 
appropriately address this issue.
    As you know, Mr. Chairman, the ADA has maintained a keen 
interest in the oral health of Indian people for over 30 years. 
We have seen a large and growing disparity between oral 
conditions of Indian people and those affecting other members 
of the American population. Our concern is heightened by the 
fact that the Indian Health Service has been losing resources 
needed to adequately address these problems. Since 1992, the 
Indian Health Service has not received full mandatory cost 
increases to maintain oral health services. The Indian Health 
Service dental programs' loss of $9 million has resulted in 
undercutting the capacity to serve Indian people.
    Today, only 24 percent of the Indian people have access to 
dental care. The ADA recommends that the Indian Health Service, 
with the support of Congress, adopt an oral health goal of 
restoring access to dental service over the next three years to 
a 33 percent annual utilization rate that existed in the early 
1990's.
    We believe this can be accomplished by the following 
actions:
    First, fund the pay increases for dental staff included in 
Title 38 Pay Options. In recent years, the Indian Health 
Service has struggled to recruit and retain dentists. The 
average salary for an Indian Health Service dentist remains 
well below that of a private practice dentist. The lack of 
parity in pay, combined with high student loan debt, which last 
year averaged almost $85,000 per graduate of an American dental 
school, has the Indian Health Service experiencing a dental 
workforce crisis. As of January 1999, there were over 76 dental 
officer vacancies in the Indian Health Service. To address this 
shortage and hire 56 more dentists, the Indian Health Service 
Dental Program has secured the authority to use a special pay 
option to pay incoming Indian Health Service dentists higher 
salaries. However, it is essential that Congress include an 
additional $1.5 million for the Title 38 salaries for this to 
occur.
    The Association believes that enhancing the Student Loan 
Repayment Program is vital to recruiting Indian Health Service 
dentist. The Student Loan Repayment Program is clearly the most 
effective tool in recruiting dentists. Last year, the Indian 
Health Service received initial inquiries from over 100 
dentists. However, after learning that only 10 to 12 dentists 
would receive loan repayment offers, only 33 dentists applied 
for the program. The ADA recommends an increase of $2 million 
for the Loan Repayment Program be earmarked for dentists.
    Finally, we urge the committee to adopt the President's 
budget request of $7 million for the dental program. This 
increase will allow the dental public health infrastructure to 
be rebuilt and to serve an additional 25,000 needy patients.
    Mr. Chairman, my written statement contains further details 
on these recommendations to enhance dental care for Indian 
people. However, before I finish, I would like to say that I am 
also here to present written testimony from the Friends of 
Indian Health, a coalition of 35 health care organizations and 
individuals dedicated to improving the health of Indian people. 
The Friends Coalition would like to thank you personally for 
your efforts to improve the fiscal 1999 budget for the Indian 
Health Service. The actions taken by this committee sent a 
strong message to the administration that their budget fell far 
short of addressing the health care needs of Indian people.
    Recent studies have shown that Indian people have the 
lowest life expectancy of any of our citizens. An Indian person 
born today can expect to live 4.4 years less than the average 
American citizen. Indian people suffer disproportionately from 
higher morbidity and mortality rates than all other U.S. 
populations. For example, the rate of alcoholism is 950 percent 
higher. The rate of Tuberculosis is 630 percent higher. And the 
rate of diabetes is 350 percent greater than other populations.
    The Friends support the budget of $2.6 billion for Indian 
Health Services. The Coalition believes that the funding level 
is vital to restore the decreases that have occurred in this 
important primary health care service.
    Thank you very much for allowing me to testify.
    Mr. Regula. One quick question, do you get many dentists 
out of the Indian population?
    Mr. Rose. No, we don't. But I want you to know 
we'reactively working at that process, not only at the American Dental 
Association, but the American Association of Dental Schools have 
launched a major program to try and recruit Native Americans into 
dental schools.
    Mr. Regula. Great, thank you very much.
    Mr. Rose. Appreciate the opportunity.
    [The statement of Mr. Rose follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
                                          Thursday, April 15, 1999.

                         FISHERIES ENHANCEMENT


                               WITNESSES

ALVIS JOHNSON, TRIBAL CHAIRMAN, KARUK TRIBE OF CALIFORNIA
CROW MUNK, TRIBAL MEMBER
    Mr. Regula. The Karuk Tribe of California?
    Mr. Johnson. Good morning, Mr. Chairman.
    Mr. Regula. Good morning.
    Mr. Johnson. I'm Alvis Johnson, Chairman for the Karuk of 
California. I have Crow Munk here to make the presentation.
    Mr. Regula. Okay.
    Mr. Munk. Good morning, Mr. Chairman.
    Mr. Regula. Good morning.
    Mr. Munk. We've met in the past, you may recall. We've come 
to talk to you today about an issue we're faced with on the 
Klamath River. As you probably know, there have been listings 
of the Steelhead being threatened and the Coho Salmon being 
endangered. The Karuk Tribe has had a small-scale hatchery in 
rearing of native fish, Chinook Salmon primarily, for 
approximately 14 years. And it has been very successful. It has 
been funded from a number of sources, including U.S. Fish and 
Wildlife and various other funds.
    It is kind of ironic at the present time that with more and 
more listings of fish, that some of the agencies within the 
Department of Interior are feeling that they don't have 
adequate funds to maintain these small-scale hatcheries. In one 
of the contexts, two of the creeks they say that the fish 
populations are now stable are the very ones that we have been 
maintaining for the past 14 years. In order for us to continue 
in this process and to continue the work we've done, we need 
additional funds and a stable base that we can count on year to 
year in order to----
    Mr. Regula. This funding would be to support the hatchery?
    Mr. Munk. To support the hatchery and to actually expand it 
as a joint venture with the United States Forest Service, which 
is contributing to the effort as well. This is our director of 
natural resources, the individual that is actually on the 
ground.
    Mr. Hillman. Yes, we have been operating a small-scale 
hatchery program on the Klamath for a number of years. And at 
this time, these are the only programs in the Basin that are 
operated by the tribes. They're the only programs in the Basin 
that utilize locally adapted native stock, wild fish 
essentially. And we take our brood stock from the actual 
individual tributaries and release them back into those 
tributaries. That has shown to be an extremely effective way of 
doing it versus large-scale hatcheries, which have problems 
with diseases, water temperatures, and things of that nature.
    Klamath stocks have been depressed for a number of years. 
The tributary streams that the Tribe has operated, these small-
scale, locally-adapted, accelerated stocking programs, have 
been essentially the few tributaries in the Basin that have 
maintained stable populations over the last 10 to 15 years.
    Mr. Regula. And you need support for the hatcheries that 
you operate?
    Mr. Hillman. Yes, we're looking for support for that effort 
to bring some stability to the program, which it currently 
doesn't have.
    Mr. Munk. And the other part of it is, there are two 
additional creeks on that drainage in Happy Camp. There was one 
where there used to be a hatchery operated by the Forest 
Service and the Fisheries' biologists, the Forest Service, and 
the Tribe feels that with the threat of listings that it be 
important to reactivate that.
    Mr. Regula. Does the Forest Service work with you on your 
program?
    Mr. Munk. Yes.
    Mr. Regula. You're satisfied with the help you get from 
them?
    Mr. Munk. We have the first and only memorandum of 
agreement with co-management of the Forest Service in the 
United States.
    Mr. Regula. Okay.
    Mr. Munk. We were the first ones.
    Mr. Regula. Well, we'll take a good look at it. Thank you 
for coming.
    Mr. Munk. Appreciate it.
    Mr. Regula. That's a good name, Happy Camp. [Laughter.]
    [The statement of Mr. Johnson follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                                          Thursday, April 15, 1999.

           BUREAU OF INDIAN AFFAIRS AND INDIAN HEALTH SERVICE


                               WITNESSES

GERALD J. JONES, CHAIRMAN, PORT GAMBLE S'KLALLAM TRIBE
DIANE PURSER, COUNCIL MEMBER
    Mr. Regula. Port Gamble S'Klallam Tribe. Good morning.
    Mr. Jones. Good morning.
    Mr. Regula. How are you?
    Mr. Jones. Fine, sir. How are you doing this morning?
    Mr. Regula. Okay.
    Mr. Jones. Good morning, Mr. Chairman and members of the 
committee. My name is Gerald Jones, and I'm the chairman of the 
Port Gamble S'Klallam Tribe. And I have with me this morning 
one of our council members who is going to help me with the 
testimony. Her name is Diane Purser.
    Mr. Regula. Okay.
    Mr. Jones. I appreciate the opportunity to submit our 
testimony regarding the President's Fiscal Year 2000 budget 
request. And my testimony addresses four particular program 
areas for which the Tribe urges the Congress to support funding 
increases for Fiscal Year 2000.
    The first one is the shellfish and endangered species 
funds. Our shellfish, in 1997, the Tribe's right to harvest 
shellfish was affirmed by the Circuit of Appeals, by the 9th 
Circuit Court of Appeals. In order to exercise their rights to 
harvest shellfish, the Tribe must meet a number of court 
imposed management requirements. Although the Tribe has imposed 
a tax on the harvest of shellfish to fund a skeletal harvest 
program, which would provide about $130,000 a year, we are in 
need of additional funding to employ other biologists and 
special people to work with that part of it.
    In addition, the two species of salmon in our treaty were 
recently listed as threatened under the Endangered Species Act. 
The Tribe also needs funds for that to help with the biologists 
and the special programs that has to be met with that part of 
it.
    Diane is going to do the second, third, and fourth one. So 
I'll turn it over to Diane.
    Ms. Purser. Thank you. I am very honored today to be here 
to submit oral testimony with our chairman, Jake Jones. It will 
be his last visit here for delivering our testimony as he is 
retiring this year after serving 28 years of service for our 
Tribe, and want to mention on record that we really appreciate 
his efforts.
    Mr. Regula. He has done a good job.
    Ms. Purser. Our second point of interest is law 
enforcement. The Port Gamble S'Klallam Tribe supports the 
proposed increases to the BIA and Department of Justice for 
additional tribal police and jail facilities. Our people want 
24 hour police coverage, but in order to do that, we need a 
minimum of six officers. And our level of need at this point is 
$160,000 for additional officers and their equipment and their 
training.
    Mr. Regula. Do these officers come from within your Tribe, 
or are they outsiders?
    Ms. Purser. We have actively tried to recruit members from 
our own Tribe, but we are a very small Tribe and so sometimes 
it's better to have outside officers that enforce.
    Mr. Regula. Okay.
    Ms. Purser. Our third point of interest is contract 
support. Contract support is a very important issue to us right 
now. And the Port Gamble S'Klallam Tribe urges Congress in the 
Fiscal Year 2000 to fully fund the BIA and IHS pools for 
contract support. We are a self-governance Tribe. And being a 
self-governance Tribe, we take on the responsibility of 
providing those services to our community. And we assume this 
responsibility as a very important part of our self-governance 
process. However, because of the contract support shortfall in 
the past six years, funds that were otherwise directed towards 
particular programs like our day care and our education and our 
senior citizens' housing now must be used for contract support 
costs. And like in the past, our emergency food shelters and 
our food banks face elimination again.
    And our fourth point is our tribal courts. The Port Gamble 
S'Klallam Tribe supports the proposed increases for the Fiscal 
Year 2000 within TPA for tribal courts through the Department 
of Justice and for the tribal judicial system. We also urge the 
subcommittee to appropriate additional funds asauthorized under 
the Indian Tribal Justice Act of 1993. The Port Gamble S'Klallam Tribe 
is proud of our tribal court, which is part of the Northwest inter-
tribal court system. And our court provides high-quality justice, and 
we see no evidence of violations of individual civil rights through our 
court.
    Mr. Regula. Thank you very much. We're running out of time. 
Thank you for coming.
    [The statement of Mr. Jones follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                                          Thursday, April 15, 1999.

                         INDIAN HEALTH SERVICE


                                WITNESS

WILFRED COLEGROVE, COUNCIL MEMBER, HOOPA VALLEY TRIBAL COMMUNITY
    Mr. Regula. The Hoopa Valley Tribal Community. Good 
morning.
    Mr. Colegrove. Mr. Chairman, my name is Wilfred Colegrove. 
I'm a member of the Hoopa Tribe and member of the Tribal 
Council. I have with me today Mr. Jasper Hosler, who is also a 
member of the Tribal Council, vice chairman of the Tribe.
    We're here today to testify on behalf of additional monies 
to be placed in the Fiscal Year 2000 budget. The Hoopa Tribe is 
in northern California, near the Oregon border and is somewhat 
isolated. We have eight items that we're requesting today.
    Mr. Regula. I see your list here.
    Mr. Colegrove. So I'll just generally talk about our 
situation. In California, as you know, we're still recovering 
from the termination policies of the 1950's and the 1960's 
whereby they took away all the Indian Health Service 
facilities, completely discontinued services to the State. The 
Hoopa Tribe has been one of the leaders in the forefront of 
reinstating services back to our people. In many cases, it has 
taken the form of putting our own buildings up, contracting 
from Indian Health Service, developing internal management 
systems, everything within the tribal systems. We have a new 
hospital there that we funded through a series of funding, 
through Indian block grant HUD money, through Indian block 
grant monies, tribal monies, and some Indian Health Service 
monies, very little Indian Health Service monies.
    What we're having trouble with now is putting together the 
necessary equipment to make this a well-run product that meets 
the joint qualification standards of the United States in 
quality medicine. We would like to have additional 
consideration for this, including our ambulance program.
    We're on the east side of the mountains, the closest 
community is over 65 miles, over two range of mountains to get 
there to get to emergency services. The Hoopa Tribe has 
basically run their emergency services out of our ambulance 
system over the years, and it is becoming very costly and a 
drain on the Tribe now; and we don't have enough money within 
our Indian Health Service budgets to do that.
    We intend to keep the hospital open 24 hours a day for 
emergency services since we're in Eastern Humbolt County. We're 
the only service available, not only to the Indian people but 
to the other rural part of the communities. The Hoopa Tribe has 
offered the services of their ambulance system and the other 
two to the rest of the adjoining communities.
    We're a timber-based industry community. Sometimes the job 
is very dangerous, working in the woods in the business of 
marketing and harvesting timber. Again, being in a single-
industry economy, the Hoopa Tribe has a request into upgrade 
some of our forest programming. We have been in an economic balancing 
act, along with the rest of Northwest.
    Mr. Regula. Does the Forest Service work well with you?
    Mr. Colegrove. We have a memorandum of agreement with the 
Forest Service mainly because of their creeks that come off of 
the Forest Service land and come on to the reservation and 
empty into the river. So under the Forest Management Option 
Plans that come out of the region, I guess the President's 
Northwest region planning, we do some direct planning with the 
Forest Service. So we do have that and also the Hoopa Tribe has 
become the center of the area activity for fire fighting 
because we have the equipment and we have our own fire-fighting 
crews there. And so we become one of the first to attack to any 
of the areas in our division. So we do have a good working 
relationship.
    Mr. Regula. Well, we're out of time. But we appreciate your 
coming, and we will take a good look at your suggestions.
    Mr. Colegrove. Thank you very much, sir.
    Mr. Regula. Thank you.
    [The statement of Mr. Colegrove follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                                          Thursday, April 15, 1999.

                         INDIAN HEALTH SERVICE


                               WITNESSES

LARRY IVANHOFF, BOARD CHAIRMAN
PAUL SHERRY, PRESIDENT CHIEF EXECUTIVE OFFICER, ALASKA NATIVE TRIBAL 
    HEALTH CONSORTIUM
    Mr. Regula. Alaska Native Tribal Health Consortium.
    Mr. Ivanhoff. Chairman Regula and members of the committee, 
my name is Larry Ivanhoff and I'm from the community of 
Unalakleet on the western Alaska coast; and I am chairman of 
the board of directors of the Alaska Native Tribal Health 
Consortium.
    The Alaska Native Tribal Health Consortium is a statewide 
consortium of Alaskan Native tribes and tribal health 
organizations, operating through a self-governance agreement 
with the Indian Health Service. Our responsibility includes 
managing the statewide health service formerly offered by the 
Alaska Area Office, including statewide tribal support 
services, all environmental health services and engineering 
work, and the Alaska Native Medical Center. We serve 226 tribes 
and over 105,000 Alaska Natives.
    The Alaska Native Tribal Health Consortium is the largest 
tribal health organizations in the United States, and we are 
committed to being the best.
    I am here to encourage your commitment to a 20 percent 
increase in the operating budget of the Indian Health Service. 
A 17 percent recurring increase was proposed by the Department 
of Health and Human Services last fall, and the President is 
supporting a 7 percent increase. Such an increase is essential 
for several reasons:
    First, the agency and the tribal organizations it supports 
must be able to provide for Federal and tribal employee pay 
increases, offset the inflation in medical services and medical 
technology we purchase, and to keep up with our increasing 
beneficiary population. As long as appropriations do not keep 
pace with these factors, American Indian and Alaska Native 
people are gradually losing ground with our health care 
resources.
    Secondly, we have many serious health conditions and 
service needs in the Alaska area which require new and expanded 
resources. The list is long and is being addressed by Ms. Sally 
Smith in the testimony of the Alaska Native Health Board. The 
Consortium requests your attention to several:
    Sanitation facilities remains on our highest priority list. 
We thank the Committee for your support over the past several 
years in increasing the funding in the Sanitation Facilities 
Construction account. We have made important progress in 
funding and building many of the water, sewer, and solid waste 
projects needed by over 100 tribes in my State. However, 
finishing our 10 year plan by 2005 will require a 20 percent 
increase in the Sanitation Facilities account for the next 
year.
    The Health Facilities appropriation likewise needs to be 
increased to support construction of replacement of IHS and 
tribal facilities nationwide, including such projects in Alaska 
as the Metlakatla clinic, the St. Paul Island clinic, and 
hospitals in Barrow and Nome.
    The Alaska Native Medical Center, which we now manage, had 
a $12 million budget shortfall in Fiscal Year 1999. This 
shortfall must be eliminated in Fiscal Year 2000 if we are to 
keep up with the 20 percent increase in patient encounters.
    Mr. Regula. Does this Center serve all the tribes up there?
    Mr. Ivanhoff. Yes.
    Mr. Regula. So it's combined, and the support comes from 
all the tribes too?
    Mr. Ivanhoff. Right.
    Mr. Regula. Thank you.
    Mr. Ivanhoff. Your support for the second year funding for 
the Alaska Federal Health Care Access Network project, which 
began in 1999, will guarantee that this four year telemedicine 
project continues on schedule. The requested Fiscal Year 2000 
Indian Health Service contribution is $8 million.
    Finally, the appropriation increase must address the 
continuing national shortfall for tribal contract support 
costs. Last year's increase of $35 million promises to allow 
all tribes and tribal organizations to reach 70 percent of 
their contract support needs. Additional appropriations to 
address the remaining $105 million shortfall must beprovided to 
the Indian Health Service in the coming year. Without this support, 
tribal organizations such as ours cannot adequately manage the health 
programs we are now responsible for.
    We request your full consideration of upcoming reports from 
the General Accounting Office, from the Indian Health Service 
working group, and the National Congress of American Indians 
working group on the contract support issue.
    In closing, I want to thank the committee for the 
invitation to speak before you on these issues of great concern 
to all Alaska Natives.
    Thank you.
    Mr. Regula. Thank you. We appreciate the information, and 
we'll take a good look at your testimony.
    Mr. Ivanhoff. Great, thank you.
    [The statement of Mr. Ivanhoff follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                                          Thursday, April 15, 1999.

           BUREAU OF INDIAN AFFAIRS AND INDIAN HEALTH SERVICE


                                WITNESS

BENNIE ARMSTRONG, CHAIRMAN, THE SUQUAMISH TRIBE
    Mr. Regula. The Suquamish Tribe.
    Mr. Armstrong. Good morning, Mr. Chairman.
    Mr. Regula. Good morning.
    Mr. Armstrong. And members of the subcommittee. My name is 
Bennie Armstrong, chairman of the Suquamish Tribe. This is 
Kevin George and Georgia Rye. It is my pleasure to appear 
before you this morning to testify in support of funding levels 
that will allow the Federal Government to meet its trust 
responsibilities to the Suquamish Tribe and to the 500 other 
Federally recognized tribes in the country. Our written 
testimony submitted for the record contains specific details 
for those programs and initiatives we feel deserve the 
subcommittee's support for Fiscal Year 2000.
    My comments to you this morning, however, will focus on my 
personal concern regarding the ongoing difficulty of tribal 
government in meeting the most basic needs of our tribal 
members. This difficulty can be traced to the failure of 
previous Congresses to provide adequate funds that would allow 
us to do our job. I firmly believe that as this Nation prepares 
to enter a new millennium, the unmet needs of tribal 
governments must become a priority in Congress.
    The Suquamish Tribe is located on the Port Madison Indian 
Reservation in Kitsap County, Washington, just across Elliott 
Bay from the City of Seattle, named for our great chief Sealth. 
Approximately 60 percent of our 8,000 acre reservation is held 
in trust and in recent years, we have developed positive and 
working relationships with Kitsap County, local jurisdictions 
of the cities of Poulsbo and Bainbridge Island, and the North 
Kitsap Fire and Rescue Agency. The relatively modest revenues 
from our gaming enterprise help supplement our budgets in the 
local government entities.
    Like other local governments, the Suquamish Tribe has a 
difficult time addressing the unmet needs of our 840 tribal 
members. Our self governance compact with the Federal 
Government provides us with the hope that we will be able to 
meet those needs by setting priorities as a community and 
allocating resources accordingly. Unfortunately, the experience 
has shown that when Congress provides inadequate funds to our 
tribe to meet basic needs, we continually operate in a crisis 
mode. The most glaring example of this budget squeeze is in the 
areas of contract support costs under our annual funding 
agreements with the Bureau of Indian Affairs and the Indian 
Health Service.
    In 1998, our Tribe's unmet costs in the health care 
amounted to $578,000. Under our BIA-funded programs, including 
Indian child welfare, higher education, tribal justice, police 
and fisheries, the amount of under-funding came to over 
$135,000. The overall tribal cost of the Tribe covering the 
unmet needs of our Government services in 1999 came to just 
over $1 million. To continue providing vital services to our 
members, the Suquamish Tribe has been forced to spend its own 
resources to meet the Federal Government's treaty-based 
obligations. Doing so severely restricts our ability to address 
other areas of concern of our members. If this trend continues, 
our ability to meet Government to Government responsibilities 
in upcoming years will be damaged.
    Mr. Chairman, the Suquamish Tribe sees great challenges and 
opportunities facing our community in the new millennium. We 
recently dedicated a new youth center. We took an old tavern 
and turned it into a computer learning center, available to the 
entire community from preschool all the way to our elders. 
College-level courses are being offered at that site, and we 
are currently seeking to establish a community-wide fiber optic 
and wireless network for both native and non-native members of 
our reservation.
    A recent Supreme Court decision on the treaty right to 
harvest shellfish will require careful planning with our 
neighbors and assure a healthy and productive habitat, 
responsible harvest management, and ongoing resource 
enhancement. We cannot allow the management of shellfish 
resource to be subjected to the kind of politically-driven 
harvest decisions that pushed some of our salmon runs to the 
brink of extinction. Over the last year, our tribal 
hatcheryreleased 1.1 million salmon to the benefit of the entire 
region. Last year, we had a record return of 30,000 chum salmon, a 
record for any hatchery in our State. We are doing our part to save the 
salmon.
    The Suquamish Tribe has developed a working relationship 
with the Port of Seattle, the State Department of 
Transportation, and the Puget Sound Naval Shipyard in areas of 
expansion and development. We have an excellent dialogue with 
Kitsap County in the critical area of growth management.
    I cannot emphasize how the ability of the Suquamish Tribe 
to meet the challenges of the new millennium depend upon 
renewed Federal commitment to adequately fund those treaty-
based obligations it undertakes. In an era of Federal budget 
surplus, the time has come to end the Federal deficit in 
essential tribal government spending. The health of our tribal 
members and the future success of our tribal governments 
requires no less.
    Mr. Regula. I will keep your concerns under consideration, 
and we do try to meet the needs.
    Mr. Rye. Mr. Chairman, could I add two more comments, 
please? Just to summarize, and I don't want to over-cede 
anybody's time, I want to thank Congressman Dicks in his 
absence for the support of the Endangered Species Act effort in 
the Northwest, and to acknowledge that the tribes are committed 
to being at the table. And the tribal governments across the 
Northwest will be key players in saving the salmon resource, 
and we are dedicated to that. Our cultures are contingent on 
that. We have the best successful track record of all salmon 
enhancement programs in Washington State at the Suquamish 
Tribal hatchery. We will continue to pursue that. Coupled with 
that is going to be an emphasis in the future on the shellfish 
management issue. And so I just wanted to call those two issues 
to your attention, and thank you for your support and 
consideration of those fundings.
    Mr. Regula. Thank you, and we'll pass the message on to Mr. 
Dicks.
    Mr. Rye. Thank you.
    [The statement of Mr. Armstrong follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                                          Thursday, April 15, 1999.

           BUREAU OF INDIAN AFFAIRS AND INDIAN HEALTH SERVICE


                                WITNESS

JAMES PETERS, ON BEHALF OF CHAIRMAN DAVE LOPEMAN, SQUAXIN ISLAND TRIBE
    Mr. Regula. The Squaxin Island Tribal Community. Good 
morning.
    Mr. Peters. Good morning. Mr. Chairman, members of the 
subcommittee, on behalf of the Squaxin Island Tribe, my 
chairman is unable to make it here and he asked me to come and 
testify in front of you today.
    My name is Jim Peters. I'm the natural resources director 
for the Squaxin Island Tribe, and I've handed out our full 
concerns.
    Mr. Regula. Yes, your testimony will be made a part of the 
record.
    Mr. Peters. So I'm just going to touch on some----
    Mr. Regula. Summarize for us, please.
    Mr. Peters. Summarize some stuff. Just like the Suquamish 
Tribe had just commented, the importance of some support from 
this committee on shellfish management funds for the tribes in 
the Pacific Northwest to manage and co-manage the resources. 
And they're very important. We're requesting some money for the 
Tribe and also supporting the Northwest Indian Fish 
Commission's request of $1.9 million to do this. One of the 
things to understand is to manage these resources is a very 
complicated type of situation with intertidal issues dealing 
with clams and oysters and doing surveys, working with local 
private landowners and also the industries, to be able to work 
together to get boundaries, surveys, and the commercial 
quantities of clams and oysters on this.
    The other part of this resource that we have to manage is 
very complicated and time requirements is the sub-tidal geoduck 
harvesting, and also the crab and shrimp and sea cucumbers. 
There are specialties that we have to have with staff and also 
equipment that staff can use to conduct some of these sub-tidal 
type of surveys to do them in a safe manner.
    Also, with part of this management funds is for enforcement 
of the resource, which then we can put out a product that is 
safe for the consumer, dealing with sanitation and things like 
that. We're working closely with the State health department 
and also the national organizations to deal with sanitation and 
a safe product going to the consumers throughout the Nation. So 
for us to have an active role and participation in that 
process, we need to have these specialists to participate in 
these discussions.
    The other parts of our testimony, like I said before, was 
to support the Northwest Indian Fish Commission's request for 
the shellfish monies. But also to touch on another topic was 
the timber, fish, and wildlife agreement that the State of 
Washington, the tribes, timber industries, environmental groups 
are dealing with the Endangered Species Acts ondealing with 
private landowners, large timber companies and things like that to be 
able to deal with riparian zones and protecting the natural fish 
habitat. This is a $4 million request for the tribal's participation in 
monitoring and research in cooperation with timber companies and also 
the State of Washington and forest practices.
    Mr. Regula. All right. Well, we appreciate your testimony. 
And we'll take it under consideration.
    Mr. Peters. All right, thank you very much.
    Mr. Regula. Thank you.
    [The statement of Mr. Peters follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                                          Thursday, April 15, 1999.

           BUREAU OF INDIAN AFFAIRS AND INDIAN HEALTH SERVICE


                                WITNESS

TIMOTHY BALLEW, CHAIRMAN, LUMMI INDIAN BUSINESS COUNCIL
    Mr. Regula. Lummi Indian Business Council.
    Mr. Ballew. Good morning, Mr. Chairman.
    Mr. Regula. Good morning.
    Mr. Ballew. On behalf of the Lummi, we want to thank you 
for allowing us to get up and say a few words about our Nation 
and our concerns. My name is Timothy Ballew. I am the chairman 
of the Lummi Indian Nation, and I have to my right Ray Morris, 
a council member and John Green, the secretary of our Business 
Council.
    Mr. Regula. How many members do you have?
    Mr. Ballew. We have 11 members on our Business Council.
    Mr. Regula. No, I mean the total tribe. What's your tribal 
number?
    Mr. Ballew. We have about 4,200 that we service in our 
community. And we have three issues and requests that we want 
to share with you today.
    Mr. Regula. Okay.
    Mr. Ballew. First is water negotiations. We're currently 
negotiating our water resource in Lummi with the State and the 
Federal Government, and the Tribe wishes to come to a water 
settlement rather than going into a litigation process. We've 
been working on this for several years now. And it's composed 
of residents within our boundaries that we service as non-
Indians and Indians as well. And we're requesting additional 
funds for attorney's fees, technical studies, and Nooksack 
River Basin, which involves our resource also.
    And, hopefully, we can come to a settlement and that's the 
wishes of the Lummi Business Council and our Nation at this 
time. And we really would appreciate it if you would take these 
into consideration.
    Mr. Regula. Okay. I see you have a couple of other items 
here.
    Mr. Ballew. We also have water and sewer infrastructure. At 
the current time, we're servicing about 5,000 homes on our 
reservation.
    Mr. Regula. Do you have your own sewage treatment plant and 
you're own water supply?
    Mr. Ballew. Yes, we do.
    Mr. Regula. What do you have, wells?
    Mr. Ballew. We do have exempt wells within the reservation. 
And that's part of the water negotiations.
    Mr. Regula. Right, and then you need construction money for 
the infrastructure?
    Mr. Ballew. Yes, we're approximately 80 percent capacity on 
both our sites up at Lummi, and we need additional funds to 
meet our needs in the near future.
    Mr. Regula. Do you just serve your own community?
    Mr. Ballew. We service both Indian and non-Indian.
    Mr. Regula. Oh, okay.
    Mr. Ballew. And we experienced in the past that once you 
know we get a lot of rain back home, so with the rain, we meet 
capacity at times, maybe two months out of the season.
    Mr. Regula. I suppose you've got storm water going into 
your sanitary system?
    Mr. Ballew. Yes, we do.
    Mr. Regula. That's a common problem. Then you have a 
hatchery that you need some help on?
    Mr. Ballew. We have a shellfish hatchery. It's our 30th 
year in operation for hatchery. We're requesting additional 
funds for the hatchery to operate and maintain the hatchery. 
The hatchery right now provides approximately 70 jobs in our 
community. And it also services other communities in Washington 
State, such as independent shellfish growers.
    Mr. Regula. Will you keep this hatchery open without this 
extra money, or would you have to close it?
    Mr. Ballew. Right now, we're just kind of operating on 
cost. We do sell seed to other entities within Washington 
State.
    Mr. Regula. Okay, well, thank you for your testimony. We'll 
take a good look at it.
    Mr. Ballew. Okay.
    Mr. Morris.
    [Speaks briefly in native tongue.]
    Hish asta quanel. Na quopa. Ates tanel.
    That means thank you for your words.
    Mr. Regula. Oh, okay. Only Mr. Skeen knows what you said.
    Mr. Skeen. I would like to have some of your rainfall in 
New Mexico. [Laughter.]
    [The statement of Mr. Ballew follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                                          Thursday, April 15, 1999.

           BUREAU OF INDIAN AFFAIRS AND INDIAN HEALTH SERVICE


                                WITNESS

PEARL CAPOEMAN-BALLER, PRESIDENT, QUINAULT INDIAN NATION
    Mr. Regula. Okay, the Quinault Indian Nation?
    Ms. Capoeman-Baller. Good morning. I am glad to be here 
this morning. My name is Pearl Capoeman-Baller. I am president 
of the Quinault Indian Nation, and I am glad to be one step in 
front of Ron Allen, who testifies behind me. [Laughter.]
    I would like to read for the record a paragraph out of my 
testimony, and I would like to speak directly about some of the 
priorities for Quinault Nation.
    Mr. Regula. Okay.
    Ms. Capoeman-Baller. We strongly support many of the 
administration's initiatives because they move toward reversing 
the decline in support for Federal Indian programs that we have 
experienced since 1996. Increases in funding over Fiscal Year 
1999 levels for the programs and activities, which have a 
direct and daily impact on the Quinault government, our people, 
and our resources, such as: number one, the proposed net 
increase of $17 million for the Tribal Priority System, 
including $2.6 million for Tribal Courts; $2 million for Adult 
Care facilities; $2 million for the Tribal Work Experience 
Program; and the emphasis on supporting the Law Enforcement in 
Indian Country Initiative within the BIA and the Department of 
Justice.
    Two, the proposed increase of $144.6 million for Health 
Services and $25.5 million for Health Facilities within the 
IHS.
    And, three, the increases for the Endangered Species and 
Salmon Recovery initiatives within the BIA and the Fish and 
Wildlife Services.
    And, finally, four, the proposed increases for contract 
support costs within the BIA and the IHS of $6.4 and $35 
million, respectively, are all necessary and appropriate for 
the future of my Tribe.
    What I would like to do is highlight some of the needs for 
the Quinault Nation. As you will see in my testimony, the 
number one priority for the Quinault people is to request 
funding for a new health facility for the reservation and also 
an assisted living center for our elders. I have come back here 
for several years trying to testify and stress the importance 
of an assisted living facility for our tribal members, for our 
elders. They currently have to go off the reservation for rest 
homes. And I think it's very distressful for our elders to have 
to do that and each year we see the decline in our tribal 
elders. In fact, within the past week, I had one of my tribal 
members that was 81-years-old commit suicide. He was the former 
chairman for the Quinault people. I think that if they had the 
opportunity to be at home to get the care that they need, that 
we wouldn't be dealing with losses like this. That's my number 
one priority for the Quinault people.
    The second thing that is really important to the Quinault 
people is trying to be creative in helping our fishermen. There 
is no line item to help fishermen and distressed fishermen. Our 
fishermen continue each year to lose resources because of La 
Nina and other factors that impact our Quinault fisherman. I am 
asking this committee to consider assistance that is real 
similar to the Jobs-in-the-Woods program to offset the need for 
assistance for our fisherman. That is critical because they're 
becoming bankrupt. They're losing their boats. They can't 
support their families. So if I could emphasize anything, it 
would be to create a program to help our fishermen.
    The last item that would be a real critical component for 
me would be funding for a juvenile detention facility for 
Indian Country in general. State and county detention 
facilities, due to jurisdictional differences, don't accept our 
Indian youth. They have no where to go for treatment, and so we 
have to look at resources and alternative sites that are in 
other States for our youth. So I would encourage you to take a 
look at an initiative similar to what States and Federal 
agencies have.
    I want to support the Northwest Indian Fish Commission in 
their request, and I urge you to consider supporting all of the 
health initiatives that are important to Indian Country, such 
as diabetes funding and the CHR funding.
    And then the very last thing, I would like to urge this 
committee to lend support to the President's Lands Legacy 
Initiative. Tribes are included in some of the programs under 
this initiative, but I am requesting that Congress include 
tribes as eligible recipients in all programs under the 
initiative. It's important for all of Indian Country, but in 
particular to the Quinault people.
    Mr. Regula. Thank you.
    Ms. Capoeman-Baller. Thank you very much.
    [The statement of Ms. Capoeman-Baller follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                                          Thursday, April 15, 1999.

           BUREAU OF INDIAN AFFAIRS AND INDIAN HEALTH SERVICE


                                WITNESS

W. RON ALLEN, CHAIRPERSON/EXECUTIVE DIRECTOR, JAMESTOWN S'KLALLAM
    Mr. Regula. Jamestown S'Klallam Tribe. I see you're number 
two, as the lady said. There won't be anything left when we get 
to you. [Laughter.]
    Mr. Allen. I kept trying to negotiate to get in front of 
the Quinault Indian Nation, but I have not been successful yet.
    Thank you, Mr. Chairman, for the opportunity to share with 
you for a few minutes some of the concerns of the Jamestown 
Tribe. And I'll spend a minute or so talking about some of the 
issues of NCAI. Jamestown is a small tribe in western 
Washington. We're near Quinault Nation on the northern side of 
Libby Peninsula. Our main request that we have in front of you 
is one--is we have a very unique health care program that we 
have coordinated and developed with the Washington State health 
care program. And one thing that we have learned in creating a 
new way of providing health care services, contract health care 
services to our people is the rising cost of health in absence 
of any kind of a health care scheme nationally, it is rising 
and it is very competitive. We've conducted our cost analysis 
of what it's going to cost us and essentially we're losing 
services here because we're continuing to have to re-negotiate 
the scope of the services we provide. So we've asked for a 
$45,000 adjustment to maintain those services. It's primarily 
an inflationary adjustment that was costly.
    The second issue which is an important issue for us, we 
live right on the bay and that bay, that land around the bay is 
very sensitive in terms of pollution issues and the concern for 
us is our facilities, our sewage facility has failed on us. And 
essentially what we're trying to do is move that operation off 
that water. Essentially what we have is about five acres. It's 
a small little reservation, and we have about four or five 
acres across this highway. We want to move our sewage system 
upland to deal with it more appropriately, to provide for 
opportunity for expansion, as well as deal with that. IHS has 
not been able to provide us assistance, and AG and Farmer's 
Home also because of life expectancy, we have to serve other 
people. So we've asked for assistance for money for the sewage 
system itself, which is about $260,000 and for a Piniker piece 
that is adjacent to our reservation where we would design the 
system and provide some for some modest expansion.
    The other issues for us is basically of national scope. And 
as the President of NCAI, we're advancing a number of issues 
that we've proposed to you. We've given you testimony, in it, 
it's more definitive. Some of the issues we wanted to raise to 
your attention is we appreciate the administration advancing, 
excuse me, enforcement services. We want to emphasize if you do 
a better job in enforcement, you're goingto have a problem over 
in the court system. The money they've asked for in courts is not 
sufficient. It's not going to do the job, and we can tell you that it 
will get pushed over into incarceration, detention facilities similar 
to what Quinault just said. So that's another issue for us.
    And, last but not least, there's a lot of issues in there, 
but the one we want to highlight is contract support. We at 
NCAI are working hard providing to you a qualitative report on 
that issue. We believe that the tribes are right, that they 
should be fully funded in contract support, and that it is a 
legitimate way to cover those costs. So we would urge you to 
take that into serious consideration.
    Mr. Regula. Okay, thank you. We will.
    Mr. Allen. Thank you, Mr. Chairman.
    [The statement of Mr. Allen follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                                          Thursday, April 15, 1999.

           BUREAU OF INDIAN AFFAIRS AND INDIAN HEALTH SERVICE


                                WITNESS

ANTHONY PICO, CHAIRMAN, VIEJAS BAND OF KUMEYAAY INDIANS
    Mr. Regula. Viejas Band of Kumeyaay Indians.
    Mr. Pico. You got close.
    Mr. Regula. Getting close, okay. [Laughter.]
    Mr. Pico. But if you're an old Army guy like me, that only 
counts in grenades. [Laughter.]
    Good morning, I'm Anthony Pico. I'm chairman of the Viejas 
Band of Kumeyaay near San Diego, about 35 miles east.
    In consideration of time, my oral presentation is an 
abbreviated version of the written testimony being submitted 
for the record.
    Mr. Regula. Thank you.
    Mr. Pico. I appear before you today as the leader of an 
Indian government that has emerged from poverty. One whose 
government also recognizes in a very real sense our commitment 
to help other tribal governments rise from poverty as well. I 
can tell you in all sincerity that while you will find tribes 
such as Viejas and others who are emerging from poverty, the 
vast majority of American Indians on reservations today live in 
Third World conditions so horrific that they should be 
considered a disgrace to the United States Government, a 
disgrace that cries out for justice.
    For the past two years, as a result of congressional 
direction, the Bureau of Indian Affairs and the Indian 
government representatives have been working as a formal BIA 
tribal priority allocation workgroup. The group has been 
charged to review and make recommendations about the fairness 
of the TPA program. Among the questions that are being asked, 
should tribal governments whose incomes from tribal 
enterprises, such as gaming, be forced to relinquish their TPA 
funding, which supports tribal governments and programs?
    First let me say as a matter of principle, TPA funding is 
one aspect of Congress fulfilling its trust responsibility for 
lands and resources taken away from us in the past. Moreover, I 
also recognize that Congress has the power, in fact, the sole 
power to abdicate its trust responsibility or modify it as it 
chooses. But I appeal to your sense of rightness and justice in 
exercising of that power.
    As for means testing and its application, I believe it is 
unjust to single out tribal governments for a subjective means 
test while States, cities, and counties are not required to be 
subjected to the same kind of means testing. Because of the 
uncertainties of the future of gaming in the free enterprise 
system itself, no tribal government would be acting responsibly 
to give up forever a source of funding it may need to survive 
in future----
    Mr. Regula. Do you have gaming in your tribe?
    Mr. Pico. Yes, Congressman.
    The Congress and the executive branch, regardless of which 
political party is in power, can find a way to accomplish 
economic justice for American Indians without forever punishing 
tribes that have emerged economically successful, who are 
taking from other Americans who are in need.
    What the United States Government, and I would submit the 
Congress, needs to do is to find the will and determination to 
work with American Indian governments to move Indian Country 
out of the Third World.
    I could not in good conscious agree voluntarily to 
eliminate the right of the Viejas Band to receive Tribal 
Priority Allocation funds. I believe, however, that many tribal 
governments who are emerging into prosperity would be willing 
to make a sovereign decision to voluntarily re-allocate all or 
part of the TPA funding if assurance was made that these funds 
would be re-allocated to tribal governments in need of them and 
not deprive us from what the right of those funds if we need 
them in the future. Such an approach would not require scores 
of bureaucrats. It would require the United States to uphold 
its responsibility not to deny our funding in the future if we 
voluntarily have the Government re-allocate our TPA funds to 
needy tribes.
    For some tribal governments, my proposal is not 
theoretical. It's a fact of life. The Viejas Band, the Barona 
Band, and the Sycuan Band voluntarily share our gamingrevenues 
with 11 other non-gaming tribal governments in San Diego County. These 
funds nearly total $1 million yearly and are provided with no strings 
attached. As a result of our joint tribal revenue sharing, the Los 
Coyotes Band was able to extend electrical service for the first time 
to all of its reservation.
    During the Fiscal Year 1999, the Viejas Band has been 
allocated to receive over $163,000 in TPA funds for 11 
different Bureau of Indian Affairs programs. As Viejas has done 
for several years, we are asking the Bureau of Indian Affairs 
to reallocate these funds to increase amounts available to 
other tribes in are area to augment their funding in several 
categories. We have done this for several years as a government 
exercising our sovereignty. We take the extra effort to do the 
paperwork so that Viejas does not lose its TPA funds for future 
years. We would hope that Congress, as I've mentioned, 
guarantees that tribal governments who make the choice as the 
Viejas government, do not become penalized for doing so in the 
future.
    Mr. Regula. I think you agree with the House position, 
which just simply said you could do it voluntarily. Is that 
correct?
    Mr. Pico. Yes.
    Mr. Regula. It in no way inhibited your ability to get 
money in the future and some changes were made in the Senate to 
the House language.
    Mr. Pico. That's been solved.
    Mr. Regula. Well, not exactly.
    Mr. Pico. But you will help us solve it?
    Mr. Regula. We're trying, yes. The House position is 
consistent with what you just outlined, and we'll try to 
maintain that.
    Mr. Pico. Thank you very much for your time, and I 
appreciate it.
    Mr. Regula. Yes, thank you.
    Mr. Pico. And my people do.
    Mr. Regula. And I think it's great that you're willing to 
help others that do not have the resources you do.
    Mr. Pico. That's the way we were raised.
    Mr. Regula. Well, that's very nice.
    [The statement of Mr. Pico follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                                          Thursday, April 15, 1999.

           BUREAU OF INDIAN AFFAIRS AND INDIAN HEALTH SERVICE


                                WITNESS

JASON L. JOSEPH, CHAIRMAN, SAUK-SUIATTLE TRIBE
    Mr. Regula. The Sauk-Suiattle Tribe.
    Mr. Joseph. Good morning, Mr. Chairman. My name is Jason L. 
Joseph. I'm chairman of the Sauk-Suiattle Indian Tribe. I'm 
here for the first time to testify orally.
    Mr. Regula. If you will, summarize your testimony. I see 
you've got it pretty well laid out here.
    Mr. Joseph. I'll start off here. Our tribe is 235 members 
and is a signatory of the Treaty of the Point Elliott in 1855. 
We had a land survey conducted to establish a reservation base 
for our Tribe but it was never finalized due to the untimely 
death of the surveyor. We were a landless tribe prior to 1980 
when we purchased 23 acres of land for our reservation near the 
original homeland in the Foothills of the Cascade Mountains.
    We request $190,000 to be added to the base budget and 
government operations in the BIA TPA tribal government account, 
with 100 percent contract support, which is above the minimum 
of $160,000 that we received last year.
    We also support the President's budget for $20 million for 
law enforcement and $26 million for courts. And we're 
requesting $250,000 for law enforcement to establish an office 
base and hire and equip two officers.
    Two hundred thousand dollars for tribal court operations so 
we can establish our separate court system out of consortium 
that we now work with.
    We're looking at $375,000 for developing of economic 
development
    Mr. Regula. What is your economic base now? Do most of your 
tribal members work outside the reservation?
    Mr. Joseph. Yes, most of our tribal members work outside of 
the reservation. And we have a total of maybe 20 tribal members 
working for the Tribe itself.
    Mr. Regula. How many acres do you have?
    Mr. Joseph. Currently we have 63 acres, 23 of which is the 
reservation.
    Mr. Regula. You don't have a very big base there of your 
own.
    Mr. Joseph. No.
    Mr. Regula. So you have to depend on the outside economy?
    Mr. Joseph. Yes.
    We're also requesting $200,000 for our cultural resource 
funding and land acquisition studies.
    Mr. Regula. Right.
    Mr. Joseph. We're also requesting $30,000 for higher 
education.
    Mr. Regula. Right.
    Mr. Joseph. And $70,000 for our Indian Child Welfare 
Program for assistance in counseling, additional counselors for 
the area. And we're also looking to get $350,000 to replace our 
leaking water tower that we've funded to get fixed.
    Mr. Regula. Okay. Well, we'll take a look at all these. I'm 
sure you have a number of needs here that you're requesting. Do 
you have a pretty good level of employment among your members?
    Mr. Joseph. Of all our tribal members, we have like 30 that 
are totally employed within our reservation. And then the rest 
are off-reservation or not working.
    Mr. Regula. What do you do for schools, do you use the 
public schools?
    Mr. Joseph. Yes, we use the local town of Derrington's high 
school, which is six miles away and then some of the kids go to 
the local colleges.
    Mr. Regula. I see, okay. Well, thank you for your 
testimony.
    Mr. Joseph. Thank you.
    [The statement of Mr. Joseph follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                                          Thursday, April 15, 1999.

                 REQUEST RE: TRIBAL PROGRAM OPERATIONS


                                WITNESS

CARMEN KALAMA, TREASURER, NISQUALLY TRIBAL COUNCIL
    Mr. Regula. The Sycuan Band of Mission Indians. I don't see 
anyone from that group.
    Nisqually Indian Tribe? Anyone here? There we go.
    Good morning.
    Ms. Kalama. Good morning. My name is Carmen Kalama. I serve 
on our Tribal Council as the treasurer. And I'm here today to 
present testimony.
    Thank you, Mr. Chairman, and honorable committee members 
for this opportunity. The Nisqually Indian Tribe has submitted 
written testimony to you today that describes our request for 
this year in detail. These include our highest priorities: land 
acquisition in the Nisqually Delta through an $850,000 
appropriation to the Nisqually Tribe through the U.S. Fish and 
Wildlife Service.
    Mr. Regula. You would like to purchase additional land from 
private sources or from the Government?
    Mr. Troutt. From private sources.
    Mr. Regula. Private sources, okay.
    Mr. Troutt. That's correct.
    Ms. Kalama. An increase to our fisheries base budget of 
$200,000 to deal with ESA issues; adequate funding for our law 
enforcement; court system; elders' program; and adult and youth 
education.
    I would like to take the remaining time to describe to you 
who the Nisqually people are, where we have been, and where we 
are going. The Nisqually people are from the area around the 
Nisqually River, just outside Olympia, Washington. Our people 
are fishermen, shellfish gatherers, hunters, and stewards of 
our land and resources.
    Mr. Regula. Are they employed on your own land or do you go 
outside?
    Ms. Kalama. I would say pretty much so.
    Mr. Regula. On your own land?
    Ms. Kalama. On our land.
    Mr. Regula. Yes.
    Ms. Kalama. We have been in the Nisqually Valley for 10,000 
years and have seen a lot change. As signatories to the Treaty 
of Medicine Creek in 1854, our people have certain treaty 
rights reserved by our forefathers that protect our way of 
life, but all not has been smooth in the exercising of that 
treaty. Two-thirds of the reservations created in that treaty 
was condemned in 1917 by Pierce County for the U.S. Army. Our 
families were uprooted and moved across the river to barren 
lands of rock and gravel, leaving the Tribe with only one acre 
of land. Since then, the Tribe has worked diligently to re-
acquire its land base to the point where today we have 1,400 
acres, tribal housing projects, governmental services, and a 
growing community. We also have a major fish hatchery on our 
old lands on Fort Lewis.
    Despite the odds against us, we are still here. Not only 
are we still here, we are getting stronger and we continue to 
work cooperatively with our neighbors on various issues of 
concern to all of us. The Tribe has continued to make land 
acquisition a priority and is requesting support for completion 
of the Braget Farm Acquisition in the Nisqually Delta. This 
acquisition will almost double the Tribe's land base and 
provide a valuable site for ESA salmon restoration activities, 
which will benefit not only the Tribe but all of south Puget 
Sound.
    The Tribe has made services to its elderly population a 
priority and is completing construction of a 7,000 square foot 
elders' facility with tribal funds. Funds for services to 
elders have been scarce and the tribe is requesting funding 
support to provide at least a basic level of social and health 
services to our elders.
    Law enforcement has also been important for the Tribe with 
a new jail and enforcement facility recently completed on the 
reservation. Funds for operation of the Tribe's Law Enforcement 
Program are desperately needed, as well as funding to provide 
for adequate operation of the tribal court system.
    The Tribe recognizes that education is the key to the Tribe 
meeting the challenges of the next millennium, and is asking 
that Congress adequately fund adult education and youth 
education initiatives through the U.S. Department of Education.
    With your help, the Nisqually Tribe's community development 
effort will continue to be a success.
    Thank you for your support.
    Mr. Regula. How many members do you have in your Tribe?
    Ms. Kalama. Over 500.
    Mr. Regula. And is your economy good or bad?
    Ms. Kalama. What would you say, Joe?
    Mr. Cushman. I think it's okay, but it could be better.
    Ms. Kalama. Could be better.
    Mr. Regula. Could be better. Do you use the public schools, 
or do you have tribal schools?
    Ms. Kalama. A number of our children go to public schools, 
as well as the Wah-he-Lute School at Frank's Landing.
    Mr. Regula. Do many of your members go on beyond high 
school?
    Ms. Kalama. Education monies are tight right now at our 
Tribe. And I would say that the percentage for those going on 
beyond high school is probably small.
    Mr. Cushman. Less than 10 percent.
    Mr. Troutt. And I think it would be fair to say from an 
economic standpoint that probably every family in the Tribe 
depends on fishing and shellfish gathering to some extent or 
another. It's still very important culturally.
    Mr. Regula. Do you market the fish and the shellfish?
    Mr. Troutt. We wish we were better at it, but we do market 
the shellfish.
    Mr. Regula. Do you market to local stores?
    Mr. Troutt. The geoduck fishery that we're involved in 
principally goes to Asia. Our salmon, unfortunately, we haven't 
been able to reach as far out in marketing and it's principally 
a local market that we reach.
    Mr. Regula. Do you dry or some way, freeze the products 
going to Asia?
    Mr. Troutt. Those are fresh and live. They're flown out on 
a daily basis, primarily to China.
    Mr. Regula. Do you send them out by air?
    Mr. Troutt. Yes, yes.
    Mr. Regula. Very interesting. Do you use netting or how do 
you----
    Mr. Troutt. These are taken by divers in sub-tidal waters 
off boats with air lines and then compression hoses to pull the 
giant clams out of the water. These are clams that average four 
or five pounds each. They're very large and provide a very 
lucrative market in Asia for these clams. But they have to be 
live. They're worth a substantial amount if they're live and a 
lot less if they're not.
    Mr. Regula. So when you ship them, they're in water, so 
they maintain moisture?
    Mr. Troutt. They're moist and they're alive, yes. There's 
an immediate need to get them to the airport and to China 
quickly so they stay that way.
    Mr. Regula. Do you send them out of Seattle?
    Mr. Troutt. Yes, we do.
    Mr. Regula. Very interesting.
    Mr. Troutt. We would love to tell you more about it.
    Mr. Regula. I wish I had more time.
    [The statement of Ms. Kalama follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                                          Thursday, April 15, 1999.

                        BUREAU OF INDIAN AFFAIRS


                                WITNESS

BURTON APACHE, PRESIDENT, ALAMO NAVAJO SCHOOL BOARD
    Mr. Regula. Next is Alamo Navajo. Mr. Skeen, is this in the 
group of yours?
    Mr. Skeen. Yes, I think so.
    Mr. Apache. Good morning. This is my first time. I'm kind 
of nervous.
    Mr. Skeen. Well, don't be nervous. We're nervous because 
you're going to ask for more money. [Laughter.]
    Mr. Regula. You're among friends here.
    Mr. Skeen. We're trying to keep that pipeline open to you.
    Mr. Apache. Okay.
    Mr. Skeen. Don't worry about us. Just go ahead.
    Mr. Apache. Okay. Good morning, Mr. Chairman and members of 
the committee, and my Representative, Mr. Joe Skeen.
    Mr. Regula. You're well-represented.
    Mr. Apache. For facilities operation and maintenance, we're 
being under-funded from last year. It used to be like 95 
percent. And now we cannot operate with 67 percent, and we 
would like only to be back up where our percentage was as of 
last year. Right now, we're going to be losing some percentage.
    And administrative costs in the current school year, in the 
current school year right now, we used to get 94 percent and 
now we're only getting 89 percent of what administrativecosts 
it is. And they can't be at this level for it cannot be operated with 
another 13 coming off, new schools, and we'll be on a shortfall.
    And on fire protection, that's what we really need. There's 
over 500 homes and, yes, we do have a fire truck, but it's a 
quarter century years old and only goes about 50 miles an hour 
and it holds 450 gallons and it shoots out about 700 gallons 
per minute. And our fire guys have to really shoot at the fire.
    Mr. Skeen. It keeps you busy trying to re-fill.
    Mr. Apache. Yes. And that's what we're asking for too, a 
new fire truck where we need it. And then we got the school 
right there and so all together, there will be like over 700 
homes that will be needed for a fire truck.
    On the health issue, we urge the committee to fully fund 
contract support at 100 percent as needed. And IHS budget 
proposal to community health representative funded at Fiscal 
Year 1999 and support public health nurse, CHR community 
health.
    And that's all on this, and everybody has said what was 
really going on. And I don't want to take up more of your 
valuable time. And thank you. And I'm sorry I didn't recognize 
my executive director, Marcell Kirksman. Thank you.
    Mr. Regula. Thank you.
    Mr. Skeen. Well, you two make a great pair. [Laughter.]
    And we certainly appreciate. You're one of the most 
isolated areas that I know of and it has been a tough struggle 
all along. I know we were out of grass here what, a year or so 
ago?
    Mr. Apache. Yes, we sure do need some rain. Can you do that 
too?
    Mr. Skeen. Well, there's an over-abundance of water out 
here in some of those tribes and if we could make a swap, well, 
we'll be in good shoes. Can we do that?
    Mr. Apache. We sure can.
    Mr. Skeen. Okay.
    Mr. Apache. We'll give them some of our dirt.
    Mr. Regula. How many members do you have?
    Mr. Apache. Around 2,000.
    Mr. Regula. 2,000?
    Mr. Apache. Yes, and we're kind of satellite from the big 
Navajo reservation. We're way central south up in New Mexico. 
And the big Navajo reservation----
    Mr. Skeen. The Navajo is all contiguous but these folks are 
satellites, more or less.
    Mr. Regula. Okay. Any further questions, Mr. Skeen?
    Mr. Skeen. No, I think that they've done a good job and 
they certainly deserve our thanks and these two right here make 
a pretty potent representation. We appreciate the work that 
both of you do.
    Mr. Apache. Thank you, sir.
    Mr. Regula. Thank you.
    [The statement of Mr. Apache follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                                          Thursday, April 15, 1999.

                         INDIAN HEALTH SERVICE


                                WITNESS

H. SALLY SMITH, CHAIRMAN, ALASKA NATIVE HEALTH BOARD
    Mr. Regula. Alaska Native Health Board.
    Ms. Smith. Good morning.
    Mr. Regula. Good morning.
    Mr. Skeen. Good morning.
    Ms. Smith. I'm accompanied by Mr. Leo Morgan, who is 
executive director of the Alaska Native Health Board, as well 
as Cynthia Navarrette, deputy director. My name is Sally Smith. 
I am the chairman of the board for the Alaska Native Health 
Board. I am also the third chief of the Native village of 
Dillingham and a tribal judge.
    In the interest of time, my verbal statement will be an 
abbreviated text of my formal statement.
    The Alaska Native Health Board, ANHB, as I will refer to it 
throughout my statement today, represents the Alaska Native 
Tribes and the tribal health organizations that provide health 
services through the Alaska Tribal Health Compact with the 
Indian Health Service.
    ANHB has been working with the Alaska Health Service since 
1968 advocating and promoting implementation of programs to 
improve health services and the health status of 110,000 Alaska 
Natives.
    The rate of deaths in comparison with the general 
population is staggering. For instance, the death rate of 
Indians from alcoholism is 579 percent greater than the general 
population. Tuberculosis is 475 percent greater.Diabetes is 231 
percent greater and death rates due to accidents, 212 percent greater.
    Mr. Skeen. That's your major health problem, diabetes?
    Ms. Smith. Diabetes is indicated as one of our greater 
health problems.
    Mr. Skeen. It is I think across all Indian nations. 
Something has got to be done about this.
    Ms. Smith. I currently serve on a national workgroup. I 
just spent two days in Rockville on the issue of diabetes. It's 
a tremendous problem.
    Mr. Skeen. It's a basic health problem, diabetes, 
throughout all the Indian nations.
    Ms. Smith. Currently, it is funded for five years. I would 
certainly urge your consideration in making sure that it goes 
beyond the five years. Certainly, in the year and a half that 
we have had the opportunity to work with this particular 
problem, five years is certainly not enough. Please give your 
attention to seeing that funding for the problem of diabetes is 
continued.
    The Fiscal Year 2000 IHS budget should take into account 
the disparities in the health status of Alaskan Natives and 
Native people throughout the Nation while reflecting our desire 
and effectiveness of tribes and tribe organizations exercising 
our rights under the Indian Self-Determination Act to deliver 
our own health services. We appreciate the fact that IHS 
presented a proposed Fiscal Year IHS budget to the OMB office, 
a 17 percent increase over Fiscal 1999 funding. In order to 
close a health status gap and to enable tribes and tribal 
organizations to deliver our own health services, we recommend 
funding increases in the following areas:
    Patient travel is a required budget item for the care of 
Alaskan Natives. NAHB recommends that an additional $10 million 
be added to the recurring base of the IHS area budget. This is 
a necessity due to Alaska's unique geography and the lack of a 
developed road system in much of our State.
    Access to care is a critical issue facing Alaskan Natives. 
Many Alaskan Natives are forced to delay critical care because 
of the tremendous cost of travel. For instance, the cost of one 
Medevac trip from St. Paul Island to Anchorage costs $6,000.
    Mr. Regula. Yes, I can understand that.
    Ms. Smith. And many Alaskan Natives in the rural areas do 
not make that trip much in a year. Citizens in other parts of 
the U.S. enjoy the luxury of subsidized highway systems. We 
need comparable consideration in funding for access to health 
care in Alaska.
    Behavioral health services are desperately needed in our 
State as well. Over half of the 180 Alaskan Native villages do 
not have community-based mental health or substance abuse 
treatment services.
    As I mentioned in our opening remarks, our death rates are 
staggering due to the lack of services here in Alaska. 
Currently, NAHB is advocating for support of getting an 
inhalant abuse treatment center in Alaska. Unfortunately, both 
behavioral and environmental factors are resulting in 
significant increases of cancer rates among Alaska Natives 
statewide. It is essential that prevention screening and 
treatment services all be enhanced by tribal health providers 
in Alaska. We need your support to do this.
    It has also been reported by our epidemiologists that due 
to demographic changes, our requirement for maternal and 
pediatric services are likely to be increased by 25 to 30 
percent.
    Mr. Regula. So overall your real need is in health 
services?
    Ms. Smith. It certainly is.
    Mr. Regula. And the ability to get people to the health 
care?
    Ms. Smith. Absolutely, as well as other areas. And contract 
support is another area that is one that you've heard time and 
again.
    Mr. Regula. That's right.
    Ms. Smith. That we ask for 100 percent funding.
    Mr. Regula. You have about one minute left.
    Ms. Smith. I understand. We urge action on legislation 
which will elevate the position of the director of Indian 
Health Services to the assistant director in the Department of 
Health and Human Services. We also urge your support for 
passage of Title 5 of the Indian Self-Determination Education 
Systems Act. We urge you to make permanent the Indian Health 
Services Dedicated Medicare Direct Reimbursement Demonstration 
for all tribal health.
    Thank you very much.
    Mr. Regula. Thank you for bringing these problems to our 
attention. As you can see from sitting here, we have a lot of 
challenges.
    Ms. Smith. We see that. We also know that you're hearing us 
and that you're listening to us. And by your body language and 
by your ability to look at us in the eye and say that we're 
well-represented by the previous speaker. We're here. You need 
to help us. We care about what is happening at home.
    Mr. Regula. Well, we want to, and I know last year we added 
about $150 million to the President's request on Indian Health. 
So we're very sensitive to that problem.
    Ms. Smith. We recognize that. Thank you very much.
    Mr. Regula. Thank you.
    Mr. Skeen. Thank you and I want to say, I see in the 
audience some of the nicest beadwork, Turquoise and so forth. 
So if we have to pawn this to raise the money----
    [Laughter.]
    Mr. Skeen. Otherwise hang on to it because it's beautiful.
    Ms. Smith. Come up to Alaska. We have beautiful things up 
there as well.
    Mr. Skeen. I'll swap you some Turquoise. The check is in 
the mail.
    [The statement of Ms. Smith follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                                          Thursday, April 15, 1999.

                        BUREAU OF INDIAN AFFAIRS


                                WITNESS

KAREN BLAZER, ASSOCIATION OF NAVAJO COMMUNITY CONTROLLED SCHOOL BOARDS
    Mr. Regula. Association of Navajo Community Controlled 
School Boards. We've got to get going before Mr. Skeen gives 
the store away. [Laughter.]
    Mr. Skeen. I was going to swap.
    Mr. Regula. Okay. Those are nice earrings.
    Ms. Blazer. Good morning, Mr. Chair, and members of the 
subcommittee. My name is Karen Dixon Blazer. I'm appearing on 
behalf of the Association of Navajo Community Controlled School 
Boards, of which we have different memberships. And my 
testimony focuses on the need to adequately fund the school 
operations and facilities.
    Mr. Regula. These are tribal schools, they're not public 
schools?
    Ms. Blazer. They're tribal, contract, and grant schools.
    Mr. Regula. Right.
    Ms. Blazer. In order to improve the educational 
opportunities for our Indian children. With me to my right is 
Rex Morris, who is the board president of the Shiprock 
Alternative Schools, Incorporated in Shiprock, New Mexico and 
also a council delegate on the Navajo reservation.
    You have our full testimony in front of you. I'll only 
focus on two of our major priorities regarding the elimination 
of the backlog in construction and facility repair and to 
provide full funding for the Administrative Cost Grants.
    Regarding the school construction and repair, we support 
the priority listing for the new school construction. However, 
we are concerned about the BIA's request for the funding that 
does not seem to fully honor the priority listing. The Bureau 
properly asked for funding for Save Adelphi, which is also a 
Navajo, who is ninth on the list. However, BIA promptly skips 
Shiprock Alternative, who is listed twelfth on the list and 
goes to the 14th ranked Fond du Lac Chippewa school. What we 
would like to request is that the subcommittee correct this 
error and fund Shiprock Alternative's construction for Fiscal 
Year 2000.
    Another issue under school construction and repair is the 
tremendous backlog concern that we have. In a December 1997 
general auditing report, the BIA reported that it would cost 
about $754 million to take care of this backlog. And this 
backlog continues to rise on a daily basis. And, yet, the BIA's 
budget seeks funding for only two new schools. What is also 
more disturbing is that the request is actually seeking a 
reduction of $4 million for educational facility and repair. 
And we find this very unconscionable.
    ANCCSB supports Senator Pete Domenici's best way to 
alleviate this backlog by fully appropriating dollars for the 
new school construction and all of the backlog, but we request 
an additional $2 million to take care of this backlog problem.
    Regarding administrative costs, we need the committee's 
careful attention to the BIA's justification because we don't 
think it makes sense. There has been a budget cap for Fiscal 
Year 1998, Fiscal Year 1999. We ask two things: one, is to lift 
that cap for funding for administrative costs; and, two, is to 
delete the language to lift this cost and the second thing 
would be to fund administrative costs at 100 percent.
    You heard from Alamo Navajo about the administrative costs 
problem. Well, with the cap in Fiscal Year 1999 with 116 
schools, they were able to meet the need at 89.5 percent and 
the cap was at $42 million. In Fiscal Year 1999, the cap 
remained. We had approximately 129 schools that became 
contractor grant schools. And we were still funded at $42 
million. Somewhere along the line, the Bureau thinks that with 
the same cap and adding of new schools that they're meeting 94 
percent of the need. We ask again that Congress and this 
committee take a look at that.
    In regard to Fiscal Year 2000, we approximate that on 
Navajo, there will be 10 more schools going contract and grant. 
We cannot continue to keep a cap on administrative costs, add 
more schools, and think we're going to meet the needs.
    Mr. Regula. Okay, we understand.
    Ms. Blazer. That's pretty much the two priorities that the 
Association wanted to address with the committee.
    Mr. Regula. Okay, well, thank you for your time.
    Ms. Blazer. I would like to also just leave with the 
committee some statistics regarding the shortfall issue for 
indirect costs, and it will show you how many schools are 
funded, how many are going contract and grant.
    Mr. Regula. Right.
    Ms. Blazer. Thank you very much.
    Mr. Regula. Thank you.
    [The statement of Ms. Blazer follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                                          Thursday, April 15, 1999.

                        BUREAU OF INDIAN AFFAIRS


                                WITNESS

GEORGE CUKRO, DIRECTOR, BLACK MESA SCHOOL
    Mr. Regula. Black Mesa School. You're chosen.
    Mr. Cukro. Mr. Regula, I'm here on behalf of the Black Mesa 
Community School. Twenty years ago, the school broke away from 
Rough Rock School. It started the school in a shed. Ten years 
ago, 10, 12 years ago, the Government built a building, four 
classrooms, a library, an all-purpose room. In order to give an 
education to the youngsters, we started dividing classes and 
what I'm here for today is I need homes, housing for, quarters 
for the people. This year we are getting six modular classrooms 
in order to house teachers.
    Mr. Regula. This is to house staff people?
    Mr. Cukro. This is to house staff, teaching staff. We are 
located 25 miles north of Pinion in an isolated area of the 
Navajo reservation. And the other direction, and to Rough Rock 
school, and we're 18 miles away from there, but we have to 
climb a mountain and the roads are 15 miles each direction, and 
unpaved, unkept.
    That is the main thing. So what I'm asking is the 
subcommittee to allow us to transfer money from one fund to 
another since we have saved that much money.
    Mr. Regula. Do you have money in a fund that you could 
transfer?
    Mr. Cukro. We have saved money.
    Mr. Regula. This is tribal money?
    Mr. Cukro. This is what we receive from the Government.
    Mr. Regula. Oh, okay.
    Mr. Cukro. Over the past year, something similar to Sebucu 
scores.
    Mr. Regula. So you have surplus built up in that fund you 
want to transfer to your school fund?
    Mr. Cukro. We have built up $400,000, well, a little bit 
more than $400,000 is what I'm asking for. We've built up over 
$1 million in the last eight years.
    Mr. Regula. You would like to transfer $400,000 of that?
    Mr. Cukro. I would like to transfer $400,000 into housing 
quarters. And in order to do that, I need your permission.
    The second point on the document----
    Mr. Regula. Okay, we'll check out that possibility for you.
    Mr. Cukro. The second point on the document, we're asking 
for a garage. When the building was built, there was no 
playground and no athletic field. Housing was not established. 
We lived in trailers and a small building as a garage. I would 
like to leave these pictures with you to show you. Notice that 
there's a mechanic in front of a small building trying to 
repair a car.
    Mr. Regula. This is a garage for school buses?
    Mr. Cukro. This is for what I want, yes.
    Mr. Regula. Yes.
    Mr. Cukro. Or I should say need. In order for us to repair 
a car, minor repairs, it takes us 25 miles to the nearest 
place. Major repairs are 140 miles away. To me, it's a waste of 
money.
    Mr. Regula. So you need a garage where you can do your own 
work?
    Mr. Cukro. Well, we hired. It's what I learned long ago.
    Mr. Regula. Okay, well, we'll look into the problem of the 
transfer and also your garage.
    Mr. Cukro. I hope I see you at reunion time this summer.
    Mr. Regula. Okay.
    Mr. Cukro. It's my 60th.
    Mr. Regula. Okay, thank you.
    [The statement of Mr. Cukro follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                                          Thursday, April 15, 1999.

           BUREAU OF INDIAN AFFAIRS AND INDIAN HEALTH SERVICE


                                WITNESS

GARY RICKETTS, COUNCIL OF ATHABASCAN TRIBAL GOVERNMENTS
    Mr. Regula. The Council of the Athabascan Tribal 
Governments.
    Mr. Ricketts. Good morning, Mr. Chairman. My name is Gary 
Ricketts and Randy Mill couldn't make it down here today. I'm 
an Athabascan Indian as well, and I'm representing the Council 
of Athabascan Tribal Governments, which is composed of a 
consortium of 10 tribes in the Yukon Flats, which is located 
north of Fairbanks. Collectively, it's about the size of the 
area about the size of Pennsylvania, with about 1,500.
    We come here asking repeal of the three-year moratorium 
contained on the Fiscal Year 1999 appropriations. We feel that 
is somewhat discriminatory towards Alaska tribes versus the 
tribes in the other 48.
    Also, we're requesting legislative reallocation of $200,000 
in the U.S. Fish and Wildlife budget for the Council of 
Athabascan Tribal Governments to work with Fish and Wildlife in 
assuming the same interests in the Yukon Flats wildlife refuge.
    And another reallocation, not an appropriation but a 
reallocation for another $200,000 to work with their 
comprehensive plan. I'll give you a good example. Fish and 
Wildlife had actually developed a plan where they have a let-
burn policy with BLM and in the process, a couple of trap lands 
were wiped out. And so for people who had that as their 
livelihood, it basically put them in the poor house and put 
themdestitute.
    And also we, like all the other tribes, we're asking and 
respectfully requesting full funding for IHS and BIA contract 
support funds.
    The whole intent of the law, the 638 law, was to provide 
those opportunities for tribes to become stable and by 
developing their stability, they can launch forward and start 
doing economic development opportunities to enhance 
opportunities for our people. The 638 law is a magnificent law. 
It empowers our people to have some control or some semblance 
of control which we never had before. I personally have lost 
three in my family to suicide. And that's an ongoing problem 
we'll have up there until we can empower our people with the 
right to have some sense of control over their future. And the 
law itself has given us that opportunity. It has enabled us to 
bring funding coming into the village rather than going to 
Fairbanks or going into the other areas, coming right to the 
village, providing job opportunities, and we're not seeing a 
brain drain. We see all our brightest ones are leaving the 
villages going into Fairbanks or going into Anchorage to look 
for jobs. And so we experience it. Now we're seeing with this 
opportunity, monies coming into the village, so people now are 
going and getting their education and coming back to the 
villages.
    Mr. Regula. What's the number of your tribe?
    Mr. Ricketts. Pardon me?
    Mr. Regula. What's your tribal number?
    Mr. Ricketts. Oh, we're about 1,500 collectively out of the 
10 tribes. The largest tribe is native village, Port Yukon, 
which is about 600.
    Mr. Regula. How far are you from Fairbanks?
    Mr. Ricketts. It depends which village you're talking 
about. We could be 80 miles, air miles, where there are no 
roads except one----
    Mr. Regula. Do you have your own schools?
    Mr. Ricketts. They're all public schools with the State of 
Alaska.
    But I can say that that process has empowered our people. 
We're beginning to understand the roles and how to play the 
game and know the cost principles and the administrative common 
rule, and we're beginning to apply those. And it gives us 
understanding, we can actually interpret financial statements. 
And enhancing the health care that is being provided through 
Council of SFUG, we're actually seeing now we have 
telemedicine. We wouldn't have had that if it hadn't been for 
the 638 law and going through that process. We actually have 
capability now to have wounds being reviewed by somebody in 
Chicago. We're also having the ability, we're in the process of 
doing ISPs or Internet Service Providers where now our people 
will not have to go to Fairbanks, who can actually get their 
degree living in the village. And, again, it's through the 638 
process that has given these opportunities.
    And I won't go any further. But, again, thank you for your 
time.
    Mr. Regula. Well, I stopped in Alaska last week to refuel 
on the way to Korea. And they said the economy is pretty good 
up there as far as jobs are concerned in Anchorage.
    Mr. Ricketts. It could be in Anchorage; it could be in 
Fairbanks. But, again, in the villages, we're happy if we are 
able to get a couple who get a chance to work.
    Mr. Regula. Do most of your people work outside the 
reservation?
    Mr. Ricketts. We don't have reservations.
    Mr. Regula. Oh, I see.
    Mr. Ricketts. It is a very complicated world in Alaska. And 
I think Sally can definitely reaffirm that. You know, people 
are primarily subsistence. My uncle, his trap line is a hundred 
miles long. He's been trapping for 50 years.
    Mr. Regula. He does that on a snowmobile now?
    Mr. Ricketts. Yes. He was the last one. He had his dog team 
until 1968 or 1969, he got rid of them. But our people are very 
subsistence oriented. We are out there cutting the logs; we are 
out there you know, we are subsistence, I mean we are season 
food gatherers. When the spring comes in, the birds are coming 
in, we drop what we are doing and go out and hunt. Then the 
salmon are running in the summer, and we are picking berries in 
August.
    So then we are going hunting like all the other people in 
Alaska in September, but we hunt year-round. But we have to 
live off the land.
    Mr. Regula. You must have some attractions. I had a young 
man from my district who said he would only re-enlist in the 
Air Force if they let him stay in Elmendorf.
    Mr. Ricketts. Fishing is good in that country.
    Mr. Regula. He is in love with Alaska.
    Mr. Ricketts. Yes.
    Mr. Regula. Okay. Well, thank you for your testimony.
    Mr. Ricketts. Thank you very much.
    [The statement of Mr. Ricketts follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                                          Thursday, April 15, 1999.

           BUREAU OF INDIAN AFFAIRS AND INDIAN HEALTH SERVICE


                                WITNESS

JOSEPH F. McCONNELL, PRESIDENT, FORT BELKNAP COMMUNITY COUNCIL
    Mr. Regula. Fort Belknap Community Council. Yes, your 
statements will made part of the record.
    Mr. McConnell. Okay. We thank you for this opportunity. My 
name is Joe McConnell, I'm the chairman of the Fort Belknap 
Community Council. We have six members on our council. Our 
reservation is located in north-central Montana, about 40 miles 
away from the Canadian line. Our membership is approximately 
5,200 people. Our unemployment rate is around 70 percent 
unemployment.
    And also with me today, I have Jerome Main; he is our law 
and order consultant, and we have Joe Fox to my right, another 
council member. Sitting here for over an hour, I have listened 
and understand what that you guys do have a lot of challenges. 
And I know that there is not enough money to go around to 
address all of those concerns and needs.
    I think we would like to do a different approach today. I 
would like to talk about something that is impacting a lot of 
the tribes in Montana, Public Law 104-193, welfare reform, as 
we know it.
    Mr. Regula. Is it creating problems for you?
    Mr. McConnell. Impacts, and I would touch on some areas and 
give you some statistics I guess that would prove that. We have 
Montana, as you know, the economy is real slow up in that area 
because of a lot of reasons. We have seven reservations in 
Montana. Belknap is one of the tribes with few resources. So we 
rely heavily, like a lot of the tribes, on BIA and on Health 
Services for those services.
    Welfare reform, I guess it was imposed, enacted in 1996. 
Montana initiated its welfare reform program in 1995. Time 
limits of those recipients is starting to run out. What we are 
finding is that since we have a 70 percent unemployment rate, 
our cousins that moved to the cities are moving home. In 1998, 
we had 38 cases that moved back to Belknap.
    We have housing problems presently at Fort Belknap. We have 
two, three families staying in units.
    Mr. Regula. Why would they be moving home if unemployment 
is so high?
    Mr. McConnell. If you have over a 50 percent unemployment 
rate, then you have a waiver. So you can continue to stay on 
and receive those benefits. So we, with 70 percent unemployment 
rate, we have a waiver. So our cousins are coming home, and 
adding to the already overtaxed problem.
    Mr. Regula. They feel they can live better on the welfare 
benefit program than they can where they had a job outside?
    Mr. McConnell. I guess the ones that were on welfare say in 
Great Falls, Montana, were on welfare there and they didn't 
have a job there.
    Mr. Regula. I see.
    Mr. McConnell. So they are coming home.
    Mr. Regula. So then they qualify.
    Mr. McConnell. And they qualify. There are no jobs at home. 
So it is compounding the problems that we already have, which 
is housing, under NAHASDA our funding has been cut. We are 
doing different, innovative projects to try to create some more 
housing, like moving airbase housing back to the reservations.
    So there has been a big impact in housing. There's been an 
impact in our contract health-care monies. We have more people 
that are coming home. We are already under-funded in those 
areas. So law enforcement is being taxed. We have people coming 
home. There's no jobs. So what do they do? They get into the 
drugs. Start selling drugs. So it creates more problems that we 
already have.
    And I echo what the other tribes are saying. You know, 
there's just not enough dollars to go around.
    Mr. Regula. Yes. Okay. Well thank you for your testimony. 
And we will take a good look at it.
    Mr. McConnell. Okay. Thank you.
    [The statement of Mr. McConnell follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                                          Thursday, April 15, 1999.

                        BUREAU OF INDIAN AFFAIRS


                                WITNESS

WALLACE TSOSIE, BOARD MEMBER, GREASEWOOD SPRINGS COMMUNITY SCHOOL, INC.
    Mr. Peterson [presiding]. Next we will hear from Greasewood 
Springs Community School. If we could urge those who are up 
next to move to the front row so we can expedite the change 
quickly. Welcome.
    Mr. Tsosie. Thank you, Mr. Chairman, members of the 
subcommittee. My name is Wallace Tsosie. I am a school board 
member for Greasewood Springs Community School. With me is 
Ronald Gishey also of the board of directors for Greasewood.
    Today we would like to submit our written testimony for the 
record, and also since most of the testimony and the figures 
and the statistics has been covered in previous testimony, I 
will just go ahead and skip that and mainly focus on telling 
the subcommittee about Greasewood.
    Greasewood is located in Arizona on a Navajo reservation 
out in the kind of remote regions of the reservation. The 
school was built in 1930, but in 1964 the current facility was 
built. And so the facility is over 35 years old, and also the 
Greasewood Community School serves three chapters we call them 
chapters because there is a local unit of government and we 
represent about 6,000 members for the school. And the community 
is basically with a chapter house and maybe a small trading 
post. Especially at Greasewood, the only economic development 
that you see out there is the local trading post.
    So it is kind of remote area. And I would like to talk 
about some of the progress that is happening at Greasewood.It's 
not all that bad when you talk about the problems with Indian tribes, 
especially as there is progress going on. Right now, there is a 
gymnasium being built that was funded by the BIA. And I would like to 
share these pictures if I can, may.
    Again, Greasewood serves educational needs of 349 students, 
kindergarten through eighth. And since July 1996, our school 
has been operated by a board of directors through a grant from 
the Bureau of Indian Affairs pursuant to Tribal Control School 
Act, Public Law 100-297. I would like to just talk a little 
about the administrative costs related to grant school. We 
realize that the funding of needs for Indian tribes, and we are 
no exception to this need, and we do request 100 percent of our 
administrative costs be funded because of the previous 
testimony dictates that there is going to be an additional 13 
schools that are going to be added to the grant schools 
operation, and they will eventually dip into the pie.
    We will be distributing the money that much more. So our 
testimony states that we do need additional funding for 
administrative costs.
    Also, I would like to point out that the transportation, 
student transportation problems that we have. Like I said, 
Greasewood is out in a remote area. About 60 percent of our 
students transportation road is on dirt roads. And they require 
a four-wheel drive in some cases when the weather will not 
permit transportation to and from the school.
    So that is a problem. And even a very minor car repair 
requires a 50-mile trip to the nearest town, Holbrook, and it 
is very costly and time consuming when it comes to that.
    So, Mr. Chairman and members of the subcommittee, our 
testimony does state some of these problems with statistics. 
And we want to thank you. The pictures there like these do 
indicate that we do have some progress going on right now and 
we are very proud to be a grant school. And we feel this is the 
way for our Indian education and for the kids of Greasewood.
    So with that, Mr. Chairman, we thank you.
    Mr. Peterson. How far are you from the nearest school like 
yours?
    Mr. Tsosie. The nearest public school is about 20 miles.
    Mr. Peterson. Twenty miles.
    Mr. Tsosie. Yes.
    Mr. Peterson. Thank you very much.
    [The statement of Mr. Tsosie follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                                          Thursday, April 15, 1999.

           BUREAU OF INDIAN AFFAIRS AND INDIAN HEALTH SERVICE


                                WITNESS

TIM GILMARTIN, MAYOR, METLAKATLA INDIAN COMMUNITY
    Mr. Peterson. Next we will have Manzanita Band of Mission 
Indians, Dennis Turner. Not here. Okay. Next we have Tim 
Gilmartin, mayor, Metlakatla Indian Community. Thank you.
    Mr. Gilmartin. My name is Tim Gilmartin. I am the mayor of 
Metlakatla Indian Community. I was going to try to read this, 
but I don't think I could accomplish that in the time allotted. 
I do have some personal experiences. We have two issues. One is 
a new health clinic, and the other is law enforcement. We are 
the only reservation, it is my understanding, that has aquatic 
border. So that gives us a unique needs that aren't met. We 
don't fit into any criteria that has been established.
    The other is our new clinic. Before you become mayor, you 
do other things, and mine was in carpentry and construction. 
And I have great knowledge of the clinic facility. And it is a 
building that was built of 1970 modular technology, which was 
inadequate when it was constructed. The hallways are narrow. 
The rooms are small. It's falling apart.
    We have one of our own members, as our service unit 
director, doing all she can to maintain it to the standards. 
But it will not meet the disabilities or any standard that, any 
criteria that for a proper health-care facility. It is 
literally falling apart.
    The weather has a great impact on it. I personally repaired 
windows, floors, but it's ongoing. You fix one and next year it 
is another. So, and that part we would like to respectfully 
request the $1.3 million for the initial phase of design. And 
the total amount is $16 million for a new facility, which 
should include housing for our staff members, which is always 
difficult.
    I would just like to relate how I got here today, and that 
is the planes were unable to fly. We had to charter a small 
gill netter and come across in 45-mile-an-hour winds, which was 
quite the adventure just to make sure that we could make this 
testimony.
    And that is when we have medical emergencies, that is the 
kind of impact it has, this isolation. The clinic deals with as 
many as 18,000 calls and patients a year. There is quite the 
demand. And our people don't want to leave. You know, we have 
hard economic times and they do not want to leave. And we have 
an advantage, we do have a greater subsistence. So our people 
can support, feed themselves, but that isn't going to pay their 
bills. But they are doing all we can to stay in our community, 
and our population hasn't shrunk even though the economy of 
fishing, timber has been restricted by administrative policies 
and the like, but our people hang in there and we are looking 
at new options.
    But the other is our law enforcement, which is the aquatic 
side of it. We have one small boat, and we have 120 miles of 
coast line. Now, we are within proximity ofKetchikan, Alaska, 
which has a large fleet of boats that take the tourists out. And they 
go through our waters with impunity because our person cannot be 
everywhere at one time.
    We are this present time trying to get another officer, but 
we are trying to pick that up ourselves, whatever way we can. 
But in the long run, we need support for that. We need to be 
recognized for who we are and our uniqueness. I mean all these 
rules are made and written for having a physical boundary. If 
our waters were inside as a lake, nobody would question it. 
They would give us what we need. But seeing how it is on the 
outside, it's not written into anybody's rule book.
    So we need that to be considered as a reality that 
Metlakatla has those needs. And a squad car for one would be a 
boat for us. And there is nowhere it is written where you can 
change the rules. And you know yourselves that once one of 
those rules is written, that is the law and you are just no, we 
can't give that to you. It doesn't fall into this criteria. So 
we respectfully ask that that be considered for additional 
funding for our law enforcement.
    Thank you.
    Mr. Peterson. Thank you very much.
    [The statement of Mr. Gilmartin follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                                          Thursday, April 15, 1999.

                        BUREAU OF INDIAN AFFAIRS


                               WITNESSES

JIM KNAPP, BOARD MEMBER, NATIONAL INDIAN CHILD WELFARE ASSOCIATION
DAVID SIMMONS, STAFF MEMBER
    Mr. Peterson. Next we will hear from Jim Knapp, accompanied 
by David Simmons, of the National Indian Child Welfare 
Association. Good morning.
    Mr. Knapp. I am Jim Knapp. I am a board secretary for the 
National Indian Child Welfare Association, and with me today is 
David Simmons, staff member with NICWA. Our offices are located 
in Portland, Oregon. And I am here today to highlight three 
requests that we have to submit through testimony.
    One, to increase by $3 million the BIA fiscal year budget 
request relating to Indian Child Welfare Act under the tribal 
priorities allocation budget category. Two, to restore historic 
funding to the Indian Child Welfare Act, Title II off-
reservation grant programs, which was $2 million, which was 
funded through Fiscal Year 1996 under the special projects and 
pooled overhead portions of the BIA budget but is not 
identified in the administration's request for Fiscal Year 
2000.
    Number three, to require the BIA and IHS to provide more 
detailed information on programs that provide funding and 
services for children.
    And in particular, I would like to highlight today the 
second request, and that is to restore funding to off-
reservation urban Indian programs. We estimate that up to 65 
percent of Native Americans now reside off reservations, and as 
an executive director of an urban Indian Center myself in 
Buffalo, New York, and having been de-funded, we see a gap in 
services and advocacy and capability of implementing the Indian 
Child Welfare Act under the current situation.
    To readmit and provide funding for off-reservation native 
organizations would really give us that opportunity again to 
make sure that the law is being administered, especially in 
family court systems that are clearly not tribal court-based. 
And this is a process that needs to take place at this level. 
We advocate at the local level, but it very much has to exist 
in the budget of the BIA.
    That's the report I have for you today, and I appreciate 
your time.
    Mr. Peterson. Do you have any comments?
    Mr. Knapp. Just to highlight the third item, which was the 
data. BIA and IHS provide to the committees a certain amount of 
data. A lot of it is fairly superficial and not really a good 
descriptor of need. And this is actually, I think our third 
year in a row, where we have asked that the subcommittee and 
committee look at trying to require the BIA and the IHS to 
provide a little bit better data on how much actual need there 
is out there in terms of human need, not just budget need. And 
then so this makes it a lot easier to be able to compare 
appropriation requests with support services to that actual 
human need.
    And I don't think we are able to really do that. And 
inparticular, with IHS budget, children's mental health is not broken 
out. So we have no idea how many of those services are being funded 
through these dollars are actually reaching children who need mental 
health services.
    So I think both for the committee's sake and also for 
Indian country's sake, it would be nice if we could have some 
better data.
    Mr. Peterson. I am told by the staff that we have the same 
request for that kind of information and data. So thank you 
very much.
    [The statement of Mr. Knapp follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                                          Thursday, April 15, 1999.

           BUREAU OF INDIAN AFFAIRS AND INDIAN HEALTH SERVICE


                               WITNESSES

CATHY ABRAMSON, SAULT STE. MARIE TRIBE OF CHIPPEWA INDIANS
DENNIS HERTER
    Mr. Peterson. Sault Ste. Marie. Welcome.
    Ms. Abramson. Hi.
    Mr. Peterson. Please proceed.
    Ms. Abramson. This will be brief. And we really appreciate, 
Mr. Chairman, on behalf of the Sault Ste. Marie tribe of 
Chippewa Indians, this opportunity to appear before you. My 
name is Cathy Abramson. I am a member of the board of directors 
for our tribe. And I hold the position of secretary.
    The Sault Ste. Marie tribe of Chippewa Indians is the 
largest federally recognized tribe in Michigan. We are 
dedicated to achieving true self-determination and self-
government. Over the years, we have opened schools, built 
health centers, and established various business ventures to 
restore and enhance our economy and our land base.
    While much has been done, considerably more is needed to 
enable us to fulfill the promise of our self-determination 
policies. We urge this committee and Congress to reaffirm its 
commitment to providing funding sufficient to enable tribes to 
maintain basic core services funded through the BIA and IHS.
    We further support the key recommendations of the BIA 
tribal workgroup on tribal needs assessments, including tribal 
priority allocations. We particularly reaffirm the existing TPA 
funding levels that are wholly inadequate to provide tribes 
with even basic programs and services. We strongly oppose any 
redistribution of existing TPA funding.
    In this time of growing Indian populations and rising 
health-care needs and costs, it is vitally important to provide 
a significant increase in funding for health care in line with 
other national standards. In this regard, we fully support the 
efforts and recommendations of the IHS level-of-needs task 
force.
    That committee will recommend that a benefit package 
similar to the health group policy be offered to every eligible 
Native American. The preliminary cost for comprehensive, wrap-
around coverage is estimated to be $3,000 per person. While the 
preliminary costs for this benefit package are high, it is 
recommended to phase in increases over a five-year ramp-up 
period.
    Finally, we have been an IHS self-governance tribe for well 
over five years. Our tribal health facilities have not been 
treated in the same manner as an IHS facility when it comes to 
staffing and equipment. In Fiscal Year 2000, we plan to 
construct a satellite health center in Manistique, Michigan. If 
IHS were to build a facility, there would be funding provided 
to hire additional necessary staff. This is not the case when 
tribal resources are utilized.
    We request the tribes be offered afforded equal 
consideration for staffing and equipment when building theirown 
health facilities.
    Thank you for this opportunity to testify.
    Mr. Peterson. Thank you very much. Thank you both very 
much.
    [The statement of Ms. Abramson follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    Mr. Peterson. The committee will be in recess until 1:30.
                              ----------                              

                                          Thursday, April 15, 1999.

                        BUREAU OF INDIAN AFFAIRS


                                WITNESS

PRESTON McCABE, PRESIDENT, PINON COMMUNITY SCHOOL BOARD
    Mr. Nethercutt [presiding]. The hearing will be in order.
    Our first witness for this afternoon is Preston McCabe, 
president of, is it Pinon?
    Mr. McCabe. Yes.
    Mr. Nethercutt. Community School Board. Sir, welcome. 
Delighted to have you here.
    Mr. McCabe. Thank you, Mr. Chair, and members of the 
committee. As named, I am Mr. Preston McCabe. I am the chapter 
president of Pinon Community and also the Pinon Community 
School Board president. I appreciate the opportunity to testify 
before you again in hopes of having the committee provide a 
full amount of, the IHS facility construction funding and also 
to adequately fund the BIA education programs; and under the 
health clinic, which is number three on the alternate 
construction project priority list.
    And we would like to urge the subcommittee to fully fund 
the administration's $42.53 million requested, and this will 
bring our project closer to a reality here.
    And also, several years ago the subcommittee and the IHS, 
saw the need of the full-fledged clinic in Pinon. And in 1992, 
they did a justification document for that project. And so in 
1992, September of 1997, because of insufficient funding, the 
project was put to a halt. And recently again, with that 
request of $1 million, $37 million, which was appropriated last 
year, that completed the design phase of the project.
    That puts the project online for funding. And we would like 
to ask the committee to fully fund that in your Fiscal Year 
2001 so that way the project can become, and the facility be 
used for its medical services that is long overdue.
    Also, part of my testimony will be the school operations, 
and this facility management also. The facility operations and 
maintenance. There is a request for $51.83 million and also the 
maintenance, $27.29 million, and a total of $79.1 million, 
which is approximately $4 million more than the current funding 
levels. But still yet, it is simply not enough to meet the 
existing buildings, the inventory and everything and all that 
can be combined.
    And we are urging the committee also to provide at least 
$100 million for the facility operations and maintenance, so 
that the investment of the Government should be enjoyed by 
future generations.
    And also, under the administration cost grants on our 
reservation there are some schools that are going grant and 
contract again and, with a cap on the administrative cost 
grants, it is really not enough even as it is right now, with 
the currentfunding levels, it is not enough also.
    So we are asking to have the committee change some of the 
language that put the cap on that funding level and also to 
fund at least 100 percent for that, because that is something 
that is really needed out there.
    And also for classroom expansion. And there is a $36.1 
million for facility improvement and repairs. There is a $4 
million decrease from that current funding level. And, when the 
actual need for that is $734 million to bring everything up to 
date. And, right now in Pinon, we are experiencing shortage of 
classrooms again. And, therefore, we request that we receive 
funding levels for these extra classrooms which we are 
requesting also.
    We have a Navajo land rich in culture also, and we are 
teaching these in bedrooms and stuff like that, empty bedrooms 
where we are teaching these classrooms. On the program 
expenses, we are urging the committee to lift the current 
moratorium on program extension and BIA fund the schools.
    And we also appreciate the transportation, the increase in 
the transportation. But there is also that funding level, the 
national funding level, which we are never able to achieve. We 
are very slowly getting up there, but, it is still yet. With 
the roads and everything as they are, you know, it is just so 
much wear and tear on our vehicles and stuff like that.
    Mr. Nethercutt. Sir, we will put your statement in the 
record. And we appreciate your testimony. We are going to do 
the very best we can. We have to struggle to keep everything in 
balance this year, but we will give your requests full 
consideration. Appreciate it. Thank you. Glad to have you here.
    [The statement of Mr. McCabe follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                                          Thursday, April 15, 1999.

                        BUREAU OF INDIAN AFFAIRS


                                WITNESS

MARTHA GARCIA, PRESIDENT, RAMAH NAVAJO CHAPTER
    Mr. Nethercutt. The next witness would be Ramah Navajo 
Chapter, Martha Garcia, president. Welcome, ma'am. Your 
statement will be placed in the record, and I am delighted to 
have you summarize.
    Ms. Garcia. Thank you very much, Mr. Chairman Nethercutt. I 
am from west-central New Mexico. It's a mountain area, and that 
is where the Ramah Navajo Community is located. Ramah Navajo 
Community is separate from the Navajo nation geographically. We 
are out there. Ramah Navajo is also known for its self-
determination issue since its beginning.
    We began this school back in 1970 just by sheer 
determination, self-determination. And in 1986 the chapter 
began contracting the sub-government of the Navajo nation of 
the remaining BIA programs that were out there, and I will be 
addressing that today.
    I have four requests to make before this committee. I will 
address those that we would be in support of, and that is in 
the area of law enforcement. There will be increases that are 
coming before the committee and also before Congress this year. 
And we are asking that you support these increases because we 
badly need to replace our vehicles out there, provide 
additional police services to our community. We are going full-
fledged into community-oriented policing service. And the 
community has been a lot of help.
    We just recently started, and we have officers who are out 
there working with the various organizations and individuals in 
providing this service. But out of that we also realize that we 
need to continue this and get into a full-time basis with this 
program. And we are very happy to hear that there is a proposed 
increase, and hopefully that will continue to remain within the 
budget.
    The other area that we are looking at is the Tribal 
Priority Allocation funding. I wish there was a way that we 
could wave a wand and fix how we do the funding through this 
area, but it's long overdue. But we have to deal and function 
within this system that is set there. And currently the budget 
also includes an increase of $17 million. And if that can 
continue to remain as it is, we will see maybe a little bit of 
increases down at our level and continue to provide a service 
that is needed. But our actual need is way beyond that of what 
we have seen.
    Since the cut has happened in 1985, the level of funding 
has never been at, has not reached, the level that we had seen. 
And so that is another area that we are here before you, is to 
continue to maintain these increases that are being proposed 
through the presidential budget.
    And the other one is the contract support. We have a 
shortfall on an annual basis. And Ramah has filed a lawsuit, a 
class-action lawsuit, which we recently had a final argument on 
in the courts. And we have not received a finaldecision yet. 
But we know that that's going to create some issues that need to be 
resolved.
    But the overall issue of the indirect, or the contract 
support needs to be addressed, and we can't continue to have a 
shortfall because it has really severely impacted us. We had to 
renegotiate this past year's contract because of the impact it 
had on us. Ramah Navajo Community really depends on the Federal 
dollars to provide the services.
    We don't have our general funds or other funds that we 
would need to supplement our programs. And we depend on this, 
and when we have shortfalls, it severely impacts us.
    Then the last issue is the Bond land. We were here last 
year requesting that supplemental funds be made available to us 
to purchase this land. It is 19.25 sections of land. Last year 
it was offered to us at 1.4 by the Bond family. And we are 
continuing to pursue this.
    The reason being that this Bond ranch is right in the 
middle of our community. It borders on three sides by the Ramah 
Navajo Community, and on the west side by the Zuni reservation. 
And we would like to do a lot of land consolidation as much as 
possible. And we are located in an area where we are 
checkerboarded, and we have over seven land status. And it 
makes problems for us with others. Law enforcement is one of 
the areas, school boundaries, and stuff like that. So we try to 
consolidate our land as much as we can. And by purchasing this 
land, it would further create a land base that belongs to the 
Ramah Navajo Community.
    We have a land base that has been created especially for us 
back in early 1980's by Congress also. And at this time we are 
requesting an appropriation to purchase this land.
    Mr. Nethercutt. Thank you very much. We appreciate your 
testimony, and we will do the best we can. We will take it all 
into account.
    Ms. Garcia. Okay. Thank you very much.
    [The statement of Ms. Garcia follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                                          Thursday, April 15, 1999.

                        BUREAU OF INDIAN AFFAIRS


                                WITNESS

JIMMIE C. BEGAY, DIRECTOR, ROCK POINT COMMUNITY SCHOOL
    Mr. Nethercutt. The Rock Point Community School director 
Jimmie Begay. Thank you for being here, Mr. Begay. Your 
statement will be placed in the record in its entirety, and we 
are delighted to recognize you for five minutes.
    Mr. Begay. Thank you for allowing me testify before the 
committee. I am the school director for Rockpoint Community 
School in northeast Arizona. There are five areas I would like 
to cover.
    One is the Indian School Equalization Program. As other 
BIA-funded schools as also as Rockpoint School, for this school 
year, 1998-1999, we have $3,199 of the weighted student units. 
And again for school year 1999-2000, it is projected at a 
$3,238. Okay. And then for school year 2001 2001 it is 
projected at $3,285. So if you look at the increases, this is 
barely increases.
    Then if I say compared to the national average of about 
$6,500 per capita, okay. So we barely reach that at $3,100 this 
year.
    Anyway, in 1991, through Congress as well as BIA, there was 
ISEP tests. Of course it was put together, and they recommended 
$3,499. We have never reached that. So after nine years later, 
we was still short of that. Okay?
    So it is real hard to work with this type of figures 
because we have the cost of living increase on one side that is 
really going up at 5, 6 percent. And the amount of 
appropriation that comes in doesn't really match that. And we 
are also required to meet the national goals 2000, things that 
we need to do in that area.
    They were saying that if $3,499 per WSU is recommended of 
1991, and the goals 2000 be achieved at least $336,000--I mean 
$336 million $336,000 needs to be budgeted.
    Okay. Then we go down to transportation. And school year 
1993-1994, again I go back, the national transportation figure 
was $2.92. Okay. This current year we are barely reaching 
$2.10. So in order to offset the transportation costs for our 
school, we have to dip into the instruction program to take out 
the dollars to run the transportation costs.
    Okay, like us, we run buses on unpaved, unimproved road. So 
that really eats into our budget for maintenance costs, travel 
costs back into town. So what we are saying is the 
appropriation should be less than $48.33 million. Again, in the 
President's budget talks about $38.8 million to be 
appropriated, but again that would only put us at $2.35 per 
mile, which is far below the six years ago.
    The other part is administrative costs, which is one of he 
biggest concerns that we have, as well as all other contract 
grant schools. Currently, there are 117 schools under grant or 
contract, and only 68 operated BIA schools. So meanwhile, 
currently we have $42.2 million, has remained the same the last 
three years. It's in a cap also.
    So while we have an influx of schools from BIA-funded 
operated schools into contract or grant, this does not 
alleviate our problems. So, you know, we are to be funded at 
100 percent. We are saying that it has to be funded close to at 
least $50 million to take care of all the schools that are 
coming into the contract-grant schools plus other existing 
schools.
    The other part is that we have school housing, which is 
close to 40 years of age. We are starting to need constant 
attention with maintenance. And they are depreciating fast, and 
we're saying that if possible we would like to request funds to 
pay some these housing for staff. We don't have any other 
housing available other than the schools.
    The last part is operation maintenance for facilities. This 
is a big concern also because in the last three years we were 
never funded 100 percent. We have always been around 68 percent 
or 70 percent. So while the facilities are again depreciating 
and they are close to 40 years of age, a lot of these 
facilities will start to go into the facilities improvement and 
repair program, which again is backlogged at $700 to $800 
million. And if it goes further and gets into construction, it 
is even higher.
    So this is my testimony. I thank you for.
    Mr. Nethercutt. Thank you, sir. Thank you very much. 
Appreciate having you here. We will do our best.
    [The statement of Mr. Begay follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                                          Thursday, April 15, 1999.

                        BUREAU OF INDIAN AFFAIRS


                                WITNESS

DENNIS TURNER, MANZANITA BAND OF MISSION INDIANS
    Mr. Nethercutt. We are going to receive the testimony today 
of Dennis Turner, Manzanita Band of Mission Indians. Thanks for 
coming, Mr. Turner. Glad to have you.
    Mr. Turner. Thank you, Mr. Chairman. First of all, on 
behalf of the small and needy tribes throughout the country, I 
would like to thank this committee for its previous years of 
support for seeing that the small tribes, which represent 60 
percent of the 550 tribes in the country receiving funds for 
running their tribal governments, and would like to see the 
continued support for the small and needy tribes.
    What they are concerned about, those that in doing so, that 
the Bureau of Indian Affairs has in their analysis lumped all 
of the programs services along with the administrative and 
management systems to account for the $160,000 in the lower 48 
and the Alaska area, the $200,000 that Congress and this 
committee have supported to give or lump all those programs 
together.
    And when we made our early pleas for this funding and 
agreed upon, we thought that the support, the additional 
support, was for program services so people would receive 
services. And the confusion came about in the administration 
when they decided to lump everything together. So in some ways, 
tribes by the administration's direction were forced to live 
with this total budget that really doesn't reflect their needs.
    But just a few minutes to tell you that I think we need to 
get that straight because we have had your support over the 
last four years on this, and would like to continue to keep you 
aware of it.
    The second thing I have is moving away from my first 
testimony point is the testimony with the Southern Indian 
Health Council. It's the second part of my presentation. In 
1999, the committee along with the administration and all the 
other agencies supported the development of a youth regional 
treatment center for the California tribes, in which there 
three. The point is that there was not a reoccurring allocation 
for this funding, although very much supported and appreciated 
in California.
    We would like to see, because we really believe that the 
issue of poverty and substance abuse is really linked to our 
children. And we believe that these youth regional treatment 
centers as supported by this committee in the past is a measure 
to alleviate these problems and resolve them.
    So in the year 2000, we would like to see the continued 
support for our regional youth treatment centers in the 
California area. These are ongoing, reoccurring programs for 
the tribes in other states. I provided in this additional 
supplemental form here basically so that we could be assured 
that in the year 2000 it is continued.
    Currently, the facility has been built by tribalfunds but 
operating with a shortfall. And even the appropriation that was given 
last year by this committee at $1.2 million to operate this facility, 
which provides 12 beds for Indian male youth and eight beds for female 
Indian youth, we still had a shortfall of $600,000 in operating the 
center.
    We did provide in this packet letters of recommendation for 
both the Indian Health Service, the Bureau of Indian Affairs, 
and the National Board for Substance Abuse, which is an 
American Indian committee established by the administration and 
all other Federal agencies. We gained the support of them to 
see that you could continue to fund this operation because, 
again, we feel that this was our priority. We still think that 
substance abuse issue is still a major issue in Indian country 
in California.
    And I think that we need your continued support.
    Mr. Nethercutt. Well, thank you very much.
    Mr. Turner. Thank you.
    Mr. Nethercutt. We will do our best. Appreciate your 
efforts to help young people too in your area and elsewhere.
    Mr. Turner. Thank you, Mr. Chairman and committee members.
    Mr. Nethercutt. Thank you, sir.
    [The statement of Mr. Turner follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                                          Thursday, April 15, 1999.

                        BUREAU OF INDIAN AFFAIRS


                                WITNESS

SCOTT HUNSINGER, DIRECTOR OF NON-ACADEMIC PROGRAMS, SHIPROCK 
    ALTERNATIVE SCHOOLS, INC.
FAYE BLUEEYES
REX MORRIS
    Mr. Nethercutt. Shiprock Alternative Schools, Incorporated. 
Scott Hunsinger accompanied by Faye BlueEyes and Rex Morris. 
Welcome to all of you. As I stated to the other witnesses, your 
prepared testimony will be presented in the record in its 
entirety and I am delighted to have you summarize for five 
minutes.
    Mr. Hunsinger. Thank you, Mr. Chairman. My name is Scott 
Hunsinger. I am the director of non-academic programs. I would 
like my two colleagues at first to introduce themselves.
    Mr. Morris. I am Rex Morris, Jr., school board president.
    Mr. Nethercutt. Welcome, sir.
    Ms. BlueEyes. Faye BlueEyes, director of facilities.
    Mr. Nethercutt. Welcome.
    Mr. Hunsinger. Mr. Chairman, our testimony in support of 
our written testimony focuses on our request to have the 
subcommittee support in righting the wrong that has been 
perpetrated by the Bureau of Indian Affairs education 
construction budget request for Fiscal Year 2000.
    Shiprock Alternative Schools currently serves over 500 
students in grades K through 12. In 1991, there were 11 schools 
on the national school priority list, published in the Federal 
Registry. That year, the Bureau of Indian Affairs solicited 
applications. They received 66 applications. Five new schools 
were then selected and then ranked on the basis of their need, 
at which time Shiprock Alternative Schools was ranked number 
one out of that fifth group.
    Therefore the list became expanded with schools number 12 
through 16 placed on the existing list, with Shiprock 
Alternative at number 12. The Bureau of Indian Affairs 
announced that, although it planned to change the process for 
new school applications, schools on the consolidated priority 
list could be ``retained in order on the list.''
    Through Fiscal Year 1999, 10 of the first 11 schools on the 
list had received funding. In the bureau's Fiscal Year 2000 
budget request appropriately Seba Delkai, which was the last 
school of the first 11 on the list, was in as part of the BIA's 
budget request. But Shiprock Alternative was skipped over, 
number 12, in place of Fond du Lac Ojibway, number 14.
    We understand that although Seba Delkai and Fond du Lac 
have or will complete their design phase by the start of the 
new fiscal year, this is also true of our own school and as 
number 12 should have been the next school to receive 
construction funding. It seems that Shiprock does not appear on 
the Bureau's Fiscal Year 2000 budget request because our 
project is larger and more expensive. However, this fact should 
not be the basis of the BIA to justify its disregard of its 
very own priority rankings. This action breaks faith with us 
and damages the integrity of the entire priority ranking 
system.
    Furthermore, it makes no sense to us because when you 
consider inflationary costs from one fiscal year to the next, 
passing over us and placing us for funding in Fiscal Year 2001 
would cost the government an additional $1 million.
    Finally, the larger picture in all of this is the extreme 
need for adequate education facilities across the Indian 
country. It is estimated that we require $100 million to 
complete all schools remaining on the original priority list, 
and possibly an additional $1 billion to address the facilities 
needs of other schools across Indian country in terms of 
renovation or replacement costs.
    Facilities O and M funding continues to be a concern which 
directly impacts the facilities condition of these schools, 
whether an existing school or new school. It is no wonder that 
with facilities O and M funding currently at 67 percent of 
need, the needed upkeep of existing facilities is severely 
lacking.
    As solutions, we urge this subcommittee to support the 
following measures. Number one, to honor the position of 
Shiprock on the priority by having the Bureau of Indian Affairs 
amend its budget request and by having Congress appropriate the 
necessary funding.
    Second option would be to have Congress unilaterally 
appropriate additional resources for new school constructionin 
order to complete all schools remaining on the priority listing within 
Fiscal Year 2000.
    And thirdly, to ensure that Congress will appropriate 
funding at 100 percent of need rather than a constrained amount 
that has historically been appropriated since the inception of 
the system for facilities.
    We thank you for your past support of Indian education. 
There has been much progress over the years in many areas with 
the support of Congress. But as I have indicated, your support 
is now needed to address this issue of educational facilities 
in terms both of new school construction costs and also the O&M 
funding.
    We thank you for your time.
    Mr. Nethercutt. Thank you for your time, all three of you. 
It's of concern to me as the chairman here today for this 
segment that you were skipped over. We will look into it and 
see what we can do to find out why. It just doesn't seem right. 
So, thank you for being here, and thanks for your testimony.
    Mr. Hunsinger. Thank you.
    [The statement of Mr. Hunsinger follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                                          Thursday, April 15, 1999.

                        BUREAU OF INDIAN AFFAIRS


                                WITNESS

ROBERT ROESSEL, DIRECTOR, ROUGH ROCK COMMUNITY SCHOOL BOARD
    Mr. Nethercutt. Rough Rock Community School Board director, 
Robert Roessel. Did you have testimony, sir.
    Mr. Roessel. Yes, preprinted.
    Mr. Nethercutt. Oh good. I wasn't sure if you were here or 
not.
    Mr. Roessel. Yes, thank you.
    Mr. Nethercutt. Delighted to have you. Thank you.
    Mr. Roessel. Mr. Chairman, you have my prepared statement. 
I'd like to deviate a little bit from that and explain why the 
Rough Rock Community School is important. I think, first of 
all, it is the first contract and grant school in the country. 
Almost all of the schools on that list that you have for 
testimony are contract and grant schools.
    Our school started in 1966. It was the first school 
controlled totally by a local Indian community. It was the 
first school that added to the curriculum elements of Navajo 
history, language, and culture. So it had a real important 
place in the early days of Indian education. Since that time, 
we have Larry Benally on my right, who is the secretary of the 
school board, and Mr. Todecheenie on my left, who is a member 
of our school board.
    Now we are again embarked on making the Rough Rock a leader 
in bilingual-bicultural education. This is something we think 
is very important. We believe that it is significant that 
research clearly shows, and this undeniable research clearly 
shows that Indian students who know their culture do better in 
college than those that don't. We did this research at ASU when 
I was there in 1963. Since that time, that research has been 
replicated by about 8 or 10 different times that shows that the 
most significant element of a person's success in college is 
pride in himself, knowledge of himself, and a positive self-
image.
    So that is what we are trying to do at Rough Rock. We are 
trying to provide students with an atmosphere that will give 
them a good academic education that will also allow them to 
know who they are. And this is very important. And we believe 
it is something that is we are trying to cultivate.
    We offer 23 courses in Indian education, Indian affairs, 
and Navajo culture, Navajo language at our high school. We are 
a K through 12, 500-student institution. We offer three units 
required in Navajo studies before a person can graduate. There 
is not another school that remotely has those requirements.
    Another area we have a first in is certification. We 
believe it is very important that the teachers that teach 
Navajos in this instance understand, respect the language and 
the culture. So we require 12 units of college for any teacher 
that wants to stay at Rough Rock. They have a two-year period 
to get that.
    So those are all things we believe in. We are not a BIA 
school, and this is a very important point for this committee 
to remember. Contract and grant schools are a BIA-funded 
school, they are not a BIA school. In other words, the reason 
they were formed back in 1966 was to allow the freedom and to 
break out of the bureaucracy, break out of the shackles that 
the BIA at that time held all of Indian education. And so it 
did that.
    But now the BIA is trying to put their arms around us, and 
we don't think that is proper. We don't think that is 
desirable. Certainly we have to be accountable. Certainly there 
are certain stories that go around, like in Wisconsin of a 
school that was incomplete and they wasted the money. We are 
not justifying that at all. All we are saying is that it is 
very important for us to have the opportunity of doing the 
types of things that an independent school district can do.
    And the final remark I want to make deals with the fact 
that we are interested in obtaining, as everyone has testified 
here this morning, increases in ISEP. We feel that if you are 
going to start off and have a 100-yard dash, everybody has to 
be on the starting line. And Indians and minorities basically 
have not been on the starting line. They lag behind. Not 
because they are dumber, not because they are not as smart, but 
because education has not been there. They have not had the 
quality, they have not had the opportunity.So we feel this is 
an important measure of the success of a school.
    So I thank you.
    Mr. Nethercutt. Well thank you. You made some very good 
points. And you know that local control of education is darned 
important, whether it is at Indian schools or not. It seems to 
me we are trying to break through----
    Mr. Roessel. Across the board, it's an American education.
    Mr. Nethercutt. It is. It gives you the flexibility to 
teach what you feel your students need.
    Mr. Roessel. That's right. That's right.
    Mr. Nethercutt. It's great that you are teaching them good 
heritage.
    Mr. Roessel. Thank you.
    Mr. Nethercutt. So thanks for your efforts and your 
testimony.
    [The statement of Mr. Roessel follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                                          Thursday, April 15, 1999.

           BUREAU OF INDIAN AFFAIRS AND INDIAN HEALTH SERVICE


                                WITNESS

HERBERT WHITISH, CHAIRMAN, SHOALWATER BAY INDIAN TRIBE
    Mr. Nethercutt. Shoalwater Bay Indian Tribe, is it Herbert 
Whitish?
    Mr. Whitish. Yes.
    Mr. Nethercutt. Sir, Chairman, glad to have your testimony 
be placed in the record and happy to have you summarize.
    Mr. Whitish. I come before the committee today to talk 
about a reproductive health crisis that has been going on in 
Shoalwater Bay Reservation since 1988. In the period between 
1988 and 1992, we have lost 10 of 19 pregnancies due to 
miscarriage, ectopic pregnancies, stillbirth, or death of child 
before one year.
    In 1998 so far, we have lost eight of nine pregnancies due 
to miscarriage. In 1999, we have so far lost two of three. And 
the one lady that is pregnant, and it is due in about a month, 
and the costs have been astronomical to support her because she 
has been in and out of the hospital frequently.
    The story kind of begins in the initial 1988-1992 time 
period. In 1994, due to the efforts of Congress, IHS and 
Washington Department of Health did a study. In that study they 
found many possibilities, but could not put the finger on any 
one. They made several recommendations, of which the main ones 
were build a tribal clinic to increase access to health care. 
The second was to establish a committee to give the tribe some 
guidance because they knew that the tribe did not have the 
resources internally to do that. The third was to conduct an 
environmental study.
    In 1995, I came to Congress to ask for the help, ask for 
their assistance. We received $250,000 to deal with the issue 
of the clinic. We took that $250,000 and then got a HUD block 
grant, and the tribe took out a loan and constructed a clinic 
that is now open. It has been open for three years.
    We are proud of it. Now we have a full array of services: 
medical doctor, mental health and the like. Congress also 
directed EPA to conduct a comprehensive assessment. Although 
the tests were far from comprehensive, it did make many 
recommendations which we have not implemented due to costs.
    Further, we did develop a committee, the Shoalwater Bay 
Health Advisory Task Force that contained members of AMA, CDC, 
Indian Health Service, and a wide array of other entities. 
Despite all of our efforts, we have still found no solutions as 
is evidenced by the eight of nine losses in 1998 and the two of 
three in 1999.
    And that brings us to today. We are at a point in our 
existence that if something isn't done, then we don't know what 
is going to happen to us in the future. We have so far lost two 
generations of our children, two generations of our leaders, 
and we don't know what to do about it.
    I have been traveling around town for the week, and I have 
heard many fine words and seen many fine things, and I went out 
to the Arlington Cemetery the other day and I stood in front of 
John Kennedy's grave and I said, you know, what a shame that 
one of the brightest lights in our history had to be turned 
off. And I thought to myself that the losses that we have 
undergone and that which one of those would have been our fine 
lights.
    In summary, what I have come to ask for is help. What is 
contained within this document is not the only way to achieve 
the goals that we look for but is the only thing that we could 
come up with. These requests that have been passed in front of 
the National Institute of Health who said that what we were 
asking for was right in line.
    We have had numerous meetings with EPA and asked them what 
their ideas and thoughts were, and they said they would have 
approached it in the same way. So what we have here in our 
estimation is the only thing we can do in order to find answers 
to our problems.
    It looks like a lot of money for such a small tribe, but 
without this money and without doing something from this point 
forward, I know what the future holds. And so I am here on 
behalf of my tribe to ask for the assistance in any way that we 
can, whether it be to work with other organizations such as EPA 
or University of Washington or any of those. Butsomehow or 
another we must find some answers.
    And I have looked, and I have been thinking about what I 
was going to say, and I looked at the motto of this country and 
what it wants to do in protecting the sick, the poor, and 
bringing in the people and taking care of them. We are sick, we 
are poor, and we don't have anywhere else to go. And so I am 
here today to ask for your assistance.
    Mr. Nethercutt. Appreciate your testimony, sir. We are 
going to do our best. You present moving testimony, and I was 
wondering if you have done any control with regard to these 
pregnancies. Have you taken the women to other locations to see 
if it is directly related to their being there? Or whether it 
is hereditary? I assume you have looked at a lot of those 
things.
    Mr. Whitish. To answer that question, there have been 
ladies that had problems on the reservation, lost births, moved 
away, and had successful----
    Mr. Nethercutt. Yes. So it is probably----
    Mr. Whitish. And we have also had situations where 
employees of the tribe, not Indian, had babies previously and 
then started working for us and lost four babies over the last 
year, which are not included in these numbers. And so I don't 
know whether or not it is the environment or whether it is a 
multitude of factors that range from environmental to access to 
health care to genetics, or any of these things. And that is 
why this is so important, and especially some of the top items 
on the request is that we have lost probably the most valuable 
information that we could have had in not testing genetically 
the tissue samples after the losses.
    And so that is why this is such an important component to 
finding what the answers are because we could speculate 
forever, throw money, dollar after dollar, after environmental 
studies, but if it is something genetic it won't help.
    Mr. Nethercutt. Right.
    Mr. Whitish. And if it is something environmental rather 
than the genetic, then nothing works unless we have this 
comprehensive package in order to find the answers. And, like I 
say, the tribe is desperate in that they are afraid to have 
babies, and they believe the only way they are going to live a 
good life is to move away. And that goes contrary to us trying 
build a community.
    Mr. Nethercutt. Sure it does. Well, I am grateful for you 
testimony. The subcommittee will consider it very carefully and 
do our best. It is going to be a tough year budget-wise, and we 
are going to see if we can help. But there is money in the 
Government and many other places, and there may be some way you 
can tap a little from here, a little from there.
    Mr. Whitish. Well that is what we are expecting to do.
    Mr. Nethercutt. So, good for you. Thanks for your 
testimony.
    Mr. Whitish. Thank you.
    [The statement of Mr. Whitish follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                                          Thursday, April 15, 1999.

                        BUREAU OF INDIAN AFFAIRS


                               WITNESSES

DAVID GIPP, PRESIDENT, UNITED TRIBES TECHNICAL COLLEGE
CHARLES MURPHY, BOARD CHAIRMAN
    Mr. Nethercutt. United Tribes Technical College, Dr. David 
Gipp, president, accompanied by Charles Murphy, board chairman. 
Welcome gentlemen. Nice to have you here.
    Mr. Gipp. Thank you, Mr. Chairman. My name is David Gipp, 
as you just mentioned, and I am accompanied by Charles W. 
Murphy, the chairman of the Standing Rock Sioux Tribe and also 
chairman of our board. And he represents all of the tribal 
owners of our intertribal institution.
    We thank you for giving us this time, and I would request 
that our statement be made a part of the record.
    Mr. Nethercutt. It will indeed, automatically, be placed in 
the record. We would be happy to have you summarize.
    Mr. Gipp. We will do so, and I will get right to the point. 
Chairman Murphy may have a few comments from the owner tribe, 
if that is all right, Mr. Chairman.
    Mr. Nethercutt. Certainly.
    Mr. Gipp. I will just note that we have been existence 
since 1969, and we appreciate the fact that this committee, 
subcommittee, and the committee have always been supportive of 
our efforts and of the funding of United Tribes since the early 
1980's. And we have been operating since 1969 under the 
Interior appropriated programs.
    Our request, Mr. Chairman, is for a total of $2.538 
million, which is $157,000 over the administration's request 
and about the same for the Fiscal Year 1998 Senate mark.
    We also note that we have some difficulties, of course, 
with the contract support funds. We annually absorb and really 
have lost over a million dollars in the past 10 years because 
of lack of ability to collect the contract support funds. The 
reason why that is so important is that we are a facility based 
in campus-based type of operation, and we do rely on those 
funds to provide some of the overhead necessary to support the 
facilities and the basic operations.
    In addition, we do note there could much stronger and 
better leadership from the Bureau of Indian Affairs as it 
relates to the adult vocational training programs. We have 
watched that initiative drop from a level of about $75 million 
in 1969 to approximately $9.9 million this year and 1996.
    What I am getting at here is that the Bureau of Indian 
Affairs is charged with issues of economic and business 
development, issues of self-sufficiency, and unfortunately, 
really, the priority when you talk about training adequately 
our human resources, they have to be adequately trained and 
educated to be a part of that economic development force.
    And really, this has happened throughout Indian country. So 
that is an overall problem that we would hope the committee 
would further look into.
    Regarding the United Tribes, Mr. Chairman, we serve close 
to 600 in our total population, counting the men, women, and 
children. We are basically a comprehensive kind of program. We 
focus on the American Indian family. As a result, we have two 
day-care centers and a K through eight elementary school there. 
And so we focus on both adult and children, and the idea of 
bringing the family together so that they can all be truly 
self-sufficient.
    We are accredited, of course, by North Central, and we 
offer one-year and two-year associate of applied science degree 
programs. And we serve about 17 different states. Right now we 
are currently serving 36 different tribes from throughout those 
17 different states, and that varies up to as many as 40. So it 
will vary from one year to the next based upon where those 
tribal members come from.
    I should also add that when you talk about the request that 
we have, we would be using that additional request to take care 
of emergency repairs, to further reinvest or invest into state-
of-the-art technology when we talk about computer, the 
internet, and all of those related fields that are so critical 
to American Indian workforce issues, cost of living 
adjustments, and to improving upon existing and looking at new 
courses, course areas, particularly in the allied health fields 
and the area of injury prevention. These are major areas that 
confront each of our communities throughout the United States.
    We formed the first injury-prevention program, Mr. 
Chairman, in the United States at the two-year level, and we 
are working with other institutions to look at the development 
of four-year programs as well. In fact, there is no bachelor's 
level program in this field. There is a graduate program and 
then we are the first to offer this in the area of injury 
prevention for American Indian students. I mention that because 
of the high rate of accidents and other kinds of injuries that 
prevail throughout Indian Country and our various communities.
    Mr. Nethercutt. To what do you attribute that? Is it 
training, lack of training, maybe?
    Mr. Gipp. It is a lack of training. People not using 
seatbelts, for example. Some very simple things. But also being 
aware of some of the medical and health issues. I mean, we 
obviously have some of the highest rates of diabetes and heart 
problems and all of those kinds of things. And that is what 
this curriculum begins to address is how do we deal with 
preventative as opposed to just rehabilitative issues.
    Mr. Nethercutt. I am real sensitive to the diabetes issue. 
I am co-chairman of the Diabetes Caucus in the House and we 
have over 240 members and I am well aware of the high incidence 
of diabetes in the Native American Indian populations.
    Mr. Gibb. I have just been diagnosed a diabetic myself.
    Mr. Nethercutt. Oh, gosh. I am so sorry. I have got a 
daughter who is diabetic, so I know some of what you may be 
going through. So, anyway, we are devoting a lot of money in 
this government to assist just the Native American population, 
the Indian population, so it helps us somewhat on the way.
    Mr. Gipp. And that is why I think education and training 
are so critical, so vital to really saving Indian America or 
Tribal America.
    Mr. Nethercutt. I agree with that.
    Mr. Gipp. Thank you.
    Mr. Murphy. Mr. Chairman, I would just like to welcome you 
to our college out there.
    Mr. Nethercutt. Oh, I would be delighted to see it 
sometime.
    Mr. Murphy. Just to see for yourself what we have. And give 
us a call and we will be waiting for you.
    Mr. Nethercutt. Well, that is awful nice of you. It always 
helps for me as a member and others I know, members of the 
subcommittee and other assignments in the House, to just go out 
and look and see and put your hands on things and it makes a 
huge difference. So, to the extent that I can do it, I would 
love to take you up on it. That always helps me.
    Mr. Murphy. Well, we will keep in touch on that.
    Mr. Nethercutt. Anything on diabetes, too. You know, you 
all feel free. We have a great Diabetes Caucus and it is really 
focused on more money and more education and more research to 
try to cure the disease for all people in our country. There 
are 16 million Americans who have diabetes, at least. And so it 
is a growing problem.
    Mr. Gipp. Yes, well we have a lot of people on dialysis, 
too.
    Mr. Nethercutt. That is miserable and it is tough.
    Mr. Gipp. It is. It really is.
    Mr. Nethercutt. We have tried to. I am on the Ag 
Appropriations and what we have tried to do is have the 
Agriculture Department look at the distribution of food 
supplies to tribes on different programs, make sure that the 
food is good food, not high fatty food.
    Mr. Gipp. That is right.
    Mr. Nethercutt. Non-nutritious food. Make it so that it 
doesn't create a problem with Native Americans in Indian 
tribes. So we have got to attack this at all levels.
    Mr. Murphy. Mr. Chairman, we had a hearing several years 
ago with Senator Dorgan on the types of foods that they were 
putting out for commodities and there hasn't been a lot of 
change, but some people within the 550 tribes within the United 
States are not getting the same as everybody else, so.
    Mr. Gipp. Definitely need to make improvements in that 
whole area of nutrition and that attitude, the whole issue of 
prevention.
    Mr. Nethercutt. Right. Certainly. Well, we are going to 
work on it this year in Appropriations and, at least my 
assignment. And then, certainly, in this committee, we do a lot 
of good things for Indian health so you have touched our lives. 
We understand, so we will do the best we kind.
    Mr. Murphy. Thank you very much.
    Mr. Nethercutt. Thank you for your work.
    Mr. Gipp. Thank you, Mr. Chairman.
    [The statement of Mr. Gipp follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                                          Thursday, April 15, 1999.

           BUREAU OF INDIAN AFFAIRS AND INDIAN HEALTH SERVICE


                               WITNESSES

TOM MAULSON, CHAIRMAN, LAC DU FLAMBEAU BAND OF LAKE SUPERIOR CHIPPEWA 
    INDIANS
LARRY WAWRONOWICZ, DEPUTY ADMINISTRATOR OF NATURAL RESOURCES, LAC DU 
    FLAMBEAU BAND OF LAKE SUPERIOR CHIPPEWA INDIANS
    Mr. Nethercutt. Lac du Flambeau Band of Chippewa, Tom 
Maulson, president. Did I say that right, sir?
    Mr. Maulson. Almost.
    Mr. Nethercutt. Sorry. I apologize. My name Nethercutt has 
problems too, though.
    Mr. Maulson. Right. I am not going to bore you with a lot 
of what you have heard already today here by different tribal 
leaders. As the tribal chairman and the president of my nation, 
I just wanted to just echo the fact that there is a 
responsibility far greater than to the other people in America 
and that is the fiduciary responsibility of your peoples to us 
and in reference to making sure that we have all of those 
things that you hear the different people here asking for.
    And I think, hoping, that you just won't look in it, that 
you will do something about it because we have been here quite 
a few years now testifying for five minutes and I have heard a 
lot of yes and, well, we will look into it. I am hoping that 
maybe one day you will really, take off the jackets and let us 
do something about it. Because our people are constantly having 
the problems that you see in my testimony here.
    I have with me my natural resource director and these are 
some of the things that we do for your people, you know, that 
come to Wisconsin. So I am hoping that we can ask you to, you 
know, to take on this year IHS shortfall, once again, that is 
taking place in the President's budget. It impacts my people 
back home. Education is very important, like you heard the 
other tribal leaders here. It is important that we, instead of 
saying that we are going to look into it, that we put, you 
know, pen to paper and make things happen.
    Mr. Nethercutt. We have on Indian health. The President's 
budget was miserable last year.
    Mr. Maulson. Right.
    Mr. Nethercutt. And it is miserable this year.
    Mr. Maulson. Yes.
    Mr. Nethercutt. So we plussed it up in this committee.
    Mr. Maulson. And I think we need to put a couple more 
plusses on it, because we have been waiting a long time for 
this and hopefully they can make that and you have heard the 
cries of different leaders here today and in the past years. 
And I am hoping that maybe next year we can, you know, maybe 
talk more general instead of requesting these things. Okay?
    Mr. Nethercutt. Sure.
    Mr. Maulson. I would like to just turn some time over to my 
natural resource person because I think this is something that 
is very dear to our people and also dear to the people of 
Wisconsin, because we support the things that we are doing. And 
we also welcome you to our neck of the woods, because it is 
God's country.
    Mr. Nethercutt. Sure.
    Mr. Maulson. And we are not the one in Wisconsin that had 
their problem with that school. [Laughter.]
    Mr. Wawronowicz. Mr. Chairman, members of the committee, my 
name is Larry Wawronowicz and I am the deputy administrator of 
natural resources for the Lac Du Flambeau Band. It is always 
difficult sometimes for me to come up here before this 
committee and talk about how important the natural resources 
is, especially after I think Chairman Whitish indicated a very 
serious problem that he has on his reservation and I often have 
to think that a lot of the problems, health problems, 
associated with the Native American community as well as the 
non-Native American community across the Nation has a lot to do 
with the health of our resources.
    The Native American community is always tied to those 
resources. That is what they are as people. And it is important 
that we are able to protect and serve and enhance those 
resources for present and future generations. In Indian 
Country, we are always talking about trying to take care of the 
seventh generation. We are always thinking seven generations 
ahead. I could sit in my office and I could see, some pictures 
ofsome tribal youth and that gives me the motivation to try to 
protect and serve and enhance those resources.
    We have some specific requests for our natural resource 
programs. For example, in wildlife and parks, we would like to 
have $200,000 for Lac Du Flambeau tribal natural resource 
department. In the past, the Circle of Flight program was 
supported by Congress, but the Great Lakes tribes indicated a 
$957,000 or $975,000 need. So we are looking for an increase in 
appropriations of $398,000.
    Forestry is another big part of our program. We haven't had 
increases in our forestry program since 1990 and we should be 
able to make sure that our forestry resources are intact and 
clear and clean. So, you know, our resources and our people are 
healthy as well.
    We have tribal historic preservation needs. We not only 
have to take care of our natural resources, but our cultural 
heritage. It is important for this community to understand that 
there is disparity in funding between SHPOs, or State tribal 
historic preservation offices, and tribal historic preservation 
offices. I think SHPOs get around $250,000 and, on the average, 
the tribal historic preservation office are only getting 
$9,000, so there is a disparity that this committee needs to 
know.
    Land consolidation. We support the request for $10 million 
for a land consolidation project, but we would also like to see 
that the tribe had the ability to make the decision on what 
land is being bought within the boundaries of the reservation. 
And you can best do that through the mechanism of Public Law 
93-638.
    Contract support. You heard numerous discussions about 
that. The Bureau even says right now with the current budget, 
84 percent of the needs are met. We need to have that increased 
100 percent and I hope you take that into consideration.
    With that, I think we are products of our environment. If 
we have a healthy environment, we have healthy people. And I 
hope you will take that into consideration. Thank you, sir.
    Mr. Nethercutt. We will. And I appreciate the seriousness 
of your testimony. And I know that you mean it. And, you know, 
I wish it were all up to me.
    Mr. Maulson. Well, I wish it was too, Mr. Chairman, because 
we think you would----
    Mr. Nethercutt. Our hearts are in the right place. It is 
just that we are trying to make it all fit, but we always need 
more money.
    Mr. Maulson. And that is exactly why we encourage tribal 
leaders to come here and sort of bang on the table and look you 
in the eye and say, hey, there's something that needs to be 
done here.
    Mr. Nethercutt. Nothing wrong with that. That is okay. 
Sure, I understand.
    Mr. Maulson. I thank you.
    Mr. Nethercutt. You are welcome. Thank you both.
    [The statement of Mr. Maulson follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                                          Thursday, April 15, 1999.

           BUREAU OF INDIAN AFFAIRS AND INDIAN HEALTH SERVICE


                                WITNESS

TOM MAULSON, PRESIDENT, GREAT LAKES FISH AND WILDLIFE COMMISSION
    Mr. Maulson. But, with all that, I am going to go right 
into the next testimony because I am the president of the Great 
Lakes Fish and Wildlife Commission.
    Mr. Nethercutt. Oh. [Laughter.]
    All right. Two hits, huh?
    Mr. Maulson. That is right. I just want to indicate that I 
am very proud to be president of that organization. It does 
wonders in Wisconsin. It is based, once again, on treaty rights 
and I think we want to ask your support. You know the base 
funding that it has, you know we have never asked for increases 
up until just recently because of equipment getting old and 
such. You see the three priorities that we are asking for. We 
hope that will be taken into consideration. As you know, the 
Minnesota tribes just reaffirmed in the judicial system the 
right to use the usufructuary hunting, fishing rights within 
that ceded territory and we are part of that so it impacts us 
as a Great Lakes organization.
    I think this is a fine organization, second to none in 
Wisconsin and I am proud to be a part of it, like the other 
chairman that is going to be testifying here today. So I would 
encourage this committee to support that and see if we can get 
that little bit extra, because it definitely helps not only my 
peoples, the tribes in Wisconsin, but ithelps the people of 
Wisconsin also.
    Mr. Nethercutt. Who is your Member of Congress? Who 
represents you?
    Mr. Maulson. We have got a new one, Mark Green. We just 
talked to him. We talked to the other Representatives. So they 
are well aware of this and, hopefully, we will be able to do 
something.
    Mr. Nethercutt. He is a good man and he will be pounding on 
our door on your behalf.
    Mr. Maulson. Okay. Well, once again, thank you very much. 
We will be caught up a little bit.
    Mr. Nethercutt. Thank you so much, sir.
    [The statement of Mr. Maulson follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                                          Thursday, April 15, 1999.

           BUREAU OF INDIAN AFFAIRS AND INDIAN HEALTH SERVICE


                                WITNESS

DONALD MOORE, SR., CHAIRMAN, THE BAD RIVER BAND OF LAKE SUPERIOR 
    CHIPPEWA INDIANS, WISCONSIN
    Mr. Nethercutt. The Bad River Band of Chippewa Indians, 
Donald Moore, Chairman. Welcome, Mr. Moore.
    Mr. Moore. Good afternoon.
    Mr. Nethercutt. Thank you.
    Mr. Moore. Mr. Chairman.
    Mr. Nethercutt. We will put your statement in the record in 
its entirety and would be glad to have you summarize.
    Mr. Moore. Okay. I am honored to be here among my peers 
today and among the committee to do some testimony on behalf of 
the Bad River Tribe and our tribes nationwide. I have a lot of 
concerns like Tom from Wisconsin, like Lac Du Flambeau from 
Wisconsin. We, too, have, you know, a lot of needs in a lot of 
the areas that do, the tribes nationwide also.
    One of them is the CHR program, community health 
representatives. I understand there is a proposed $5 million 
cut. We urge the committee to restore that cut and add another 
$5 million. CHRs are important to our tribe. They call them 
glorified babysitters or taxicabs. I think it is like the 
ongoing nationwide home health care program where everything is 
geared towards home health care. So the CHR is way ahead of 
their time, I think. I think it is a valued asset to any tribe.
    Another one is the contract health services that we have on 
the reservations. If you look at my testimony, in 1991, we had 
providing services for 1,100. Now we have 3,739 today. But the 
funding hasn't kept pace. And hopefully we have gotten some 
increases, but I think the Indian Health Service provides us 
approximately 55 percent of our total need with the tribe 
contributing X amount of dollars also.
    Diabetes. I urge the committee to continue this. This is a 
valuable asset. We are starting from the ground floor on. We 
are educating our youth through fitness, education, nutrition 
programs. We consolidate our programs and do what we have to do 
to make the dollars stretch further.
    Mr. Nethercutt. What kind of statistical records are you 
keeping to be sure whether whatever efforts you are devoting to 
reducing diabetes are working or not? Are you doing that pretty 
well?
    Mr. Moore. Yes, our clinic is doing that data research. We 
are continuing to, because, like other Indian nations, we do 
have diabetes on the reservation. I am a victim of it myself, 
you know, so it is an important component and hopefully it will 
continue for years of funding.
    Mr. Nethercutt. Yes, that is great.
    Mr. Moore. Also the dental services are not, you know, 
enough, but, you know, like everything else, we are trying to 
do our best on the reservation.
    Mr. Nethercutt. Diabetes has an impact on dental problems, 
too.
    Mr. Moore. Right. Right. Absolutely. We constructed a 
clinic at approximately $500,000 of tribal monies and grant 
monies, whatever monies we could find. And just urge IHS to, 
through the Indian Health Improvement Act, to provide needed 
staff and equipment in this clinic. You know, we need those 
kinds of things in the clinic. It is an important component of 
our health care services.
    From there, I will go to the other end of the spectrum, law 
enforcement. We are one of the few tribes nationwide that 
doesn't have any law enforcement whatsoever. We are dependent 
on our local sheriff, the county sheriff, in Ashland County. 
That is based probably 12 miles away. So response time is 
anywhere from 15 minutes to 1 hour, 1.5 hours. It all depends 
where he's at. And we, you know, the presence is a deterrent to 
crime, you know, and we have a deputy that is there maybe eight 
hours maybe five days a week. But what about the other two 
days? The weekends are the high, critical times.
    We are in a position now that, at this time, the local 
sheriff and the State of Wisconsin is looking favorably, 
positively on us, you know, providing us some sort of law 
enforcement assistance. The State itself is going to give us 
some training, train two or three through their State patrol 
training school, and the county sheriff is willing to cross-
deputize for the first time in years and years. You know, this 
is really a plus. This is an opportunity for us right now to 
obtain these kinds of services. We get a small grantof $57,000 
which we give to the county sheriff so that presence remains on the 
reservation. But we do the local input.
    Mr. Nethercutt. Mostly drug problems?
    Mr. Moore. Drugs. There are fights. You know, traffic 
accidents. You know, there are a lot of the regular, you know, 
the domestic abuse.
    Mr. Nethercutt. Yes.
    Mr. Moore. And the response time is terrible because there 
is not enough enforcement.
    Mr. Nethercutt. Sure.
    Mr. Moore. And I want to remind the committee also, we are 
not one of those, as I am going into education, we are not that 
school in Wisconsin that was mentioned before. [Laughter.]
    Mr. Nethercutt. Disclaimers here on the record.
    Mr. Moore. We operate our own school. It is a 9 through 12. 
It has only been in existence for four years. The tribe has 
dedicated as much money as they could for it. We take students 
that can't make it in the other schools. We involve them in the 
curriculum, the cultural. And we have graduated approximately 
20 students already and they are all contributors to our 
society, to our culture.
    Mr. Nethercutt. It is really an important issue.
    Mr. Moore. It's important, yes. Right. And we never got 
funding for it. We got a few small grants from other entities, 
but we funded ourselves and we are getting to that point where 
we are stretching our dollars. We get 20 and 30 students a year 
in all that we are trying to educate and give them a good 
working relationship with the tribe.
    Mr. Nethercutt. Good for you. That is great.
    Mr. Moore. And they go to other education programs, such as 
Higher Ed, ADP, JOM.
    We would like the committee to continue to do its fine work 
and try to continue the funding within this. If they don't have 
education, they don't compete in this world, they are not going 
to get very far. I mean, we can't continue to try to educate 
them without assistance of some sort.
    Then we get back to natural resources which Lac Du Flambeau 
also talked about. Our natural resources, we have one of the 
most pristine areas in the world, is Sokaogon Sloughs. It is 
like the original, you know. And we are protecting that. But we 
need money. We need funding to continue that. We are asking for 
$300,000. We have a fine crew of natural resources people, 
experts, expertise, air, land, water, you know, it is just that 
we can't find enough resources.
    Then we have the Bureau of Indian Affairs, that pilot 
project of land consolidation. What I would like to ask the 
committee to do is, it is within that bill was the tribes 
couldn't contract that. It is a pilot contract of $5 million 
that 3 Wisconsin tribes are involved in: Lac du Flambeau, Bad 
River, and Lac Courte Oreilles. We want more control because we 
can't pick and choose the lands that we want bought back 
through it is mostly geared towards the 2 percent or less 
monies. So what we would like to do is have the tribes have 
more control.
    I mean, if the Bureau is going to buy us lands of 2 percent 
or less tracts, then they might be scrub lands. We want some 
lands that may be used for economic development, rather than 
the lands that the Bureau is choosing for us. We would rather 
have more control on this for ourselves.
    And that concludes my testimony. I appreciate I took a 
little more time, but I wanted to let the committee know that 
we have some real bad needs at Bad River.
    Mr. Nethercutt. Well, thank you. Mr. Moore, it is hard for 
all of us to limit everybody to five minutes. It doesn't seem 
right, but we get so darned many witnesses. But it is nice to 
have you here and we will do our best.
    Mr. Moore. Thank you.
    Mr. Nethercutt. Thank you, sir.
    [The statement of Mr. Moore follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                                          Thursday, April 15, 1999.

           BUREAU OF INDIAN AFFAIRS AND INDIAN HEALTH SERVICE


                                WITNESS

RAYMOND GACHUPIN, GOVERNOR OF THE PUEBLO OF JEMEZ, NEW MEXICO
    Mr. Nethercutt. Jemez Pueblo, Vincent Toya, Governor. 
Welcome, Governor.
    Mr. Gachupin. Mr. Chairman, I thank you very much. Mr. 
Chairman and members of the committee, I am Raymond Gachupin, 
the governor of the Pueblo Jemez from the great State of New 
Mexico.
    Mr. Nethercutt. Excuse me for the mispronunciation.
    Mr. Gachupin. No, if you just allow me about 15 seconds to 
explain. Mr. Toya was the governor last year and I guess we 
submit these well in advance. That is why his name still 
appears on that list.
    Mr. Nethercutt. Okay. Well, you are welcome here no matter 
what.
    Mr. Gachupin. Thank you very much. We are located 
approximately 50 miles northwest of Albuquerque. The Jemez 
government has many funding needs. But I will focus my oral 
remarks on the most pressing, including the funding for safe 
drinking water infrastructure, a highway bypass corridor study, 
and law enforcement. Other funding requests are contained in my 
written testimony, which differs slightly from my oral 
presentation here.
    Mr. Chairman, about two weeks ago, I had a committee 
meeting among my tribal members and there were many, many 
issues discussed during my committee meeting. The Jemez, 
however, one of the most top priorities here is thecompletion 
of the infrastructure that will ensure the delivery of a safe drinking 
water to our homes.
    It seems like, while most Americans take clean drinking 
water for granted, this really isn't true for our community 
here. We have identified the problem with our drinking water 
distribution system. We have also obtained some funding to 
construct a new well, a storage tank, and a filtration system. 
But we still need to replace approximately 31,000 feet of 
inadequate water delivery systems, the cost for which is 
approximately $620,000. We ask the committee to support this 
request on behalf of the Pueblo of Jemez.
    The other area here is we have a real major concern in 
regards to the funding for a highway bypass corridor study. 
Highway 4, which is State Highway 4, runs through the heart of 
our pueblo. I understand that there are approximately 11 or 12 
scenic designations throughout the country and we happen to be 
one of them. So that kind of attests to that we do come from 
very beautiful country up in the Jemez Mountains.
    But as a result of this identification, traffic has 
increased tremendously and it is a two-way road and it is 
extremely narrow. And this type of an activity here has caused 
some serious safety and quality of life problems for us. These 
include noise, pretty much dangerous conditions for 
pedestrians, and invasion of privacy and property rights of 
those living near the road. Speeding on the highway, which 
normally has been a longstanding problem because of the lack of 
funding for law enforcement, is an even greater threat to our 
safety now.
    To address these serious problems, the pueblo is working 
with the State of New Mexico to develop a proposal for a bypass 
that would divert traffic around the pueblo. And we have urged 
the committee to provide $300,000 so that we can initiate a 
corridor study for the bypass.
    I also would like to touch on the area of law enforcement 
because that also is a real major problem in the area that we 
come from, the Pueblo Jemez. We certainly support the 
presidential initiative on the law enforcement in Indian 
Country. But we are asking the committee to do more by funding 
this initiative above the amount requested by the 
administration.
    Let me just share with you my own personal experience with 
regards to law enforcement. In 1989, I was also a tribal 
official at the time and, just for your information, we are 
appointed into these positions. We are not elected. We don't 
run for these positions. We are appointed on a yearly basis. 
The very first night that I was on duty back in 1989, we did 
have a shooting in the pueblo. And it took approximately five 
hours for any of the law enforcement to respond, the BIA law 
enforcement. And, needless to say, the young man that was shot 
didn't make it and the young girl that was with him currently, 
today, is in a wheelchair for life also as a result of that.
    As recently as about three weeks ago, we also had a break-
in in our Head Start building and it is incredible, but the 
youngsters that broke in were a 5-year-old, a 7-year-old, and a 
10-year-old. They were out there playing and they decided to 
break in. And, of course, we found out. But, again, it took the 
law enforcement approximately three hours to respond to 
something like this. So it is really discouraging that we are 
having these types of experiences with our law enforcement and 
it is frustrating. We do want to do a 638 with our law 
enforcement and we are certainly looking into that to see if we 
could contract our law enforcement so that we have better of 
that ourselves, as well.
    The one other thing that I really would like to touch on 
here is that the Pueblo Jemez strongly opposes the proposed $5 
million reduction in the funding for the Community Health 
Representative program. This proposed cut will adversely impact 
our ability to meet the health needs of our people. CHR is one 
of the most important resources for improving the health of our 
tribal members.
    Our five Community Health Representatives, who are tribal 
members, also speak our language, Towa speakers, which we need; 
provide home visits; health education; screening service; case 
management; translation; and support services to our families. 
They serve as an essential link between our traditional ways 
and the western model of health care delivery. We urge the 
committee to restore the CHR to the full funding it needs and 
deserves.
    Mr. Nethercutt. We have had testimony here before about one 
value of that sort of liaison capacity of the CHRs. It seems to 
be a good program, on the ground. From a practical standpoint, 
it seems to make some sense.
    Mr. Gachupin. It is an extremely valuable program that we 
are real concerned about.
    Mr. Nethercutt. Sure.
    Mr. Gachupin. And, lastly, Mr. Chairman, I finally just 
want and the Pueblo wants to extend our gratitude and thanks 
for the support of the diabetes prevention funding in Indian 
Country as well because it certainly has benefitted my people 
and we do also have a diabetes problem and we seem to have it 
up and going and we are really proud of the programs that we 
have in regards to the diabetes. And it is because of your 
support that we are able to provide these types of services for 
our people.
    Mr. Nethercutt. Well, great.
    Mr. Gachupin. We certainly encourage you to support that.
    Mr. Nethercutt. Well, don't worry. You have got one. 
Speaking as one, I am real supportive and we have advocates all 
up and down this committee. And, as I said to one of the other 
witnesses, one of the things we really want to be careful of is 
statistics. You know, what is working? What isn't? Are we 
getting outreach? Are we not getting adequate outreach? We want 
to help people with this $30 million a year of extra money that 
goes in. Not just spend it; I want to use it well and wisely. 
So we need your help on quantifying what works and what 
doesn't. What is reducing the incidence and what isn't. What 
treatment is getting there and what isn't. So you will help us, 
if you would.
    Mr. Gachupin. We certainly will be more than happy to help 
you. You just need to come visit our program and you will see 
the program at work.
    Mr. Nethercutt. Great. Thanks a million.
    Mr. Gachupin. Mr. Chairman, thank you very much.
    Mr. Nethercutt. Glad you are here. Thanks so much for your 
testimony.
    Mr. Gachupin. Thank you.
    [The statement of Mr. Gachupin follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                                          Thursday, April 15, 1999.

           BUREAU OF INDIAN AFFAIRS AND INDIAN HEALTH SERVICE


                                WITNESS

ROBERT PEACOCK, CHAIRMAN, FOND DU LAC BAND OF LAKE SUPERIOR CHIPPEWA
    Mr. Nethercutt. Fond Du Lac Band of the Chippewa, Robert 
Peacock, Chairman. Welcome, gentlemen. Good to have you here.
    Mr. Peacock. Hello, my name is Bob Peacock. I am chairman 
of the Fond Du Lac. This is Mike Rebideaux, the superintendent 
of our school. And you have our prepared statement of ours. But 
I would like to vary off a little bit at the beginning. I want 
to talk to you about our school.
    As you can see, we are requesting in excess of $14 million. 
Now I have been chairman almost 12 years on Fond Du Lac and 
before that I was 6 years as the executive director. During my 
term as executive director, we started a school on Fond Du Lac 
and it began with the metal building. It was a 40 by 80 with a 
basement. We needed to build that because our children were 
being pushed out of the public schools. A lot of the kids were 
not going to school.
    The first year we opened that up, it became overcrowded. So 
the next year we built another 40 by 80 building and that also 
filled up to capacity. Plus, we put a Head Start in the bottom 
in the basement in the second building. And then a school 
closed down, a public school closed down north of my 
reservation. That would have entailed that our younger children 
would have had to ride a bus up to four hours a day back and 
forth to school. So we set in some modular buildings and we 
redid the sewage and everything else for those buildings.
    But over the years, for the last 14 years, we have been 
building on, adding on, tearing down, modifying, and watching 
our buildings deteriorate while the needs for the children on 
the reservation for education continues. And, as I said, you 
know, if we had built this thing back when we first requested 
it, we could have done it for a lot less money. But I sat 
around and every year we keep coming and asking for funds and 
every year I keep inviting people to come through and look at 
what we have.
    We started out being number 50 on a national list and we 
went to number 11. We went down to number seven and we stayed 
at that for a couple of years, then we went to number three. 
Then they redid the list and we went into limbo for a while. 
And last year we finally had to tear out a couple of the 
buildings we built, a couple of modular buildings to put in, 
and we have had to just tear out some of the older ones because 
they were a health hazard. And we are still here. The needs are 
still even greater because they still have need.
    I have spent or my reservation has spent millions of 
dollars just in trying to build other alternative ways to meet 
needs in education. Specifically, we just spent in one of our 
districts built a district building up there in excess of $1 
million and that has classroom space up there for an alternate. 
I am doing the same thing now where Fond Du Lac is going to be 
looking at the northern sector of our reservation in order to 
maintain those students in at least some classroom when they 
are not in the public school. But I need a central public 
school for our children.
    So that is just the turn of events that I have as far as 
our needs. The other stuff is within our prepared statement. 
The only other thing I would want to reiterate or cover is law 
enforcement. And, as you know, the Supreme Court held that 
under the Stone decision that the tribes now in the Public Law 
280 States are responsible for law enforcement. As such, the 
budget is out with the Bureau, but, unfortunately, they don't 
seem to provide funds for the 280 States. Our needs to provide 
law enforcement for those areas and to be a part of that budget 
are necessary.
    We have been very successful at working out arrangements 
with the local and State law enforcement agencies for cross-
deputization. We are very successful in working and developing 
partnerships, but we still have at least to be able to meet 
those needs financially for personnel and equipment.
    And the rest of it is already there. And, as you know, we 
are also a tribe that is in the 1854 and 1837 ceded territory. 
Those needs for natural resources continue to grow. And that is 
pretty much what I have.
    Mr. Nethercutt. Great. Thank you both for your testimony. 
Appreciate it very much.
    Mr. Peacock. Thank you for having us.
    Mr. Nethercutt. Thanks for coming in.
    [The statement of Mr. Peacock follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                                          Thursday, April 15, 1999.

           BUREAU OF INDIAN AFFAIRS AND INDIAN HEALTH SERVICE


                                WITNESS

JEANNE JERROD, CONFEDERATED TRIBES OF THE COLVILLE RESERVATION
    Mr. Nethercutt. I am delighted to welcome the next witness 
because they are my constituents. Colville Confederated Tribes. 
Joseph Beacoup is chairman. Welcome. Glad you are here. I 
wasn't sure who was going to be testifying.
    Ms. Jerrod. The Chairman is not here. He said he would be 
on penalty of death. It is his little girl's birthday.
    Mr. Nethercutt. He has got his priorities in line. Welcome 
to you.
    Ms. Jerrod. Thank you and good afternoon. I am Jeanne 
Jerrod. I am an elected member of the Colville Confederated 
Tribes business council and I am here to present testimony on 
behalf of the Colville Confederated Tribes.
    Within the Bureau of Indian Affairs, the tribes strongly 
support the administration's allocation of $456,000 for the 
Inchelium ferry. This ferry is run by the Colville tribes for 
the use of the general public. We would also like to request an 
add-on of $195,000 in order to operate the ferry sufficiently 
for the needs of the communities. This ferry serves an isolated 
community and, quite often, is the only means of transportation 
from that community out into the public due to the floods in 
the area washing out highways and other roads of access.
    Mr. Nethercutt. What would the add-on be for, Jeanne?
    Ms. Jerrod. It would be for----
    Mr. Nethercutt. The extra $195,000.
    Ms. Jerrod. It would be for extra service hours and extra 
staff to run for those service hours, as well as the 
maintenance.
    I would also like to touch on an area that I know the 
subcommittee is very concerned with and that is the $1 billion 
backlog for education facilities, construction. I have heard a 
lot of testimony from other areas and we would add our concerns 
as well.
    We have on Colville the Paschal Sherman Indian School, 
which is 100 years old and we had at one time been on the BIA 
priority list and ranked third. However, when the school board, 
by necessity, accepted modular buildings to house our students 
in, we were removed from that priority list. The lifetime of 
those modulars have now run out and they pose a health and 
safety factor, forcing us to house our students in crowded 
classrooms. We would like to request support for advancing 
construction funds for the Paschal Sherman Indian School. We 
would also like to highlight the need for law enforcement 
detention facilities on Colville.
    Mr. Nethercutt. And I have been there. I know what you 
mean. Not incarcerated. [Laughter.]
    I get the message.
    Ms. Jerrod. Today we have to contract with the two 
counties, Ferrian, Okanogan, in order to incarcerate our 
prisoners and if we could gain the support and the dollars to 
construct our own facility, we believe it would be a savings to 
that program, as well as a greater service to our communities 
as our reservation is 1.3 million acres and it is very time 
consuming for staff to be transporting off reservation to the 
county institutions.
    In the area of health service, we strongly oppose the 
administration's proposed $5 million cut in the CHR program. 
Again, I have heard extensive testimony here today. On 
Colville, those CHRs represent a very trusted support service. 
They supply key services to our people, that being health 
education, which includes the diabetes that I have also heard 
discussed here quite extensively, and they are often the first 
to respond in emergency situations.
    The contract health is another area that we could 
definitely use support dollars in. We have a long history of 
being massively underfunded and our contract support to date 
only supplies the priority one, which are the emergency 
services, which affect only loss of life or limb. We have a 
very great need and we believe that a better service could be 
supplied if we were able to give the preventive care that is so 
badly needed on our reservation.
    Again, I thank you for this opportunity to testify and 
thank you for your support. And we would like to invite you to 
come and visit us.
    Mr. Nethercutt. I will be delighted to and I am real glad 
you came in to testify and you did just great. Don't tell Joe 
that you are better than he is. [Laughter.]
    But you did very, very well.
    Ms. Jerrod. Thank you.
    Mr. Nethercutt. Thanks for being here.
    [The statement of Ms. Jerrod follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                                          Thursday, April 15, 1999.

           BUREAU OF INDIAN AFFAIRS AND INDIAN HEALTH SERVICE


                                WITNESS

SPIKE BIGHORN, CHAIRMAN, THE ASSINIBOINE AND SIOUX TRIBES OF THE FORT 
    PECK INDIAN RESERVATION
    Mr. Nethercutt. Assiniboine and Sioux Tribes of the Fort 
Peck Reservations, Spike Bighorn, Chairman. Welcome, sir. I 
hope I didn't butcher your name, too.
    Mr. Bighorn. My name is pretty easy.
    Mr. Nethercutt. But in terms of your organization. Thanks 
for coming in. We do have your testimony and we will be 
delighted to have it in the record in its entirety and glad to 
have you summarize.
    Mr. Bighorn. Thank you, Mr. Chairman. I certainly will do 
that. You have heard throughout the day, I have been here for 
approximately 45 minutes and heard, many of the same problems 
that we have on our reservation. And what I will do today is 
summarize some of our comments and some of our concerns in the 
areas of education and law enforcement and tribal courts.
    The administration has requested an increase of $36.3 
million for programs under the Tribal Priority Allocation 
system. And we do support that increase, but, obviously, as you 
have heard today, those increases fall well short of what we 
need in Indian Country.
    I would like to start with education. The President's 
budget requests an additional $28.6 million for scholarships. 
That is $919,000 less than last year. Obviously, obtaining a 
degree in higher education is very important for those 
individuals on a reservation. Anyone who wishes to pursue 
higher education, we try to support them in any way possible. 
It takes a lot of courage and often considerable sacrifice from 
a person and also a family standpoint to pursue higher 
education. And we believe that it is our responsibility as 
tribes to support the efforts of those people who choose to 
attend college.
    Now the BIA itself reports that the level of unmet needs 
nationwide in Indian Country is $26.6 million for scholarships. 
In our reservation alone, we have approximately 200 students 
who are unable to access higher education services. And what 
that means, Mr. Chairman, is we have 200 college students we 
ask to meet the deadlines that we have set for our tribal 
higher education system. They meet those deadlines, they do 
everything we ask them to do, and then, at the end of the day, 
we say, I am sorry. We don't have enough money. Of course, you 
can understand how difficult that is, especially, I always use 
the example of the Pell Grant program. If they had firm 
deadline dates and everyone was asked to do what they were 
asked, if all the students did what they were asked to do and, 
at the end of the day, they were told, I am sorry; there is no 
money available, you would certainly understand the outcry if 
that were to happen to the students from the general 
population.
    This is, of course, a tragic circumstance in the tribal 
arena because we need these individuals to come back to the 
reservations to work with our youth and our elders and also 
they enhance the well-being of the tribes and, of course, 
everyone knows education is a key to moving people off of 
welfare and into the workforce, something that, of course, the 
government would like to see happen.
    Mr. Nethercutt. Do you have any incidence of young people 
leaving, getting their education, and coming back? What would 
be the percentage? Or do you know?
    Mr. Bighorn. I would say that, from my work in the 
education field that is increasing because we have a tribal 
college, a fully accredited tribal college on our reservation, 
a community college. So that has helped. A number of students 
are able to stay at home and we also give a tuition waiver for 
the first year to any Indian student who graduates from a 
school on the reservation. So I would say that is increasing. 
That is helping. But a lot of the people would like to go off-
reservation, but are unable to because of lack of funding.
    Another issue I would like to discuss briefly and summarize 
is tribal courts. The Fort Peck tribes support the BIA's 
request for approximately $11.4 million for tribal courts and 
the Department of Justice $5 million request for increases in 
the Indian Tribal Court program within DOJ. Now, historically, 
tribal courts have been underfunded and overworked. I think any 
tribal leader will tell you that. Despite the commitments of 
the BIA and the Department of Justice to fund tribal courts, 
these amounts only begin to address the historical deficiencies 
in funding for tribal courts.
    Critics of the tribal court system fail to understand that, 
without adequate funding, tribal courts cannot operate at their 
full potential. Fort Peck Tribes urge the committee to support 
even higher levels of funding for tribal courts to make up for 
the many years when the needs of these important tribal 
institutions were not met.
    I also would like to talk a few minutes about the budget 
request of $20 million the President has made for the second 
year of his Indian Country law enforcement initiative. That 
would also include $124 million for the Department of Justice's 
targeted law enforcement program. We strongly support the 
efforts by the President to enhance law enforcement in Indian 
Country.
    One of the areas that concerns us is last year 
approximately $20 million was appropriated to the Bureau of 
Indian Affairs. Our research shows that approximately 56 
percent of law enforcement programs in the country are run by 
either compacts or tribally-contracted programs. Yet, when the 
money came down, approximately 61 percent of the dollars went 
to BIA programs and only about 32 percent went to programs that 
are tribally contracted or tribally compacted. And we feel that 
was an inequity that we need to address and we urge the 
committee to direct the Bureau of Indian Affairs to provide an 
equitable distribution of monies because we understand that 
there will be some monies available in the next fiscal year and 
that is very important.
    In our situation, for an example, we have an estimated 
shortfall of about $1.4 million for the police department at 
Fort Peck reservation. We have got a pretty big reservation. We 
have got 6,000 square miles on our reservation. We have got 
approximately 13,000 individuals living on the reservation. Yet 
we have 15 police officers to cover this immense reservation.
    Mr. Nethercutt. Fifteen?
    Mr. Bighorn. Fifteen police officers, yes. Our staffing 
analysis shows that we would need about 44 officers to meet the 
President's goal of 2.9 officers per 1,000 persons, and that is 
to provide adequate coverage to each of our reservation 
districts.
    Our officers are well-trained and they are dedicated. They 
have gone to the police academy and, of course, with 15 
officers covering that type of land area, they have to be 
dedicated. But we just don't have enough money and simply it is 
not enough money to meet the day-to-day law enforcement needs 
of our reservation.
    In addition, we only have eight police cars, so what 
happens is a policeman will go off shift and you will have 
toturn over his car to the individual coming on shift. That individual 
goes home, of course. Police officers, like elected officials, are 
always on call. And so when a police officer goes home, he doesn't have 
a vehicle. And if there should be an emergency he needs to attend to in 
his particular town, he is without a vehicle and will have to go in a 
private vehicle. So, of course, that is just our example of some of the 
problems we have with the equipment.
    And, finally, I would like to end my testimony talking a 
little bit about Indian Health Service. The President's budget 
requests a total $2.8 million for overall IHS services and 
construction and this is a $170 million increase over the 
Fiscal Year 1999 level. We have heard today many of the 
indicators of health problems on reservations. We are no 
different. We have a high incidence of diabetes, alcoholism, 
heart disease among the people on our reservation. And money 
that we can direct to the health should be very useful to 
improve quality of life and health care and help avoid more 
expensive health care costs in the future.
    The increase in the President's budget is a modest step 
toward improving long-term health care in Indian Country, but 
falls far short of adequately addressing the substantial health 
needs of Indians and Indian reservations.
    Mr. Chairman, I thank you for this opportunity and I just 
wanted to hit some of the highlights of my testimony. You have 
my full statement there.
    Mr. Nethercutt. You did well and thanks so much for being 
here. And you are right about the preventive side of health 
care. On reservation or off, it is critical to make sure that 
people are prepared to not have the consequences of disease.
    Mr. Bighorn. Yes, I agree, Mr. Chairman. We have done some 
things on our reservation. We have weekly diabetic clinics and 
we also have some exercise and nutritional assistance that we 
provide weekly to the diabetics and it is just there are 
preventive things that we have to do to hopefully stop them 
from getting to that point.
    Mr. Nethercutt. Well, thanks very much for being here.
    Mr. Bighorn. Thank you.
    Mr. Nethercutt. I appreciate your testimony.
    [The statement of Mr. Bighorn follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                                          Thursday, April 15, 1999.

           BUREAU OF INDIAN AFFAIRS AND INDIAN HEALTH SERVICE


                                WITNESS

JACOB LONETREE, PRESIDENT, HO-CHUNK NATION
    Mr. Nethercutt. Ho-Chunk Nation, Jacob Lonetree, president. 
Welcome to you both. Thank you for being here.
    Mr. Lonetree. Good afternoon, Mr. Chairman.
    Mr. Nethercutt. Good afternoon.
    Mr. Lonetree. In listening to the testimony that has been 
provided prior to our appointed time, many positions have been 
articulated very well by the various tribal leaders and also I 
see that many other tribal leaders are waiting to provide that 
testimony and so, based on that, I will ask my legislature to 
introduce herself and then I will read my testimony verbatim.
    Ms. Martin. Good afternoon. I am Karen Martin, a legislator 
with Ho-Chunk Nation.
    Mr. Nethercutt. Good afternoon, Karen.
    Mr. Lonetree. Good afternoon, Mr. Chairman and members of 
the committee. My name is Jacob Lonetree, president of the Ho-
Chunk Nation in Wisconsin. The Ho-Chunk Nation, with 5,956 
members has a very limited trust land base spread through 17 
counties in the State of Wisconsin. Although the Nation has 
provided increased economic opportunities for its members of 
recent years, we still have a long way to go in this regard. 
Moreover, the long-term effects of generations of poverty among 
our people are still very much with us today.
    This is particularly so with respect to health care. Our 
people suffer from alarming rates of diabetes, heart disease, 
alcoholism, and cancer. Perhaps the most devastating is 
diabetes. Currently, 29.1 percent of Ho-Chunk tribal members 
have been diagnosed with diabetes. This statistic is even 
higher for members over 40. In this specific age group, 39 
percent of our members are diabetic.
    Even more alarming, we recently learned that 40 percent of 
our 2- to 4-year-olds are classified as obese. Obesity is, of 
course, the leading risk factor in diabetes. Improving the 
health status of our members is top priority for the Ho-Chunk 
Nation. In support of that goal, I have issued a presidential 
proclamation designating 1999 to be the Ho-Chunk Nation year of 
fitness.
    The Nation is a member of the Tribal Nations Joint-Venture 
Coalition for Health Facilities. The coalition is urging 
Congress to appropriate $15 million in funding for the Tribal-
IHS Joint Venture program authorized under section 818 of the 
Indian Health Care Improvement Act.
    Mr. Nethercutt. Sir, let me just interrupt you. We do have 
a vote. Your testimony will be printed in the record. We will 
read every word of it. It is not necessary that you read every 
word of it here today. Maybe if you just want to summarize, 
because I will have to shoot out of here and go vote and then I 
won't infringe upon your time and other's time. Maybe you just 
want to summarize, if you don't mind, that would be great. Just 
tell me what is important to you.Because what you are reading 
and what you have put in your statement will be in the record no matter 
what.
    Mr. Lonetree. Thank you very much, Mr. Chairman.
    Mr. Nethercutt. Certainly, sir.
    Mr. Lonetree. I think it is very important that based on 
many of the different testimony that was given by the various 
ones, that, obviously, the Indian Nations across the land are 
very concerned with their health care issues and we would just 
like Congress to, especially the House Appropriations 
Subcommittee, to take that into consideration today.
    Mr. Nethercutt. Well, we certainly will. And if you have 
gathered anything from my conduct of this round of testimony, 
it is certainly a priority of mine and I can speak for a lot of 
members, Democrats and Republicans, it is a priority of theirs, 
too, to try to figure out how we can help and improve these 
statistics. They are frightening statistics. I have seen them 
all over the country, relative to Indian tribes and Indian 
peoples. It is a disgrace and we have to figure out a way to 
stop this diabetes and the consequences of diabetes.
    That has been a priority of mine and others in the Congress 
over the last few years. In that Balanced Budget Act, we had 
$30 million a year for 5 years dedicated just to diabetes, so 
it is certainly a high priority with us and we are going to do 
our best to try to help you and keep your people alive, long-
term in the various Indian tribes. So thanks for being here and 
I am delighted to have your testimony.
    Mr. Lonetree. Well, thank you, Mr. Chairman. And thank you 
for providing us the opportunity to testify.
    Mr. Nethercutt. You are welcome. Thanks to you both.
    [The statement of Mr. Lonetree follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                                          Thursday, April 15, 1999.

                        BUREAU OF INDIAN AFFAIRS


                         NATIONAL PARK SERVICE


                             FOREST SERVICE


                               WITNESSES

BILLY FRANK, JR., CHAIRMAN, NORTHWEST INDIAN FISHERIES COMMISSION
JIM ANDERSON, DIRECTOR, NORTHWEST INDIAN FISHERIES COMMISSION
TERRY WILLIAMS, COMMISSIONER, NORTHWEST INDIAN FISHERIES COMMISSION
    Mr. Nethercutt. Northwest Indian Fisheries Commission, 
Billy Frank, Jr., chairman. Welcome, sir. If you don't mind, 
given the bell system that we have here and we are going to get 
buzzed again for me to go vote, if we can just have you 
summarize.
    Mr. Frank. We will do that. Thank you, Mr. Chairman. I am 
Billy Frank, chairman, Northwest Indian Fisheries Commission. 
And we have some very important issues here that we want to 
just take a minute to discuss. On my left is our director, Jim 
Anderson, and on my right here is the commissioner, Terry 
Williams. And so, Jim, why don't you volunteer.
    Mr. Anderson. Very briefly here, we have our testimony and 
it is submitted for the record. We want to thank the committee 
for this opportunity. In general, the Commission supports the 
administration's appropriation request for Fiscal Year 2000. We 
would like to emphasize several points real briefly. One, we 
support the $3 million in the Bureau of Indian Affairs for the 
jobs in the woods initiative which also includes a program, 
Wild Stock Restoration Initiative which is funded, has been 
provided to the Northwest Indian Fisheries Commission for a 
couple of years for some necessary fishery management planning 
activities.
    Along with that line, we support the further development of 
some form of displaced fishers program, similar to the jobs in 
the woods effort as a result of unemployed fishers due to the 
recent Endangered Species Act concerns, concerns that are not 
just going to be short-term, but very much long-term. If there 
is a theme that prevails within Indian Country in western 
Washington this year in natural resources, it is that ESA hits 
western Washington and that is going to drive much of our 
activity over the next decade.
    Secondly, we support additional funding for implementation 
of the timber, fish, wildlife agreement. That agreement was 
initially developed in 1986. It has gone through another round 
of negotiations over this past year and a half, resulting in 
some modifications to the Forest Practices Act of the State. 
The tribes are integrally involved in that effort and have 
comanagement responsibilities. These resources are necessary to 
allow us to play through with that necessary activity.
    And, finally, we support $1.95 million for shellfish 
management enhancement and enforcement through the tribes. This 
is a coordinated request. Probably the second theme that 
prevails is the Supreme Court affirms treaty rights when they 
denied cert on the Ninth Circuit case of shellfish. So we are 
now with some clarity with regard to that shellfish right and 
we are looking for management monies, as we have in the past, 
but we hope that now that the Court has answered the question, 
we can get on with receiving some additional monies.
    Mr. Frank. Mr. Chairman, we have a lot of work on both 
sides of the mountain. On your side. [Laughter.]
    Mr. Nethercutt. I know it. I am with you. And you all are 
feeling a little on the West what we on the East felt relative 
to listings and it is a big problem.
    Mr. Frank. Right.
    Mr. Nethercutt. I am trying to think about that, think 
through the issue. I would like to sit with you sometime and 
talk this over.
    Mr. Frank. Yes. Right.
    Mr. Nethercutt. Because I want to think through whether 
there is something we might be able to do relative to ocean 
fishing that might be able to gain some concessions that would 
then, perhaps, prove fruitful in the recovery on the river 
systems of different species, with the understanding that, 
perhaps some sacrifice short-term will bring some benefits 
long-term, not only to non-Indian fisheries, but to Indian 
fisheries. So I would like to have you all think that through 
with us.
    Mr. Frank. Okay.
    Mr. Nethercutt. If we can show that there are some benefits 
to some short-term sacrifice, I think it is to everybody's 
long-term benefit, especially relative to the rights that you 
have on your treaties.
    Mr. Frank. I want to thank you for saying that, Mr. 
Chairman. As you are aware, the Pacific Salmon Treaty 
Negotiations are ongoing right now and are very difficult and 
it is what you are talking about.
    Mr. Nethercutt. This might be the time.
    Mr. Frank. And we would be glad to keep discussing that 
with you.
    Mr. Nethercutt. Good.
    Mr. Frank. So we recognize that all of our economies are 
depressed because of these actions of the ESA.
    Mr. Nethercutt. And it is not a simple solution, either. It 
is multifaceted, as I look at.
    Mr. Frank. Right. Rivers, whether it is Indian take or 
whether it is the Caspian terns or whether it is the 
temperatures of the oceans and, you know, recovery efforts 
upstream being enhanced in a hatchery issues and habitat 
issues. So we have got to work it through together, it seems to 
me.
    Mr. Chairman, we appreciate Senator Gorton and Congressman 
Norm Dicks. We had a big hearing out in the Northwest. Senator 
Stevens was there.
    Mr. Nethercutt. Right. I heard about it.
    Mr. Frank. It was very good. It was both sides of the 
mountain. We talked a lot about what we are talking about 
today.
    Mr. Nethercutt. Sure.
    Mr. Frank. And we appreciate that. We appreciate all of the 
support we have had. I see the chairman right here.
    Mr. Nethercutt. The chairman.
    Mr. Regula [presiding]. The real chairman.
    Mr. Frank. And we want to thank the committee for and we 
support all of our sisters and brother tribes back here and 
thank you.
    Mr. Nethercutt. Well, we are glad to have you here. Have 
you voted, sir?
    Mr. Regula. Yes, I have.
    Mr. Nethercutt. I will go do that. Thank you.
    [The statement of Mr. Frank follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                                          Thursday, April 15, 1999.

                         INDIAN HEALTH SERVICE


                                WITNESS

SANDY NINHAM, COUNCILWOMAN, ONEIDA NATION, WISCONSIN
    Mr. Regula. Okay. Oneida Tribe of Indians, I guess is the 
next witness. Welcome.
    Ms. Ninham. Thank you. Good afternoon, Chairman Regula. My 
name is Sandy Ninham and I am a councilwoman from the Oneida 
Nation of Wisconsin. We are located about 15 miles southwest of 
Green Bay and we have a membership about 13,000 members. And I 
want to thank you for the opportunity to be able to appear 
before you today.
    I would like to respectfully ask that this subcommittee 
appropriate $15 million to the Joint Venture Demonstration 
Program, a program that was last funded in Fiscal Year 1993. As 
authorized under section 818 of the Indian Health Care 
Improvement Act, Public Law 94-437, Indian tribes would pay 100 
percent of the cost of building new health centers and the 
Indian Health Service would provide funding for staff and 
equipment. This would be really a true joint venture project.
    The bottom line is that this program achieves the following 
goals. Tribes would pay the 100 percent of the cost of 
constructing the new health facilities. The new facilities are 
going to be built faster and cheaper and begin to serve the 
Third World health needs. We step to the plate in addressing 
the 35-year backlog in needed facilities and the Federal 
Government honors its sole responsibility for Indian health 
care systems.
    The Oneida Nation will also encourage each member of 
theAppropriations Committee to support efforts being made to elevate 
the position of Director of the Indian Health Service within the 
Department of Health and Human Services to assistant secretary for 
Indian Health. We feel it is our strong belief that such a move will 
give greater weight to those matters facing Indian Country. We are 
particularly hopeful that a bill such as the one introduced by Senator 
John McCain, S. 299, be enacted into law during the 106th Congress. And 
we urge the Appropriations Committee to stop the erosion in funding for 
the Indian health care system.
    Specifically we are asking for the restoration of $4.9 
million in the Indian Health Service Compensation Budget, which 
would help us in Oneida to hire and to retain doctors who can 
adequately treat the needs of our population. We ask for the 
restoration of $5 million for the Community Health 
Representative program otherwise, we call it the CHR program 
which is almost 100 percent tribally run and it enables us to 
do preventive health case management screening, to work with 
new mothers and newborns, and to serve as patient liaisons for 
health and for social services.
    Mr. Chairman, as you well know and have heard from other 
witnesses today, there exists a tremendous shortfall in 
resources for Native American health care. And I would like to 
take this time, then, to tell you what this all means to us in 
Oneida.
    Mr. Regula. Well, we have about a minute left, so try to 
condense it.
    Ms. Ninham. Okay. We are trying to build a health center 
right now. Our health center is about 20 years old and right 
now we have 3 trailer houses on the outside and we have plans 
to put another one there. We do have plans to build a new 
health center and hope it will break ground in October. We hope 
to do that.
    Mr. Regula. You would contemplate that you build it and 
then the Indian Health Service would staff it or pay for the 
staffing?
    Ms. Ninham. Yes. If the Tribal Joint-Venture Demonstration 
Program. And if you put that $50 million in there, it certainly 
would help us in Oneida.
    Mr. Regula. This is on Indian Health you are talking about?
    Ms. Ninham. Yes.
    Mr. Regula. Additional funding?
    Ms. Ninham. Additional funding, yes.
    Patients right now have to wait for months to get medical, 
dental care, optical care, also emotional and counseling 
services. And adults and children have to wait up to four 
months, sometimes five months I know that personally to receive 
dental care. There is a four-month waiting list for optical 
appointments.
    And then we have a hard time keeping doctors and medical 
staff because it is overcrowded and a doctor doesn't have the 
room and they can't keep on top of their records for their 
patients. They can't develop that community with their patients 
because it is overstaffed, they are working under stress all 
the time. So we have had in the past year 10 staff members have 
turned in their resignations because they are short-staffed 
with a high patient demand. Right now Oneida has a patient list 
of about 16,000 members on patient files and last year we 
served about just under 7,000 patients through our health 
facilities. We have a 22,000 square foot facility right now and 
we propose to build a 67,000 square foot facility.
    Mr. Regula. Okay. Do you have a reservation? Do most of 
your people work on the reservation or do they work outside?
    Ms. Ninham. No, we have about, let us see, it is about 62, 
69 percent Oneidas that work for us or other tribal members and 
then non-tribal members. We have a workforce of about 3,500 
people right now within our two counties where our tribe is 
located, we have about 4,500 members that live in the round. 
But then we have members scattered through Wisconsin and other 
States as far as Florida and California and all over.
    Mr. Regula. Do you have a casino?
    Ms. Ninham. Yes, we do. And a hotel.
    Mr. Regula. And a motel.
    Ms. Ninham. A hotel.
    Mr. Regula. Do you operate that yourself or do you contract 
it out?
    Ms. Ninham. Yes, we do. We operate it ourselves. Same with 
the hotel. It is a Radison Inn and we took it over about two 
years ago.
    Mr. Regula. Okay. Well that helps to supplement the tribal 
budget.
    Ms. Ninham. It certainly does.
    Mr. Regula. Okay. Thank you.
    Ms. Ninham. Thank you.
    [The statement of Ms. Ninham follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                                          Thursday, April 15, 1999.

           BUREAU OF INDIAN AFFAIRS AND INDIAN HEALTH SERVICE


                                WITNESS

MERLE BOYD, SECOND CHIEF, THE SAC AND FOX NATION OF OKLAHOMA
    Mr. Regula. Sac and Fox Nation.
    Mr. Boyd. Good afternoon, Mr. Chairman. My name is Merle 
Boyd. I am the second chief of the Sac and Fox Nation. Our 
chairman was scheduled to be here, but a tribal ceremony kept 
him at home, so I am representing the chief here today. You do 
have my testimony in writing and I am not going to read a lot 
of it.
    Mr. Regula. Right. It will be a part of the record so just 
summarize, if you will.
    Mr. Boyd. I sure will. And I will kind of flip flop around. 
The summary of national issues that are listed on my testimony 
are 16 that are supported by the NCSI and the membership tribes 
that are in the NCS. So I won't cover those, but they do have a 
definite impact on every tribe, including our tribe. We are a 
self-governance tribe and we do a lot of things that are 
created because of the initiatives in our national issues.
    I do want to summarize some tribal issues and actual area 
issues and tribal issues. One of the area issues is in the TPA 
priority allocation as distributed, there has been a great 
disparity in that for the last 15, 20 years and we understand 
that there is an effort to try and balance that out. We do 
encourage that that does happen, that there is some review of 
how the TPA is funded. We are not proponents of trying to take 
money away from tribes that already have it, but any new money 
that comes available or any additional appropriations, that 
those be funded in a newer, equitable manner.
    The other thing is the shortfall that tribes have met in 
the last four or five years in that Health and Bureau of Indian 
Affairs, the $700,000 that has been asked for nationwide. We 
also support that.
    But one of the main reasons I wanted to appear before the 
committee today was because of a juvenile detention center that 
we have in Oklahoma on our tribal reservation. It is a juvenile 
detention center that was built specifically with Indian 
children in mind. We, because of funding with the tribes and 
through the court system, tribal courts and BIA-CFR courts, 
they have the funds to prosecute these children, but they have 
no funds to incarcerate them. So, subsequently, they have gone 
through court and then they are put on probation because they 
can't afford to put them in a juvenile setting.
    What we are asking for is that money be made available to 
put those children in a juvenile setting, mainly because in 
that juvenile setting we try and correct the problem that the 
children have. Plus we also try and give them better moral 
standards, a better way of life, and try and teach them to be 
responsible citizens and when they leave that, that they would 
be able to sustain themselves without these substances.
    And our juvenile detention center is geared toward Indian 
children. We not only have the regular things that they have in 
juvenile center, but we have the traditional. We have five or 
six different types of traditional settings for the 36 tribes 
here in Oklahoma and the surrounding States. Right now we 
service 39 tribes. But we are lucky to get one or two children 
at a time from these tribes because they can't afford to send 
their juveniles to us.
    And that funding needs to come to either the tribes or to 
our center. If it is sent to our center, of course, then we 
would manage it, report it, like we do anything else that is 
specially earmarked. But I am asking for an earmark of $1.9 
million for that purpose and that purpose only until we can 
figure out a better way to support the juvenile system in 
Indian Country.
    Mr. Regula. Okay. Well, thank you for coming. We will take 
a good look at it. Probably next time you will be first chief.
    Mr. Boyd. No, I am happy where I am at.
    Mr. Regula. What is second chief? Like the vice president?
    Mr. Boyd. Well, a little bit more. I get to travel a lot. I 
get to appear a lot. I serve on a lot of national committees. I 
do historic research. Just a lot of things. I always like to 
tell the story. The first one, people asked what tribe I am. I 
say I'm Sac and Fox. Most people say they have never heard of 
it. And the Sac and Fox are famous throughout history, but one 
of our more famous chiefs was Black Hawk. Everybody has heard 
of Black Hawk but they have never heard of Sac and Fox. The 
greatest athlete of all time in modern history, Jim Thorpe, was 
a Sac and Fox.
    Mr. Regula. He came from my area. I mean, he played in 
Canton, Ohio. That is why the Football Hall of Fame is there.
    Mr. Boyd. Yes. Well, he is a tribal member. In fact, our 
office is about 300 yards from the school he ran away from in 
the movie. [Laughter.]
    Mr. Regula. Okay, well thank you very much.
    [The statement of Mr. Boyd follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                                          Thursday, April 15, 1999.

           BUREAU OF INDIAN AFFAIRS AND INDIAN HEALTH SERVICE


                                WITNESS

LAWRENCE W. LaPOINTE, TRIBAL CHAIRMAN, PUYALLUP TRIBE OF INDIANS
    Mr. Regula. Puyallup. Somebody is correcting me. Puyallup, 
is that it?
    Mr. LaPointe. Yes, it is.
    Mr. Regula. Okay. Puyallup Tribe of Indians.
    Mr. LaPointe. Good afternoon, Mr. Chairman. We have five 
issues that we would like to bring before you.
    Mr. Regula. Okay.
    Mr. LaPointe. Our health executor is Executive Director 
Rodney Smith and over theres our intergovernmental affairs is 
Michael Bowchaps.
    Mr. Regula. Okay.
    Mr. LaPointe. We have I don't know if you are familiar with 
the Cushman Indian Hospital in Tacoma, Washington? It is on the 
Puyallup reservation. It was created in 1935 and finished in 
1941, but it is so loaded with asbestos and lead in the piping 
that the Bureau of Indian Affairs had consultants come in, do a 
study on the building, condemn the building we created, the 
high school, middle school. Now this is separate. And what we 
are requesting now, because we have 227 staff in that, but we 
would like to remove the building. The tribe has committed an 
initial $50,000 to do the study after $49,250.
    And I request those special appropriations to assist the 
tribe in either removing the asbestos and the lead or removing 
the whole building completely. I understand it would cost 
nearly $47 million to rehabilitate the whole building.
    Mr. Regula. Okay. You have a lot of different things here 
in your request.
    Mr. LaPointe. Right. We are going to as fast
    Mr. Regula. You don't have time to hit them all. We will 
take a good look at them. Do you want to highlight a couple?
    Mr. LaPointe. Okay. Community health. The tribe supports 
but believes the President's budget could be a little bit more 
than what it is, 7.59 percent or 7.6 percent. There have been 
no add-ons for growth such as in Medicaid and Medicare, as far 
as Indian Health Concern. Our contract care hasn't increased. 
And in the last few years, seven years, as a matter of fact, 
contract catastrophic health care, we have a limit of $19,000 
and that is usually gone by the end of May. So we are close to 
that. And then you have heard everybody on contract support.
    Law enforcement. We support the President's initiative in 
regards to law enforcement on reservations. But we are 
requesting that a $200,000 add-on for the P.L. 638 budget as 
well as the Department of Justice. We support what Billy Frank 
said. You were sitting there. The Northwest Indian Fisheries 
Commission, they are in courts on the funded mandate
    Mr. Regula. Mr. LaPointe, are you in the Northwest?
    Mr. LaPointe. Yes, I am.
    Mr. Regula. Whereabouts?
    Mr. LaPointe. Near Tacoma.
    Mr. Regula. Near Tacoma, all right. How many members do you 
have in your tribe?
    Mr. LaPointe. 2,400 members.
    Mr. Regula. And you have a reservation?
    Mr. LaPointe. We have a reservation. We have 18,000 square 
acres, but it is not all trust property. It is not all 
reservation.
    Mr. Regula. Okay, thank you very much.
    Mr. LaPointe. Thank you.
    [The statement of Mr. LaPointe follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                                          Thursday, April 15, 1999.

                          TRUST RESPONSIBILITY


                                WITNESS

BOBBY WHITEFEATHER, CHAIRMAN, RED LAKE BAND OF CHIPPEWA INDIANS TRIBAL 
    COUNCIL
    Mr. Regula. Red Lake Nation.
    Mr. Whitefeather. Mr. Chairman, my name is Bobby 
Whitefeather and I am the tribal chairman of the Red Lake 
Nation and I want to express my appreciation to you for 
allowing us to present some testimony. I would like to 
introduce Holly Cook who is our special assistant on 
legislative affairs in Washington.
    And just, again, to talk a little bit about the history of 
the Red Lake Reservation since the treaty of 1889, our land has 
been held in common by all the members of the Red Lake Band of 
Chippewa Indians.
    Mr. Regula. Where are you located?
    Mr. Whitefeather. Northern Minnesota, sir. And since we 
have never been allotted, we are not subject to public R-2A's. 
The situation is that we have sole jurisdiction with the law 
enforcement, tribal courts, social services, and all the 
necessary governmental functions that any government 
undertakes. However, given our situation and our remoteness, we 
have a high rate of unemployment and practically no opportunity 
for creation of jobs, other than work we attempt to do on our 
own.
    I have heard persons and tribal leaders testifying before 
you this afternoon and I need not further expound on the 
inadequate funding for Tribal Priority Allocations, the health 
care issue. We certainlyhave a diabetes problem as well. And it 
is disappointing to us that there is a proposed $500 million dollar cut 
in the CHR program. Also that has been very beneficial to us because 
over the last two years, we have had a diabetes coordinator that has 
reduced amputations by 60 percent by just that activity.
    Our major concern on the Red Lake Reservation at this point 
is our law enforcement and courts complex which is inadequate 
for space. It is unsafe. And one of the reasons is in 1997, a 
tribe went under self-governance and what resulted from that is 
increased enforcement on or prohibition on alcohol ordinance. 
Also enforcement against their crime and violence that has 
resulted in increased caseloads for the courts from 3,000 in 
1997 to this past year is over 5,000 cases. And our jail is 
currently housed in the modified forestry garage. And it has 
been unsafe. We have had two suicides within the last three 
years in the facility.
    We have begun some planning and we have brought a master 
plan that we put together, however we need to go into the next 
step of the design and architecture work that needs to be done. 
And that is going to have a projected cost of $500,000. Once we 
get beyond that stage, we need to build a facility and it is 
going to probably take around $4 million.
    Mr. Regula. Do you have all this in your testimony?
    Mr. Whitefeather. Yes, sir, I do. The other critical area 
that I would like to address, Mr. Chairman, is economic 
development and welfare reform. Like I stated, factors that 
influence us, our challenges, are isolation, no jobs, lack of 
economy. AFDC caseloads have increase from 500 2 years ago to 
700 this year. And it indicates that there is a possible 
migration of our members back home from other areas. And we 
certainly do ask the committee to increase funding for welfare 
assistance. Also assistance for family and children and the 
elders.
    Mr. Chairman, in conclusion, we also face some issues with 
respect to housing under the HIP program. And, although the 
housing has been a very promising initiative, it is still not 
enough. And I guess, finally, the Welfare Reform is what 
troubled us most because we do not have the ability to assume 
the kind of program under our tribe because of no jobs. So I 
would like to take this time to, Mr. Chairman, invite you and 
the committee to come to the homeland of the Red Lake Band of 
the Chippewa Indians and, again, thank you for allowing me the 
opportunity to testify.
    Mr. Regula. The Red Lake is where?
    Mr. Whitefeather. Northern Minnesota. North central 
Minnesota.
    Mr. Regula. Are you near the Voyagers National Park?
    Mr. Whitefeather. Voyagers National Park is probably about 
90 miles east of where we are.
    Mr. Regula. So you are on the west side of the peninsula.
    Mr. Whitefeather. Well, we are north central Minnesota.
    Mr. Regula. Okay. Do you have a reservation?
    Mr. Whitefeather. Yes, sir.
    Mr. Regula. Tribal members work on the reservation.
    Mr. Whitefeather. Yes, sir.
    Mr. Regula. Do you have an agricultural economy?
    Mr. Whitefeather. We don't have an agricultural economy as 
such because the land that we have is largely wetlands. And we 
do have a large lake that we reside by that was used for 
commercial fish up until two years ago and the tribe issued a 
moratorium that that no longer be done until there is some 
recovery to the lake.
    Mr. Regula. Yes. Okay. Thank you. We will take a good look 
at your testimony.
    Mr. Whitefeather. Okay, thank you.
    [The statement of Mr. Whitefeather follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                                          Thursday, April 15, 1999.

                         INDIAN HEALTH SERVICE


                                WITNESS

JOSEPH C. SAULQUE, CHAIRMAN, CALIFORNIA RURAL INDIAN HEALTH BOARD, INC.
    Mr. Regula. California Rural Indian Health.
    Mr. Saulque. Mr. Chairman. My name is Joseph Saulque. I am 
with the Benton Paiute Reservation; chairman of Toiyabe Indian 
Health Project, which is in Bishop, California. To my right is 
Mervin Hess who is the vice chair of the same board of 
directors as Toiyabe as well as chairman of the Bishop Paiute 
Reservation. We currently serve 5 federally recognized tribes 
and 2 non-federally recognized tribes in Mono and Inyo 
counties, which gives an Indian population up to 4,000, as well 
as serving approximately 1,500 non-Indians in our facilities.
    I am also here as the chairman of the California Rural 
Indian Health Board. Mr. Hendrix to my left is the vice chair 
of CRIHB. As you are probably aware, CRIHB was started in about 
1968 and we got a line-item budget from this committee of about 
$173,000 to start 9 clinics. Today we have 30 clinics in 
California in the rural part of Indian Country with a budget 
for Indian health service of about $90 million. We only serve 
however, 63,000 Indians in the State of California, which 
represents about 51 percent of the total Indian population and 
what we refer to as Indian Country.
    Today we would like to basically support the President's 
budget with the increase of $170 million and we would like to 
also discuss and let, you know, you will eventually receive the 
report from the Level of Need Funded Taskforce that 
wasrequested to be developed by this committee in Fiscal Year 1998 
appropriation to look at a way of better distributing funds based on 
need. That taskforce is currently in the process of coming up with a 
report for your committee. Mr. Crouch, who is the executive director of 
CRIHB is a co-chair of that taskforce. And, hopefully, we can look at 
distributing money based on actuarial----
    Mr. Regula. Does this board serve more than one tribe?
    Mr. Saulque. The board this one? Yes.
    Mr. Hendrix. 33 tribes.
    Mr. Regula. How many?
    Mr. Hendrix. 33.
    Mr. Regula. So you provide an umbrella on health care to 
the 33 tribes?
    Mr. Saulque. Right. With about 12 health projects.
    Mr. Regula. Do you do projects as a board or do you just 
work with the tribes on their projects?
    Mr. Saulque. There are two ways. One way we do it is we 
subcontract monies through us to projects who run their own 
projects and we handle the money part of it to them. Other 
projects that are members contract independently with the 
Indian Health Service directly through 638. All of us are 638 
projects in California.
    Mr. Regula. Does the California board get money directly 
from the Indian Health Service?
    Mr. Saulque. Yes, from the Indian Health Service.
    Mr. Regula. And you distribute it to the projects.
    Mr. Saulque. We recontract it to some projects. Other 
projects get their's directly from the Indian Health Service.
    Mr. Regula. CRIHB really is getting a greater allocation of 
the Indian Health Program.
    Mr. Saulque. We only represent about 30 percent of the 
health projects of the Indian people in California, so I would 
assume that we get about one-third of the Indian Health Service 
Budget in California.
    The three issues that we are really looking at in the 
President's budget that we think we need some interest in is 
the equity fund, which was the Indian Health Care Improvement 
Act and we are looking at that being funded nationwide for $11 
million. The other one that is or great interest to us in 
California is the contract health care services. We don't have 
any of the health service facilities or hospitals, so this 
money is the one that pays for all the outside referrals and 
the specialty care that is needed for Indian people. We would 
like to see this increased by $24 million across the nation for 
everybody. Of which, we would certainly get, hopefully, our 
share based on the LNF work group.
    Thirdly, is a small ambulatory facility grant fund that has 
been authorized since 1988, I believe and has never had any 
money put into it. We in California and other small tribes do 
not reach the threshold for obtaining construction funds from 
Indian Health Service to construct or renovate our facilities. 
So, therefore, we would like to see this one funded by this 
committee rather than waiting for Indian Health Service to put 
money in it because they never. And we would like to see it at 
least start with $3 million because it takes more, it takes $3 
million sometimes to build one new clinic. But if we can get a 
start on it, we could probably get some increases to help 
people do that.
    One of the facilities that we were able to do at Toiyabe 
Indian Health Project through the California Endowment 
Foundation was to actually construct a dialysis center where we 
have currently 13 patients in that center with 6 units running 
3 shifts. On our reservation, we are the only ones in the State 
of California that has developed and is now operating a 
dialysis center.
    We would also oppose a decrease in the CHR dollars of $5 
million. We would prefer to see that funded fully for the CHRs 
to do their job in their community.
    The other issue, I guess, is how long does the record 
remain open past this date?
    Mr. Regula. About a week.
    Mr. Saulque. About a week. It used to go up to 30 days. I 
guess you shortened it. That is about what we have to say 
unless the two gentlemen have anything else to finish out our 
time.
    Mr. Hess. Yes, I would just like to say on the Bishop 
Reservation where the dialysis center is located, it has helped 
a great deal with the elderly on the reservation and throughout 
the Olms Gulley there is, like Joe had mentioned, at least 
seven tribes in Olms Gulley. And in the past, previous years, 
the dialysis patients had trouble from one to three hours.
    Mr. Regula. How many units do they have?
    Mr. Hess. How many units? Right now there are 6 units, but 
we are actually considering expanding that to 12. At this 
point, we have only been open for the past year at the dialysis 
center but, because of the caseload, there are non-Indians and 
Indian people waiting to be treated because the only closest 
facility is, like I say, an hour or two hours away.
    Mr. Saulque. Two hours away.
    Mr. Hess. Our clinic right now. But since we have put in 
the dialysis center, there is a great need for the non-Indian 
and Indian community in the area that want to access this.
    Mr. Regula. Do you have non-Indians using it too?
    Mr. Saulque. Yes, we serve both.
    Mr. Regula. Okay.
    Mr. Hendrix. Just one more thing. In regards to the Youth 
Regional Treatment Center, we would like to ask for a $1.2 
million increase in that. There is a definite need in 
California for those type of services.
    Mr. Saulque. And it has been over 10 years and it is barely 
getting them off the ground and they are on a limited basis 
because there is no funding.
    Mr. Regula. Okay.
    Mr. Saulque. Thank you very much, Mr. Chairman.
    Mr. Hess. Thank you.
    [The statement of Mr. Saulque follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                                          Thursday, April 15, 1999.

                        BUREAU OF INDIAN AFFAIRS


                                WITNESS

OLNEY PATT, JR., CHAIRMAN, TRIBAL COUNCIL OF THE CONFEDERATED TRIBES OF 
    THE WARM SPRINGS OF OREGON
    Mr. Regula. Gougach Regional Research Society. They are not 
here. The Confederated Tribes of the Warm Springs Reservation 
of Oregon. Okay, go ahead.
    Mr. Patt. Good afternoon, Mr. Chairman. I am Olney Patt, 
Jr., chairman of the Tribal Council of the Confederated Tribes 
of the Warm Springs Reservation of Oregon. My testimony, which 
I submit today for the subcommittee's hearing record, addresses 
the proposed Fiscal Year 2000 budgets for the Bureau of Indian 
Affairs, the Indian Health Service, and the National Park 
Service with the following requests and comments.
    We request that the $20 million increase for BIA law 
enforcement be doubled, that those funds be available for 
tribally operated law enforcement programs, and that $500,000 
be specifically designated for law enforcement services at Warm 
Springs. We request the designation of $3.5 million BIA 
construction as a Federal match in building a new elementary 
education facility at Warm Springs. We support the $250,000 
request for Columbia River fishing access site management and 
ask that those funds be contractible for law enforcement.
    We request that an overall TPA inflation increase of 3 
percent distributed proportionally to all existing TPA bases, 
plus increasing contract support funding by $10 million. We 
support the BIA's other targeted TPA program increases.
    With regard to the Indian Health Service Budget, we request 
that IHS Special Pay be fully funded and be dedicated to 
providing full mandatory pay adjustments to Federal employees 
and installations; $5 million be restored to the Community 
Health Representatives program; Contract Health Services 
funding be increased beyond the requested 3.5 percent; $13 
million be added to the requested amount for the Catastrophic 
Health Emergency Fund; and the overall IHS budget be increased 
to reflect population growth and medical inflation increases.
    Finally, we support the $200 million National Park Service 
request for the Land Legacy Initiative.
    Mr. Regula. Is your reservation near a park?
    Mr. Patt. Yes.
    Mr. Regula. Which park are you near?
    Mr. Patt. We are around a number of them, but this mainly 
deals with securing open land for conservation purposes.
    Mr. Regula. Okay. Thank you very much.
    [The statement of Mr. Patt follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                                          Thursday, April 15, 1999.

                        BUREAU OF INDIAN AFFAIRS


                                WITNESS

KATHRYN HARRISON, CHAIRPERSON, THE CONFEDERATED TRIBES OF THE GRAND 
    RONDE COMMUNITY OF OREGON
    Mr. Regula. The Confederated Tribes of the Grand Ronde 
Community of Oregon.
    Ms. Harrison. That is me. Good afternoon. My name is 
Kathryn Harrison. I am the chairperson of The Confederated 
Tribes of the Grand Ronde Community of Oregon. And I want to 
thank you for spending this long day and hearing all the 
requests that we have. And so, if you have mine in writing, I 
just want to urge you to be sure and read them all and----
    [Laughter.]
    Mr. Regula. You heard that, Loretta. [Laughter.]
    Loretta reads them all and tells me.
    Ms. Harrison. Good. But we spent a lot of time and put a 
lot energy in looking up our needs and we just want to request 
that. But, for the Confederated Tribes of Grand Ronde, we are 
rebuilding. We have been a recognized tribe for 16 years.
    Mr. Regula. How many members do you have?
    Ms. Harrison. A little over 4,000.
    Mr. Regula. And where are you located?
    Ms. Harrison. 23 miles inland from Lincoln City in Oregon.
    Mr. Regula. Okay.
    Ms. Harrison. 32 miles west.
    Mr. Regula. Do you have a fairly large reservation?
    Ms. Harrison. We have 9,811 acres of all timber that we 
can't live on because it is up in the hillside, mountain. So we 
bought land down in the valley.
    Mr. Regula. Do your members work off the reservation?
    Ms. Harrison. Well, since we were terminated 29 years, our 
people are scattered all around the world.
    Mr. Regula. Oh, I see.
    Ms. Harrison. So I would say about 300----
    Mr. Regula. So you have 4,000 tribal members, but only 
300----
    Ms. Harrison. That live right there in the----
    Mr. Regula. I see. Okay. Thank you very much.
    Ms. Harrison. Thank you for holding your hearing today.
    [The statement of Ms. Harrison follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                                          Thursday, April 15, 1999.

                        BUREAU OF INDIAN AFFAIRS


                                WITNESS

ANTONE MINTHORN, CHAIRMAN, THE CONFEDERATED TRIBES OF THE UMATILLA 
    RESERVATION OF OREGON
    Mr. Minthorn. Mr. Chairman, I am Antone Minthorn, chairman 
of the Board of Trustees, the governing body of the 
Confederated Tribes of the Umatilla Indian Reservations located 
in northeast Oregon. I have submitted written testimony for the 
record today, and I would like to summarize a few keys to the 
Umatilla Tribes.
    The principal message I would like to leave with you today 
is the fact the CTUIR supports the President's proposed budgets 
with the Bureau of Indian Affairs, the Office of Trust Funds 
Management, and the Indian Health Service. Historically, 
Federal funding for Indian programs have lagged behind funding 
for similar non-Indian program, and this disparity has been 
increasing in recent years. The increases that the President 
has proposed for the Fiscal Year 2000 budgets for these 
agencies is a step in the right direction to turn this 
situation around.
    I would like to take a few moments to emphasize our support 
for several specific components of the BIA budget. These are, 
one, law enforcement. We support increased funding for law 
enforcement and tribal courts. Two, In-Lieu sites. The 
President's budget, once again, includes $250,000 for the 
operation and maintenance of the In-Lieu fishing sites on the 
Columbia River. We strongly support the appropriation of these 
funds, and urge you not to eliminate them as they have been in 
the past several years. This funding is essential to delivering 
on the promises made by the United States that fishing sites 
inundated by the Columbia River dams would be replaced. Three, 
water rights negotiations litigation. The CTUIR strongly 
supports the additional funding for water rights negotiation 
litigation efforts. We have been working diligently with the 
Department of Interior and the State of Oregon to resolve a 
decades-old water rights dispute. Through the negotiations 
process, we are hoping to avoid the length and costs associated 
with litigation. Four, land consolidation programs. We were 
pleased that Congress funded this pilot program in Fiscal Year 
1999 to begin to address the immense fractionation problems 
that have resulted from the allotment acts. We urge you to 
continue and expand this important effort.
    There are several significant increases contained in the 
proposed IHS budget which we support, because they begin to 
address some health problems that exist in Indian country. Two 
of these are, one, alcohol and drug programs. Substance abuse 
is one of the major problems keeping a certain segment of 
people from participating in the economic that we have been 
making on our reservation. Further, we note that the BIA has 
proposed a small budget to institute an Office of Alcohol and 
Substance Abuse. In light of the historic toll that alcohol 
abuse has taken in Indian country, it is important that this 
office be funded.
    Two, diabetes. We were pleased that Congress provided 
funding last year for just this major health issue.
    Mr. Regula. We will read your testimony. The reason I have 
got to go; you probably heard the buzzer, and we only have 
about six minutes left to get over to vote.
    Mr. Minthorn. Okay.
    Mr. Regula. So, if you have one more point, then I have to 
leave, and we will be back to finish the list here. We have 
four.
    Mr. Minthorn. Okay, just in closing, Mr. Chairman, in a 
time when the Federal Government has generated a substantial 
budget surplus, there is no excuse for this committee to reject 
the modest increases in the BIA and IHS budgets proposed by the 
administration. We urge the subcommittee to support these 
increases. Thank you, Mr. Chairman.
    Mr. Regula. Thank you
    [The statement of Mr. Minthorn follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    Mr. Regula. The committee will be in recess for 10 or 15 
minutes, and then we will finish with the four groups yet to be 
heard.
    [Recess.]
                              ----------                              

                                          Thursday, April 15, 1999.

                        BUREAU OF INDIAN AFFAIRS


                                WITNESS

LLOYD D. TORTALITA, GOVERNOR, PUEBLO OF ACOMA
    Mr. Regula. Okay, we will reconvene the subcommittee. Next 
is Pueblo of Acoma.
    Mr. Tortalita. Good afternoon, Chairman. My name is Lloyd 
Tortalita. I am from Pueblo of Acoma. I am the Pueblo governor 
for this year, and Pueblo Acoma is located 60 miles north of 
Albuquerque, New Mexico.
    Mr. Regula. Okay.
    Mr. Tortalita. And I know a lot of people here on the East 
Coast sometimes do not know that New Mexico is not part of 
Mexico, but we are part of the United States also.
    Mr. Regula. You are in the eastern part. I was in 
Albuquerque looking at the Baca Ranch out there but you are to 
the east.
    Mr. Tortalita. West.
    Mr. Regula. You are west?
    Mr. Tortalita. West of Albuquerque going toward the State 
of Arizona.
    Mr. Regula. Okay.
    Mr. Tortalita. And I have submitted my testimony. Read that 
if----
    Mr. Regula. Yes, we have it.
    Mr. Tortalita. I have been testifying before different 
consultation hearings, and I have been doing this as a tribal 
member, as a program director for my reservation, but I have 
always been told that a lot of times after I had testified, 
they only want to hear it only from tribal leaders, and so a 
lot of my requests, at times, have gone unnoticed. So, I am 
requesting that, as a tribal leader now, I am finally coming 
before people have something to do with appropriations, so, 
hopefully, something gets done, because I am here as a tribal 
leader for my 6,000 tribal members that are from Pueblo of 
Acoma.
    Mr. Regula. We will try; we have a lot of requests.
    Mr. Tortalita. But I am just going to highlight I have 10 
requests on my testimony, but I am going to highlight----
    Mr. Regula. Okay, if you will quickly run through the 
points, please.
    Mr. Tortalita [continuing]. About five items. One of my 
requests for my tribal members is for water, water structure, 
and developing some water wells. We have a true need and also 
for development of wastewater----
    Mr. Regula. You have the underground water, but you need 
the wells?
    Mr. Tortalita. Yes, sir; we need the wells.
    Mr. Regula. Okay.
    Mr. Tortalita. And, also, we need to figure a way how to 
reuse the wastewater that we generate.
    Mr. Regula. Do you have a wastewater treatment plant?
    Mr. Tortalita. No. Presently, we just got we are trying to 
do a lot of partnerships with different departments. We just 
now got a grant through the RUS, or Rural UtilitySystem. We got 
a $4 million grant through them to develop one wastewater system, but 
we are trying to combine the pipelines and the wastewater treatment 
together in the amount of $6 million, and we are trying to figure what 
we are going to do with the wastewater and trying to address the 
irrigation and agriculture at the same time.
    Mr. Regula. All right. What else do you have there?
    Mr. Tortalita. The other one is we have a true need for a 
firehouse. We do not have a firehouse anywhere close by. We are 
in a rural area, and we are way out there.
    Another one we have a need for is a Head Start and a child 
care center, and we have a high drop-out rate in the State of 
New Mexico, and throughout Indian nations, this is true. In 
most of the Indian nations we have a need for a Head Start 
Program.
    Also, in addressing juvenile justice facilities----
    Mr. Regula. Yes, we have heard from a lot of tribes on 
this.
    Mr. Tortalita. And that is a true need because of the also, 
in the area of wellness and fitness because of the high rate of 
diabetes that we have on all the individuals
    Mr. Regula. This is a common theme today on both of those.
    Mr. Tortalita. So, those are really my primary requests.
    Mr. Regula. Okay.
    Mr. Tortalita. And one other request that I want to make as 
a person coming from the educational field is that all the 
years that I have been in Indian education, Indian education 
seems to be only addressed at the BIA. BIA is not the only 
program through the Department of Interior that does Indian 
education. The most forgotten child in the United States is the 
Native American students that attend public schools. So, we 
need to make sure that Congress understands what impact it does 
to our Indian students and Johnson-O'Malley programs.
    Mr. Regula. Okay. All right, thank you. Are you near the 
Baca Ranch?
    Mr. Tortalita. Yes, it is north of us.
    Mr. Regula. Okay, thank you very much.
    Mr. Tortalita. Thank you very much for giving me the 
opportunity to come before you and----
    Mr. Regula. You bet.
    Mr. Tortalita. Thank you very much.
    [The statement of Mr. Tortalita follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                                          Thursday, April 15, 1999.

           BUREAU OF INDIAN AFFAIRS AND INDIAN HEALTH SERVICE


                                WITNESS

VICTOR PRESTON, CHAIRMAN, SUSANVILLE INDIAN RANCHERIA
LEO GUITIEREZ, VICE CHAIRMAN, SUSANVILLE INDIAN RANCHERIA
    Mr. Regula. Susanville Indian Rancheria. Where are you 
located?
    Mr. Preston. Good afternoon. I am Victor Preston. I am the 
tribal chairman for the Susanville Rancheria.
    Mr. Kingston [presiding]. Excuse me, Mr. Preston, I am Jack 
Kingston.
    Mr. Preston. All right. This is Leo Guitierez. He is our 
vice chairman for the Susanville Rancheria. We are, I guess you 
say, a confederation of four tribes: the Piut Mayu, Pitt River, 
and Washow Bands who reside on our Rancheria which is located 
in Lassen County in the northeast area of California; we are in 
the high desert region. And we are here today, also, as 1 of 
107 federally-recognized tribes in California who still, 
ironically, are still a minority within the State which has one 
of the highest density of Indian populations in the Nation, but 
California Indians still are outnumbered by the amount of non-
tribal Indians who live primarily in the urban areas of 
California. That dilemma does create problems in funding 
allocations for our tribes.
    Historically, there has been a funding problem for 
California tribes; that is an equity issue in the allocation of 
funding for both our Indian Health Service and also our Bureau 
of Indian Affairs-funded programs. We have these deep concerns, 
because the funding has never met our needs and continues to 
not meet our needs. Just recently, for instance, our tribe had 
to comply with a mandate that came to us from Indian Health 
Service which was based upon the lack of funding that we had to 
fund our youth treatment center.
    We have an Indian Health Service-funded youth treatment 
center which is located on property that we just recently 
acquired. We do not have the funding to carry it through the 
fiscal year, and so we had to drop the program, because IHS 
could only fund us for just barely a third of what we needed to 
keep that program going. That created a problem for us but also 
the tribes who we serve, because we are now short one program 
in California which would have provided much needed alcohol and 
drug treatment services to Indian youth in the northern 
California area, and so now the other two programs, which are 
equally as underfunded as us, now have to bear the brunt of 
what we cannot do, but we are hoping that we will be able to 
reopen in the Fiscal Year 2000. Funding that is appropriated 
for that year will be a critical issue.
    Therefore, in providing our testimony, we want to address 
some specific issues that we want this subcommittee to look at. 
In regard to Indian Health Service, we propose and request that 
an increase in $52.2 million for mandatory cost increases that 
is inflation to the Indian Health Service budget for the year. 
We want to at least maintain the budget at the 1999 level of 
services that are provided.
    Two, we propose the restoration of the $5 millionreduction 
in Community Health Services Representatives; that is the CHR Program 
for California or, I mean, in the country. We request that the $5 
million reduction be restored for the CHR Program.
    Three, we propose an increase in $21 million for the youth 
regional treatment centers that I just addressed. These would 
be for operational costs.
    We support the proposed increase in $35 million for 
contract support costs. The total funding requirements for 
contract support costs for Fiscal Year 2000 is $309 million for 
which there is available $203.7 million. This leaves a 
shortfall of $105 million. The Self- Determination process is 
being delayed due to constraints on the funds available. 
Therefore, of course, we request this increase of $35 million 
be provided for the Indian's Self- Determination Fund.
    In regard, to Bureau of Indian Affairs funding, the 
President's budget provides for an increase of $155.6 million 
over the Fiscal Year 1999 enacted level. While we support the 
increases proposed, we would like to note that they do not 
restore certain programs such as the TPA, Tribal Priority 
Allocation funding. The small increases to TPA over the last 
several years have failed to keep up with inflation. The major 
concern we have is that northern is that California tribes be 
treated on an equitable basis and distribution of funds and 
these increase, if appropriated, are made by the BIA. We, 
therefore, request that the proposed budget for the BIA be 
appropriated as presented. We also request that special set-
aside funds for individual tribes be carefully scrutinized and 
funded only in cases of dire emergencies.
    We hope that this will address our needs for that year. We 
support the President's budget as it is, but we have concerns, 
and we hope we expressed them there, and there are more details 
contained in our written testimony. We thank you for this 
opportunity, and we will move on.
    Mr. Kingston. Thank you very much, Mr. Preston.
    Mr. Preston. All right. Thank you.
    [The statement of Mr. Preston follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                                          Thursday, April 15, 1999.

           BUREAU OF INDIAN AFFAIRS AND INDIAN HEALTH SERVICE


                               WITNESSES

MATTHEW THOMAS, CHIEF SACHEM, NARRAGANSETT INDIAN TRIBE
ROBERT KENAHAN, TRIBAL CHIEF OF POLICE, NARRAGANSETT INDIAN TRIBE
    Mr. Kingston. Okay, is it Matthew Thomas or is Robert 
Kenahan?
    Mr. Thomas. Good afternoon, Chairman.
    Mr. Kingston. Good afternoon.
    Mr. Thomas. I am Chief Sachem Matthew Thomas of the 
Narragansett Tribe of Rhode Island, and, today, I have with me 
our first ever tribal chief of police, Robert Kenahan, who will 
be giving our oral testimony, and, with that, I will turn it 
over the tribal chief of police.
    Mr. Kenahan. Good afternoon, Mr. Chairman. My name is 
Robert E. Kenahan. I am the tribal police chief of the 
Narragansett Indian Tribe in Rhode Island. On behalf of the 
Narragansett Indian Tribe, I am pleased to present the Tribe's 
statement concerning the Fiscal Year 2000 budget for the 
Department of Interior Bureau of Indian Affairs.
    The Tribe requests an increase of $20 million above the 
President's budget request for BIA law enforcement. As a newly 
appointed police chief of the Narragansett Tribe, I am here 
with Chief Sachem to explain why. I am qualified to speak about 
law enforcement needs. For more than 20 years, I served on the 
Rhode Island State Police, and the last three years being the 
State Police liaison officer between the attorney general's 
department and the 39 cities' and towns' police departments. 
For 18 years, after retirement, I worked in the security 
business rising to become the regional vice president of 
Pinkerton's Security Company.
    I have worn a number of uniforms in my time the United 
States Navy four years, the State Police for more than 21 
years, and, today, I proudly wear the dress uniform of the 
Narragansett Tribal Police Department. But good looking 
uniforms do not make an effective program.
    Trained patrol officers who follow established procedures, 
good communication and intelligence-gathering ability, 
detention facilities, and other resources spell the difference 
between the success and failure of a small and mostly rural law 
enforcement program.
    I would not be here before you today if it were not for the 
existence of the COPS FAST Grant through the Department of 
Justice which augments the Tribe's Public Law 93-638 funding. 
Our Fiscal Year 2000 proposed BIA law enforcement is only 
$69,000 augmented by the COPS FAST Grant. We need closer to 
$500,000, and let me tell you why and the Tribe's program.
    At the present time, the Narragansett Department consists 
of one patrol officer and myself. We have one patrol vehicle 
that we share; it is not adequately equipped. The reservation 
consists of 2,000 acres, some parcels of which are contiguous. 
We must patrol the Narragansett Church, the Longhouse, the Four 
Winds Community Center, Administration building, out-patient 
health center, housing site and an additional 1,500 acres of 
fee property. We patrol fortrespassers, abandoned vehicles, 
illegal hunting and fishing, and must respond to any emergencies. A 
full patrol of the reservation takes between two and a half to three 
hours.
    Our current radio equipment does not allow me to even 
maintain continuous contact with my police officer; that is not 
safe. We need three additional officers and a part-time 
dispatcher.
    In a matter of weeks, the Tribe's reservation will host 
summer campers in the annual Pow Wow which attracts thousands 
of spectators. We have two ponds on our reservation Deep Pond 
and School House Pond. At the present time, we do not even have 
adequate safety equipment of ropes and buoys in the event there 
is an emergency on the ponds.
    The Tribe's law enforcement program occupies a 10 by 10 
cubicle in the Tribe's Administration Building. Patrolman 
Johnson and I must excuse ourselves to a private office if we 
need to take a confidential call. Any complainant is in full 
view of the entire office staff. Privacy and confidentiality 
are important in law enforcement, and the lack of both inhibits 
our ability to effectively serve the tribal community.
    We would like to acquire a law enforcement office trailer, 
a patrol vehicle, so that we can properly perform the job we 
were hired to do.
    I am here to tell you today that Congress must provide more 
funding for the tribal police law enforcement if tribes are to 
be able to meet the law enforcement needs of the Indian country 
and provide the type of environment to attract families and 
businesses to the reservation.
    As a law enforcement professional, I truly believe that 
funds spent in law enforcement are funds well spent, and 
effective law enforcement programs saves lives and makes a 
difference in the community. Law enforcement is an essential 
component of any community's infrastructure.
    All successful undertakings have the same ingredients: 
determination by those involved and the resources to get the 
job finished. We have the determination; give us the resources, 
and we will finish the job for making Narragansett law 
enforcement an example of the well run law enforcement program 
for the entire Nation. Thank you very much.
    Mr. Kingston. Thank you very much.
    Mr. Thomas. Any questions, Mr. Chairman?
    Mr. Kingston. What is the population?
    Mr. Kenahan. We have approximately 2,700 tribal members.
    Mr. Kingston. They live on the 2,000 acres?
    Mr. Kenahan. No, the majority of them live off-reservation. 
At this particular time, we are trying to occupy the housing 
that we had to buy off-reservation due to the fact that most of 
it is swampland, and we are in litigation as we speak with the 
State of Rhode Island over putting that land into trust.
    Mr. Kingston. And how many people live on the 2,000?
    Mr. Kenahan. Right now, they only come usually during the 
warmer months of the season, so I would say during Spring/
Summer, we have approximately maybe 200 to 300 people 
periodically.
    Mr. Kingston. All right. Well, thank you very much.
    Mr. Kenahan. Thank you.
    Mr. Thomas. Thank you, sir.
    [The statement of Mr. Kenahan follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                                          Thursday, April 15, 1999.

           BUREAU OF INDIAN AFFAIRS AND INDIAN HEALTH SERVICE


                               WITNESSES

KELSEY A. BEGAYE, PRESIDENT, THE NAVAJO NATION
ROBERT YAZZIE, CHIEF JUSTICE, THE NAVAJO NATION
EDWARD BEGAY, NAVAJO NATION COUNCIL
    Mr. Kingston. Okay, Kelsey Begaye, Navajo Nation, welcome.
    Mr. Begaye. Good afternoon, members of the subcommittee, 
under the leadership of Chairman Regula. First of all, we want 
to thank you for previous funding appropriation allocations you 
have made to the Navajo Nation; it is greatly appreciated. I 
have two guests with me this afternoon. To my left, chief 
justice of the Navajo Nation, Robert Yazzie and Edward Begay 
with the Navajo Nation Council, and I am president of the 
Navajo Nation. We have several Navajo residents also in the 
audience.
    The Navajo Nation generally supports the BIA budget 
request. Specifically, we support the increase for the seven 
adult care facility rehabilitation joint BIA and USDOJ and law 
enforcement sets this initiative; the Bennett Freeze Housing 
and school construction for Seba Delkai schools. The Navajo 
Nation also actively participated in the joint Tribal Federal 
Work Group that was assisting the Tribe. The Interior Assistant 
Secretary of Indian Affairs prepared the congressionally-
mandate report that was held recently in a meeting in 
Albuquerque when Mr. Grover was in attendance. At that time, he 
informed us that based upon section 129, only, approximately, 
$10 million will be available for distribution for the 
prosperous gaming tribes, and if the $10 million were entirely 
provided to the Navajo Nation, there would stillremain $127 
million in unmet needs.
    The Navajo Nation needs are enormous given our rapid 
growing population and the land-base size. The Navajo Nation 
has continuously informed the BIA and Members of Congress that 
the current distribution of TPA funds does not meet our needs.
    The Navajo Nation strongly recommends that any formula 
developed for TPA distribution must be on a need basis, and 
also to take into consideration following, number one, the 
population; number two, geographic areas served; number three, 
types of land and resources; number four, proximity to service 
centers.
    Also, the Navajo Nation does not support mandatory means 
testing as a method tied to the distribution of TPA funds, as 
proposed by some Members of Congress. The basis for our 
opposition is simple: Congress does not apply this method to 
States and, thereby, and, therefore, we do not believe tribes 
should be subject to it as well. Means testing, also, is 
contrary to the principle of Self-Determination Indian Act 
statutes, Public Law 93-638.
    With IHS, Indian Health Services, as with the BIA budget, 
the Indian Health Service budget is dramatically underfunded. 
Nearly $1,200 per eligible beneficiary, IHS receives only 
approximately one-third of the national average of Medicare and 
Medicaid recoveries to supplement a significant portion of its 
funding. Consequently, IHS is dependent on such programs as the 
New Mexico Salud Program, such as the full recoveries, may not 
be repaid. This will result in a shortfall in the funding for 
the Navajo Nation area of IHS.
    In conclusion, the Navajo Nation appreciates this 
opportunity to express its concerns to this subcommittee. As 
you know, our written testimony is submitted in writing, and we 
are only highlighting some of the key areas. Thank you.
    Mr. Kingston. Thank you very much. Do any of you want to 
say anything?
    Mr. Begay. Thank you, Mr. Chairman. Just to emphasize what 
the President had emphasized that the Congress for a long time 
assists us in various categories of funding in the area of 
health, in the area of education, in the area of all the social 
services, and also in funding the Bureau of Indian Affairs, we 
have fallen behind in the school facilities, so, hopefully, 
that with your input as you weight the testimonies that it will 
very beneficial to our tribe. Thank you.
    Mr. Kingston. Do you know what has brought the drive for 
means testing about? Or can you tell me what the thinking is on 
it?
    Mr. Begaye. Well, the means testing was to assure that they 
should not be applied, when we talk about distribution of 
funds, to our Nation as other tribes, and that would be the 
gaming.
    Mr. Kingston. One of the things that we are seeing--I am 
from Georgia, and you are the largest tribe, and I guess you 
have seen lots of things--but we are seeing groups, I guess, 
establishing tribes for the purpose of gaming, and it appears 
to me that that is going to change the whole dynamic 
dramatically, as it already has, but even more so in the next 
five years. Do you want to comment on that?
    Mr. Begaye. As far as gaming, Mr. Chairman, the Navajo 
Nation has in its code that gaming is illegal. However, it can 
be done through referendum; it has been addressed by the 
population, our Navajo people, twice through a referendum vote, 
and both times they opposed it.
    Mr. Kingston. But you are the largest, 250,000 people. 
Smaller tribes who began popping on the East have maybe been 
dormant--I am not sure if that is the right word but dormant or 
inactive--suddenly have a great fervency for the gaming angle, 
and I do not want to put you on the spot, but do you want to 
make a general comment as to where that is going to take things 
in the next five years? Because that trend, we are seeing a 
lot. Inevitably, it affects BIA funding and the perception, and 
it will affect your tribe.
    Mr. Begaye. I believe the Navajo Nation, as I stated 
earlier, has spoken twice through the referenda. However, I 
believe also that there is other initiatives by which a tribe 
can seek funding. For example, one will be the banking 
initiative that we are pursuing at this time.
    Mr. Kingston. Okay.
    Mr. Yazzie. An additional comment. Like the President said, 
we are not a gaming tribe, but our focus is needs basis, and I 
think as on the TPA issue, that is our goal; that is to 
emphasize the needs basis should be given more attention, and 
in that I want to add that law enforcement initiative should 
not be deleted as it was in the past. The Navajo Nation takes 
law enforcement as a top priority, because we need to pay 
attention to the law enforcement in Indian country; we need to 
pay attention to the tribal courts; we need to pay attention to 
treatment provisions. Otherwise, if we just pay attention to 
law enforcement and no resources for tribal courts, it makes no 
sense to arrest people if there is no means to treat them with 
respect to violence; with respect to drinking and driving.
    Mr. Kingston. Do you get COPS grants also?
    Mr. Yazzie. Well, there is the COPS grants through Fiscal 
Year 1999, through the DOJ money, but that has not been given 
out yet; that has not been distributed as yet, and that is yet 
to be. So we are talking about the need as we have it now; the 
need as we have it tomorrow and for the future. Thank you.
    Mr. Kingston. Thank you very much; appreciate your 
testimony.
    Mr. Begaye. Thank you.
    [The statement of Mr. Begaye follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    Mr. Kingston. And this hearing is officially closed.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



                           W I T N E S S E S

                              ----------                              
                                                                   Page
Abramson, Cathy..................................................   136
Allen, W.R......................................................57, 473
Allison, Dr. S.R.................................................   480
Anaya, Maria.....................................................   366
Anderson, Jim....................................................   236
Apache, Burton...................................................    83
Armstrong, Bennie................................................    33
Ballew, Timothy..................................................    45
Begay, Edward....................................................   309
Begay, J.C.......................................................   151
Begaye, K.A......................................................   309
Belone, Phillip..................................................   350
Bennett, G.E.....................................................   390
Bighorn, Spike...................................................   225
Billie, J.E......................................................   386
Blazer, Karen....................................................    96
Blue, Chief Gilbert..............................................   510
BlueEyes, Faye...................................................   162
Bourland, G.J....................................................   491
Boyd, Merle......................................................   249
Brown, Robert....................................................   518
Bulfer, J.E......................................................   518
Capoeman-Baller, Pearl...........................................    51
Chicks, Robert...................................................   442
Clark, Robert....................................................   454
Colegrove, Wilfred...............................................    21
Commander, Brenda................................................   450
Courtemanch, D.L.................................................   453
Cukro, George....................................................   102
Cypress, Mitchell................................................   386
Darrow, Ruey.....................................................   400
Elliott, Leroy...................................................   518
Ettawageshik, Frank..............................................   432
Forquera, Ralph..................................................   362
Frank, Billy, Jr.................................................   236
Gachupin, Raymond................................................   206
Garcia, Adeline..................................................   362
Garcia, Martha...................................................   145
Gilmartin, Tim...................................................   124
Gipp, David......................................................   180
Goff, Ralph......................................................   518
Guenthardt, Robert...............................................   378
Guitierez, Leo...................................................   296
Hansen, K.C......................................................   470
Harrison, Kathryn................................................   279
Havatone, Earl...................................................   498
Hill, James......................................................   518
Hunsinger, Scott.................................................   162
Ivanhoff, Larry..................................................    27
Jerrod, Jeanne...................................................   219
Johnson, Alvis...................................................     8
Jones, G.J.......................................................    14
Joseph, J.L......................................................    70
Kalama, Carmen...................................................    76
Kenahan, Robert..................................................   302
Ketchum, Dee.....................................................   404
Knapp, Jim.......................................................   130
LaChappa, Clifford...............................................   518
LaPointe, L.W....................................................   255
LoneTree, J.H..................................................232, 488
Maulson, Tom...................................................187, 194
McCabe, Preston..................................................   139
McCloskey, Ruben.................................................   329
McConnell, J.F...................................................   113
Merculief, D.R...................................................   408
Meza, Kenneth....................................................   518
Minthorn, Antone.................................................   283
Moore, Donald, Sr................................................   199
Morris, Rex......................................................   162
Munk, Crow.......................................................     8
Murphy, Charles..................................................   180
Ninham, Sandy....................................................   243
Old Chief, William...............................................   412
Pakootas, Joseph.................................................   462
Patt, Olney, Jr..................................................   274
Peacock, Robert..................................................   213
Peters, Jim......................................................    39
Pico, Anthony....................................................    63
Pilcher, Donald..................................................   441
Pinkham, Jaime...................................................   374
Pinto, Tony......................................................   518
Poynter, Ken.....................................................   434
Preston, Victor..................................................   296
Purser, Diane....................................................    14
Quickel, K.E., Jr................................................   397
Rainwater-Sande, Stephanie.......................................   393
Rickets, Gary....................................................   106
Roessel, Robert..................................................   167
Rose, S.T........................................................     1
Sampson, Donald..................................................   416
Saulque, J.C.....................................................   267
Sayen, P.D.......................................................   386
Schlender, J.H.................................................195, 484
Sherry, Paul.....................................................    27
Shore, Paul......................................................   386
Silva, Anita.....................................................   318
Simmons, David...................................................   130
Simone, J.J......................................................   322
Skye, C.W........................................................   333
Smith, H.S.......................................................    89
Thomas, Matthew..................................................   302
Tom, Jeff........................................................   344
Tortalita, L.D...................................................   290
Tripp, Maria.....................................................   322
Tsosie, Wallace..................................................   119
Turner, Dennis...................................................   157
Walema, E.B......................................................   498
Warrior, D.C.....................................................   522
Wawronowicz, Larry...............................................   187
Whitefeather, Bobby..............................................   261
Whitish, Herbert.................................................   173
Williams, Terry..................................................   236
Wopsock, R.J.....................................................   358
Wynne, Bruce.....................................................   446
Yazzie, Albert...................................................   340
Yazzie, Robert...................................................   309


                               I N D E X

                              ----------                              
                                                                   Page
Alamo Navajo School Board........................................    83
Alaska Native Health Board.......................................    89
Alaska Native Tribal Health Consortium...........................    27
American Dental Association......................................     1
American Indian Higher Education Consortium......................   325
American Psychiatric Association.................................   420
Assiniboine and Sioux Tribes of the Fort Peck Indian Reservation.   225
Association of Navajo Community Controlled School Boards.........    96
Bad River Band of Lake Superior Chippewa Indians.................   199
Bering Sea Fishermen's Association...............................   370
Blackfeet Tribe..................................................   412
Black Mesa Community School......................................   102
Bristol Bay Area Health Corporation..............................   454
California Rural Indian Health Board.............................   267
Catawba Indian Nation............................................   510
Cheyenne River Sioux Tribe.......................................   491
Columbia River Inter-Tribal Fish Commission......................   416
Confederated Tribes of the Colville Reservation..................   219
Confederated Tribes of the Grand Ronde Community of Oregon.......   279
Confederated Tribes of the Umatilla Reservation of Oregon........   283
Confederated Tribes of the Warm Springs Reservation of Oregon....   274
Consolidated Tribal Health Project, Inc..........................   366
Council of Athabascan Tribal Governments.........................   106
Delaware Tribe of Indians........................................   404
Fond du Lac Band of Lake Superior Chippewa Indians...............   213
Fort Belknap Community Council...................................   113
Friends of Indian Health.........................................   506
Grand Portage and Bois Forte Bands of Lake Superior Chippewa 
  Indians........................................................   354
Grand Traverse Band of Ottawa and Chippewa Indians...............   390
Greasewood Springs Community School, Inc.........................   119
Great Lakes Fish and Wildlife Commission.......................194, 484
Group of Three Pharmacy Interests................................   347
Ho-Chunk Nation................................................232, 488
Houlton Band of Malisleet Indians................................   450
Hualapai Tribe...................................................   498
Institute of American Indian Arts................................   522
Intertribal Timber Council.......................................   374
Jamestown S'Klallam Tribe........................................    57
Joslin Diabetes Center...........................................   397
Karuk Tribe of California........................................     8
Ketchikan Indian Corporation.....................................   393
Lac du Flambeau Band of Lake Superior Chippewa Indians...........   187
Lawton Service Unit Intertribal Health Board.....................   400
Little River Band of Ottawa Indians..............................   378
Little Traverse Bay Bands of Odawa Indians.......................   432
Lummi Indiana Business Council...................................    45
Manzanita Band of Mission Indians................................   157
Mariano Lake Community School, Inc...............................   344
Metlakatla Indian Community......................................   124
Mohegan Tribe of Indians of Connecticut..........................   442
Narragansett Indian Tribe........................................   302
National Congress of American Indians............................   473
National Indian Child Welfare Association........................   130
National Indian Education Association............................   480
Native American Fish & Wildlife Society..........................   434
Native American Rights Fund......................................   382
Navajo Nation....................................................   309
Nez Perce Tribal Executive Committee.............................   424
Nisqually Tribal Council.........................................    76
Northern Cheyenne Tribe..........................................   514
Northwest Indian Fisheries Commission............................   236
Norton Sound Health Corporation..................................   458
Oneida Nation of Wisconsin.......................................   243
Pinon Community School Board.....................................   139
Port Gamble S'Klallam Tribe......................................    14
Prairie Band Potawatomi Nation...................................   438
Pribilof Island Aleut Community..................................   408
Pueblo of Acoma..................................................   290
Pueblo of Jemez..................................................   206
Pueblo of Laguna.................................................   337
Puyallup Tribe of Indians........................................   255
Quinalt Indian Nation............................................    51
Ramah Navajo Chapter.............................................   145
Ramah Navajo School Board, Inc...................................   350
Red Lake Band of Chippewa Indians................................   261
Rock Point Community School......................................   151
Rosebud Sioux Tribe..............................................   466
Rough Rock Community School Board................................   167
Sac and Fox Nation of Missouri...................................   441
Sac and Fox Nation of Oklahoma...................................   249
Samish Indian Nation.............................................   470
Saulk-Suiattle Indian Tribe......................................    70
Sault Ste. Marie Tribe of Chippewa Indians.......................   136
Seattle Indian Health Board......................................   362
Seminole Tribe of Florida........................................   386
Shiprock Alternative Schools, Inc................................   162
Shoalwater Bay Indian Tribe......................................   173
Shoshone-Bannock Tribes..........................................   502
Sisseton-Wahpeton Sioux Tribe....................................   494
Sonoma County Indian Health Project, Inc.........................   318
Southern Indian Health Council, Inc..............................   518
Spokane Tribe of Indians.........................................   446
Squaxin Island Tribe.............................................    39
Susanville Indian Rancheria......................................   296
The Squamish Tribe...............................................    33
United Indian Health Services, Inc...............................   322
United Sioux Tribes of South Dakota..............................   329
United Tribes Technical College..................................   180
Upper Columbia United Tribes.....................................   462
Ute Indian Tribe.................................................   358
Viejas Band of Kumeyaay Indians..................................    63
Wakpa Sica Historical Society....................................   333
Wide Ruins Community School......................................   340
Yakama Nation....................................................   428
Yankton Sioux Tribe..............................................   477

                                <greek-d>

</pre></body></html>
